<html>
<title> - THE CAPITOL INSURRECTION: UNEXPLAINED DELAYS AND UNANSWERED QUESTIONS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                 THE CAPITOL INSURRECTION: UNEXPLAINED
                    DELAYS AND UNANSWERED QUESTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2021

                               __________

                           Serial No. 117-21

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-570 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
             Amish Shah, Deputy Chief Investigative Counsel
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2021.....................................     1

                               Witnesses

The Honorable Christopher C. Miller, Former Acting Secretary, 
  Department of Defense
    Oral Statement...............................................     5
The Honorable Jeffrey A. Rosen, Former Acting Attorney General, 
  Department of Justice
    Oral Statement...............................................     9
Mr. Robert J. Contee III, Chief, Metropolitan Police Department
    Oral Statement...............................................    10

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              
Documents entered during the hearing by Unanimous Consent (UC) 
  are listed below.

  * Statement; submitted by Rep. Connolly.

  * Article regarding detainment of Jan. 6 defendants; submitted 
  by Rep. Biggs.

  * Article regarding detainment of Jan. 6 defendants; submitted 
  by Rep. Biggs.

  * Letter regarding the establishment of an investigative 
  commission; submitted by Rep. Sarbanes.

Documents are available at: docs.house.gov.

 
                 THE CAPITOL INSURRECTION: UNEXPLAINED
                    DELAYS AND UNANSWERED QUESTIONS

                              ----------                              


                        Wednesday, May 12, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Ocasio-Cortez, Tlaib, 
Porter, Bush, Wasserman Schultz, Welch, Johnson, Sarbanes, 
Speier, Kelly, Lawrence, DeSaulnier, Gomez, Pressley, Quigley, 
Comer, Jordan, Gosar, Foxx, Hice, Grothman, Cloud, Gibbs, 
Higgins, Norman, Sessions, Keller, Biggs, Clyde, Franklin, 
LaTurner, Fallon,Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Today, the committee will examine one of the darkest days 
in our Nation's history, the January 6 insurrection at the 
United States Capitol. On that day, a violent mob, incited by 
shameless lies told by a defeated President, launched the worst 
attack on our Republic since the Civil War. It was harrowing 
and heartbreaking.
    We watched as the temple of our democracy, a building we 
are as familiar with as our own homes, was overrun by a mob 
bent on murdering the Vice President and Members of Congress. 
The mob's goal was clear. They were trying to prevent the 
peaceful transfer of power to the newly elected President by 
halting the counting of electoral votes.
    This insurrection failed, but not before police officers 
were attacked and had to use deadly force to protect Members of 
Congress. Shots were fired mere feet from the House floor.
    Because of this horrific attack, four private citizens 
died. Three police officers lost their lives. Had it not been 
for the heroic men and women of law enforcement who faced down 
the mob, there would have been even more bloodshed that day.
    We know who provoked this attack. That is why 17 House and 
Senate Republicans joined all congressional Democrats in the 
bipartisan effort to impeach and convict for, and I quote, 
``inciting violence against the Government of the United 
States.''
    To quote Senator Minority Leader Mitch McConnell, ``There 
is no question, none, that President Trump is practically and 
morally responsible for provoking the events that day.''
    But the failures of January 6 go beyond the craven lies and 
provocations of one man. The Federal Government was unprepared 
for this insurrection, even though it was planned in plain 
sight on social media for the world to see. And despite all the 
military and law enforcement resources our Government can call 
upon in a crisis, security collapsed in the face of the mob, 
and reinforcements were delayed for hours as the Capitol was 
overrun. It is our duty to understand what went wrong that day, 
to seek accountability, and to take action to prevent this from 
ever happening again.
    We are joined today by the chief of D.C. Metropolitan 
Police Department, Robert Contee. On January 6, Chief Contee 
and his officers did not hesitate to answer the call, and over 
800 D.C. Police officers voluntarily rushed to the aid of the 
Capitol. D.C. Police stood side by side with the Capitol Police 
and displayed tremendous heroic actions.
    Chief Contee, we are in your debt.
    We also have with us two Cabinet heads from the Trump 
administration who led key Federal agencies on January 6. 
Neither has publicly testified about their role in these 
events, and I appreciate their willingness to testify today. 
Former Acting Attorney General Jeffrey Rosen led the Department 
of Justice, which was reportedly designated as the lead Federal 
agency for coordinating security in Washington on January 6.
    The potential for violence that day was clear. In December, 
the New York Police Department warned the FBI that certain 
protesters viewed January 6 as an opportunity for violent 
revolt. Then again, on January 5, the FBI office in Norfolk, 
Virginia, warned that extremists were discussing ``specific 
calls for violence against Congress on January 6,'' including a 
message to ``go there ready for war.''
    The Justice Department and the FBI have a special duty to 
warn of domestic terrorist threats. Yet it is clear that 
despite all of this intelligence, the Federal Government was 
not prepared. Today, more than four months later, we are still 
in the dark about exactly what went wrong.
    Did the Trump administration fail to adequately prepare for 
violence because it had a blind spot for rightwing domestic 
terrorism? As the lead agency on January 6, why did the 
Department--the Justice Department--fail to coordinate an 
effective and timely response to the attack on the Capitol?
    We simply do not know. In part, that is because neither DOJ 
nor the FBI have produced a single piece of paper in response 
to the requests sent by six House committees, including this 
one, in March. Not a single piece of paper, not a single 
document. This is completely unacceptable.
    I was hoping to have FBI Director Christopher Wray here 
today to address the unanswered questions about the FBI's 
actions. I sent him multiple invitations and even rescheduled 
this hearing twice, but he declined to appear. However, I am 
pleased to announce that Director Wray has agreed to appear 
before this committee in June, and I look forward to his 
testimony then.
    Our final witness today is former Acting Secretary of 
Defense Christopher Miller, who led the Department of Defense 
on January 6. When the Capitol came under siege, the Capitol 
Police were badly outnumbered. The world looked to the 
Department of Defense to protect our Government from attack. 
Yet DOD did not authorize the deployment of D.C. National Guard 
troops to the Capitol until nearly four hours--four hours--
after local officials first pled for help. Even though we were 
under full-scale assault, DOD hesitated until Vice President 
Pence--not President Trump--gave the order to ``clear the 
Capitol.''
    DOD's explanations of its own actions have failed to 
address critical questions. Why did military leaders place 
unusual restrictions on commanders on the ground? Mr. Miller 
says that he first learned that the mob had entered the Capitol 
between 1 p.m. and 1:30 p.m. So why did the Defense Department 
wait until after 5 p.m.--5 p.m.--before sending the National 
Guard to the Capitol?
    Today's hearing will not be the end of our investigation. 
This committee, along with other committees in the House, will 
continue to seek a full accounting of this attack. Even today, 
our colleagues in the House Administration Committee are asking 
tough questions of the Inspector General for the Architect of 
the Capitol.
    This oversight is essential, but we also need an 
independent bipartisan commission focused on investigating the 
root causes of this insurrection. The 9/11 Commission has 
taught us that even in our most difficult moments, we can come 
together as one and answer hard questions, as we did as a 
Congress after 9/11.
    The 9/11 Commission made dozens of recommendations to 
overhaul our Nation's security and intelligence operations, and 
Congress followed through in a bipartisan way, passing 
legislation to implement most of the Commission's bipartisan 
proposals. We need that same determination, that same resolve 
and action today.
    This Nation stands at a crossroads, and the path we choose 
will define American democracy for generations to come. We must 
reject President Trump's big lie and the violent insurrection 
it inspired. No Member of Congress, whether a freshman 
representative or House conference chair, should face 
punishment for speaking the truth about what happened that day.
    As Congresswoman Cheney said last night, and I quote, 
``Remaining silent and ignoring the lie emboldens the liar. We 
must speak the truth. Our election was not stolen, and America 
has not failed.''
    It is time for the American people and this Congress to 
look at the events of January 6 and say ``never again.''
    I now recognize the distinguished ranking member, Mr. 
Comer, for an opening statement. And I yield back.
    Mr. Comer. Thank you, Madam Chair.
    What happened on January 6 at the U.S. Capitol is 
unacceptable. Those who committed crimes and violence on 
January 6 must be held accountable, and the Justice Department 
is actively working to do just that.
    As of April 16, 410 defendants have been arrested. Their 
names, the charges, and place of arrest are all listed on DOJ's 
website. The charges include assaulting, resisting, or impeding 
officers or employees, some of which include using a deadly or 
dangerous weapon. Some have been charged with conspiracy. 
Others have been charged with trespassing on Federal property.
    The FBI continues to seek perpetrators of crimes committed 
on January 6. The FBI's website is filled with pictures, 866 
photos and videos of individuals being sought in connection 
with the events on January 6.
    Less than a week after the attack on the U.S. Capitol, I 
joined Ranking Members Rodney Davis and John Katko in 
introducing a bill to create a bipartisan commission to 
investigate the facts and circumstances related to the attack. 
The commission would also identify, review, and evaluate 
lessons learned in order to detect, prevent, and respond to 
such kinds of attacks in the future.
    But instead of seeking to examine the facts in a bipartisan 
fashion, Speaker Pelosi and the Democrats have politicized the 
January 6 attack. Until last week, Speaker Pelosi refused to 
entertain an even split on the panel. For three months, she 
dragged her feet and failed to build consensus. Meanwhile, the 
Senate engaged in bipartisan, constructive problem-solving.
    Instead of looking at what we can control, the security at 
the Capitol, Speaker Pelosi, Chairwoman Maloney, and other 
Democrats have wrongly targeted perceived conservative 
technology companies for the role they may have played in this 
violence. Well, Chairwoman Maloney looked into this issue, and 
guess what? There was nothing there. That is why you haven't 
heard anything about it. Because there was nothing there.
    If looking at the facts, it is clear that Facebook, 
Twitter, and other big tech companies' platforms were used to 
organize this violence. The FBI and Department of Justice have 
laid out their roles very clearly in their criminal complaints 
and indictments. But the Democrats refuse to investigate those 
companies or even ask tough questions of them. I guess the 
Democrats just don't want to bite the hand that feeds them.
    Additionally, Democrats continue to demonize tens of 
millions of Americans who support President Trump and have 
legitimate questions about the integrity of the elections. 
Expressing concern over election integrity is not a seditious 
act. Plenty of my Democrat colleagues expressed concern in past 
elections. What is wrong is when individuals take to crime, 
violence, and mob tactics. This was wrong on January 6, and 
this was wrong last summer when several cities across the 
country were attacked by rioters.
    The political violence that resulted in the burning of our 
post offices; the destruction of other Federal buildings; mob 
attacks on live television; violence in the streets of 
Portland, Minneapolis, and other cities; businesses boarded up 
with graffiti sprayed everywhere; commerce, even here in D.C., 
ground to a halt. It is hypocritical that Speaker Pelosi and 
Democrats refused to examine the political violence Americans 
witnessed on television every night last summer.
    According to one report, 25 Americans died during these 
violent political protests in the summer and fall of 2020. Many 
Americans' property and livelihood were destroyed. Instead of 
condemning this violence, many Democrats supported and 
encouraged it. Kamala Harris even contributed to bail out some 
of the rioters.
    Many Democrats continue to engage in such dangerous 
rhetoric. Democrat Chairwoman Maxine Waters recently called on 
the public to ``get more confrontational'' if there was a 
verdict of ``not guilty'' in the case in Minneapolis. No wonder 
America thinks Congress is broken. We can't ignore some acts of 
violence and then use others for political gain, which is what 
we are doing here today. This is unbecoming of Americans' 
elected representatives in Congress.
    The justice system must work its course to hold violent 
offenders accountable. Congress must examine both the January 6 
attack and the violence we witnessed last summer to prevent it 
from happening. We owe it to the American people to address 
these acts of violence. The American people deserve better from 
their elected representatives.
    I look forward to a constructive examination of missteps 
that occurred on January 6 and strategies for guarding against 
these errors in the future.
    Finally, Madam Chairwoman, I want to tell the families of 
those who died in the wake of these events that my prayers have 
been with them over the course of the past several months. Our 
law enforcement, who put their lives on the line for us each 
and every day, deserve better from their leaders. They deserve 
strong and decisive leadership.
    I will close now by thanking them and remembering the 
fallen. May God bless them and their families.
    And with that, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    I would now like to introduce the witnesses that will be 
testifying today.
    Our first witness today is Christopher Miller, who is the 
former Acting Secretary of Defense and who served in that role 
on January 6. Then we will hear from Jeffrey Rosen, who is the 
former Acting Attorney General. He also served in that role on 
January 6. Finally, we will hear from Robert Contee, who is the 
chief of the Metropolitan Police Department in the District of 
Columbia.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Response.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative.
    Thank you. And without objection, your written statements 
will be made part of the record.
    With that, Mr. Miller, you are now recognized for your 
testimony. Mr. Miller?

 STATEMENT OF CHRISTOPHER C. MILLER, FORMER ACTING SECRETARY, 
                     DEPARTMENT OF DEFENSE

    Mr. Miller. Chairwoman Maloney and members of this 
committee, the January 6, 2021, attack on the Capitol was 
unconscionable. I'm grateful for the opportunity to provide 
needed context and insight to this committee about the events 
of that day and what I believe was your military's appropriate 
response. This is long overdue.
    I'd first like to express my thanks to the first responders 
who tried to contain the mob and defend the Capitol complex and 
the individuals there. They are true heroes. And that word is 
overused oftentimes, but definitely not in this case. And as we 
assess the response, we should not lose sight of their brave 
actions that day.
    I served as the Acting Secretary of Defense that day, and 
as such, I was ultimately responsible for Department of Defense 
support to local and Federal law enforcement agencies who held 
primary responsibility for safeguarding the Vice President, the 
Members of Congress, and the Capitol complex.
    My background is summarized in my written statement, but I 
served in the Army for over 30 years, including service in the 
District of Columbia Army National Guard and in units with 
responsibility for protecting Washington, DC. I have personally 
led our soldiers, sailors, airmen, and Marines in combat in 
urban environments.
    Following my retirement from the Army as a full colonel, I 
resumed Government service in a variety of positions in the 
prior administration, including at the National Security 
Council, where I focused on defeating al-Qaeda and retooling 
the Government to address the challenge of domestic terrorism. 
I was unanimously confirmed by the Senate to serve as the 
Director of the National Counterterrorism Center.
    On November 9, 2020, I was designated as the Acting 
Secretary of Defense and served in that position until the new 
administration took office. I'm now a private citizen, but I 
remain focused on supporting the members of the Armed Forces, 
veterans, and their families.
    As to the events leading up to January 6. On December 31, 
2020, Washington, DC, Mayor Muriel Bowser sent a written 
request to Major General William J. Walker, Commanding General 
of the District of Columbia National Guard, seeking unarmed 
National Guard support to the District of Columbia Metropolitan 
Police Department for planned demonstrations scheduled for 5 
and 6 January.
    I formally approved the request on January 4, 2021. We 
received no further request for different or additional support 
until the Capitol was breached.
    I want to highlight. You said in my opening statement, I 
want to clarify, at 1 p.m.--between 1 p.m. and 1:30 p.m., I 
noticed that the outer perimeter had been breached, not the 
Capitol itself. I know that's sometimes difficult to 
understand, but that's one of the purposes of this hearing 
today is to make sure we get our lexicon straight.
    I want to remind you and the American public that during 
that time, there was irresponsible commentary by the media 
about a possible military coup or that advisers to the 
President were advocating the declaration of martial law. I was 
also very cognizant of the fears and concerns about the prior 
use of the military June 2020 response to protests near the 
White House.
    And just before the Electoral College certification, 10 
former Secretaries of Defense signed an op-ed published in the 
Washington Post warning of the dangers of politicizing and 
inappropriately using the military. No such thing was going to 
occur on my watch, but these concerns and hysteria about them 
nonetheless factored into my decisions regarding the 
appropriate and limited use of our Armed Forces to support 
civilian law enforcement during Electoral College 
certification.
    My obligation to the Nation was to prevent a constitutional 
crisis. Historically, military responses to domestic protests 
have resulted in violations of Americans' civil rights and 
even, in the case of the Kent State protests of the Vietnam 
War, tragic deaths. In short, I fervently believe the military 
should not be utilized in such scenarios other than as a last 
resort and only when all other assets have been expended.
    On January 6, 2021, 8,000 local and Federal law enforcement 
officers were on duty in the District of Columbia. I was told 
during planning sessions that such a force routinely manages 
demonstrations well north of 100,000 demonstrators. That is 
what they are trained, equipped, chartered, and expected to do.
    Many commentators have mischaracterized my instructions and 
Army Secretary Ryan McCarthy's accompanying guidance as somehow 
contributing to the inability of the Guard to respond or, even 
worse, that those instructions somehow enabled the mob to enjoy 
an easy path to the Capitol. That is completely false. We did 
not disarm the National Guard. The request from the Mayor was 
for unarmed support of local law enforcement, and we authorized 
the support she and General Walker requested.
    At about 2:30 p.m., it became clear to me that local and 
Federal law enforcement personnel were insufficient to address 
the situation, and the Department of Defense would be required 
to play a much larger role in reestablishing order and 
maintaining security in Washington, DC. At 3 p.m., I approved 
the activation and mobilization of the full District of 
Columbia National Guard to assist Capitol Police and the 
Metropolitan Police Department.
    At 5:20 p.m., National Guard personnel arrived at the 
Capitol and began operations in support of domestic law 
enforcement entities there. Order was restored by 8 p.m. that 
evening, and the Electoral College results were certified.
    Those of you with military experience or who understand the 
nature of military deployments will recognize how rapid our 
response was. Criticism of the military response is unfounded 
and reflects inexperience with or a lack of understanding of 
the nature of military operations or, worse, is simply the 
result of politics. I suspect a combination of both of these 
factors.
    There are complexities to redeploying forces in an urban 
environment, and again, the critics disregard the subordinate 
role the military must play in the rare instances it is 
necessary to use such force to support domestic law enforcement 
agencies. This isn't a video game where you can move forces 
with the flick of a thumb or a movie that glosses over 
logistical challenges and the time required to coordinate and 
synchronize with a multitude of other entities involved, or 
with complying with the important legal requirements involved 
in the use of such forces.
    I have been in more crisis situations than I can 
meaningfully recall. I have personally been in riots, fist 
fights and brawls, gunfights, aircraft mishaps, mortared, 
rocketed, attacked with improvised explosive devices. And as a 
leader, I have commanded forces engaged in the most complex and 
hazardous military activities and operations known to 
humankind. Good leaders slow things down to plan and then brief 
their soldiers, ultimately saving time and lives.
    Assembling soldiers, equipping them correctly, conducting 
an abbreviated planning session, and briefing all those 
involved of their task, mission, purpose, limits, and rules of 
engagement. Coordinating and synchronizing with the police and 
other domestic agencies on the ground to guarantee the National 
Guard's movements supported their efforts. Moving them from the 
assembly point to the appropriate location and deputizing them 
by a civilian law enforcement official prior to employing them.
    This is not a mere symbolic exercise. It all takes time. It 
all takes time. I also had the responsibility to the members of 
our Armed Forces and their families to make sure that when I 
sent them into difficult situations, I sent them in with a plan 
to not only succeed, but that would spare them unnecessary 
exposure and spare everyone the consequences of poor planning 
or execution.
    Our arrival needed to impress upon the mob that the 
situation had fundamentally changed with the arrival of 
disciplined, organized, and overwhelming strength so that the 
balance of power had decisively shifted back in favor of the 
forces of order, and it was in their best interest to give up 
and give up quickly. And I believe it did.
    Again, anyone familiar with the culture, nature, practices 
of the military, and the character of military operations in 
urban environments would understand the enormous accomplishment 
of the District of Columbia National Guard and Army leadership 
in responding so effectively and quickly that afternoon. As 
General Milley correctly assessed, the Chairman of the Joint 
Chiefs of Staff, the military's response that day, the 
Department of Defense responded at ``sprint speed.''
    I stand by every decision I made on January 6 and the 
following days. I want to emphasize that our Nation's Armed 
Forces are to be deployed for domestic law enforcement only 
when all civilian assets are expended and only as the absolute 
last resort.
    To use them for domestic law enforcement by any other 
manner is contrary to the Constitution and a threat to the 
Republic. I ask you to consider what the response in Congress 
and the media had been if I had unilaterally deployed thousands 
of troops into Washington, DC, that morning against the 
expressed wishes of the Mayor and the Capitol Police, who 
indicated they were prepared.
    I know that the brave law enforcement officers serving on 
the frontlines on January 6, 2021, did their best to protect 
the Capitol and the individuals, many of who are on this 
hearing today, who were in harm's way from a lawless and 
ignorant mob, acting contrary to nearly two and a half 
centuries of peaceful and respectful transfers of power under 
our Constitution. I'm enormously proud of those National Guard 
soldiers and airmen who selflessly answered the call on January 
6, 2021, and in the subsequent weeks to support domestic law 
enforcement and our Constitution.
    Watching them, talking to them, listening to them, and 
trying to support them as best I could remain the high points 
of my term as the Acting Secretary of Defense. They are 
America's treasure and our true patriots, our true patriots. We 
must be worthy of their selfless service and sacrifice.
    Thank you.
    Chairwoman Maloney. Thank you.
    Mr. Rosen, you are now recognized for your testimony. Mr. 
Rosen?

STATEMENT OF JEFFREY A. ROSEN, FORMER ACTING ATTORNEY GENERAL, 
                     DEPARTMENT OF JUSTICE

    Mr. Rosen. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, good morning. My name is Jeff Rosen, 
and from December 24, 2020, to January 20 of this year, I had 
the honor of serving as the Acting Attorney General of the 
United States.
    I appreciate this opportunity to discuss the actions taken 
by the Department of Justice on January 6 to help restore order 
in the Capitol, to enable the completion of Congress' 
certification of the Electoral College vote, and to begin the 
process of bringing to justice those who attacked the Capitol.
    The events of January 6 were a national travesty and an 
intolerable attack on our democratic values. To those who 
risked their safety to protect everyone at the Capitol, I honor 
your bravery. To the families of the Capitol Police officers or 
others who were injured that day or died in the wake of the 
attack, I extend my deepest sympathy. And to all of you and 
your staff who lived through that day, I share the justified 
anger at what you endured.
    But I also take solace in the fact that our Republic never 
faltered. Buildings were breached, but the Constitution and our 
shared values were a bulwark against the violent mob. As set 
out in my written testimony, the Department of Justice prepared 
appropriately in the period before January 6, and I'm proud of 
the Department's response on January 6, when we urgently 
deployed more than 500 agents and officers from the FBI, ATF, 
and U.S. Marshals to assist in restoring order at the Capitol.
    That included the number-two officials from both DOJ and 
FBI personally going to the Rotunda while the intrusion was 
still underway. All of these outstanding men and women from DOJ 
moved with urgency to assist the Capitol Police in the midst of 
an unprecedented security breach, and they helped to clear and 
secure the hallowed epicenter of our representative government.
    As to holding the wrongdoers accountable, I'm also 
extremely proud of the swift action taken thereafter by DOJ 
personnel and the FBI and the D.C. U.S. attorney's office to 
investigate and, where appropriate, begin to prosecute those 
responsible for the disgraceful attack on the Capitol.
    I appreciate the importance of today's oversight hearing, 
and I welcome the opportunity to share with you what I know 
about the January 6 events in light of my prior role at the 
Department of Justice. The Justice Department, of course, must 
always be guided by our Constitution and the rule of law. That 
is what guided me.
    The Department of Justice acted with the utmost integrity 
and urgency to support our institutions of government to the 
very best of our abilities when the legislative branch came 
under attack on January 6. The violence that occurred at the 
Capitol on the afternoon of January 6 should never be repeated. 
As a society, we need to restore greater respect for our 
Constitution, for our representative form of government, and 
for the rule of law.
    I'll look forward to your questions about January 6 but 
should note as a threshold matter that there are some 
unavoidable limitations on the testimony I can provide at this 
time. For one, my access to information is limited because I am 
no longer with the Department of Justice. Further, while the 
events of that day will be with me forever, my memory is 
unlikely to be perfect, as I'm sure for all of us, there are 
some aspects that are seared in memory and others that have 
become a blur.
    Moreover, I have been authorized by the Department of 
Justice to testify here today only on certain topics within the 
scope of today's hearing as I'm bound as a lawyer and the 
former--and as a former Cabinet officer of the executive branch 
to maintain some kinds of information in confidence and also 
must avoid making any statements that could interfere with the 
numerous ongoing investigations and prosecutions of individuals 
involved in the events of January 6.
    I appreciate your patience and understanding as to those, 
as I will otherwise do my best to address the events of January 
6 as I saw them.
    With that, thank you for inviting me today, and I'll look 
forward to your questions.
    Chairwoman Maloney. The gentleman yields back.
    And our next appointed speaker is Mr. Contee.

 STATEMENT OF ROBERT J. CONTEE III, CHIEF, METROPOLITAN POLICE 
                           DEPARTMENT

    Chief Contee. Good morning, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. I am Robert J. 
Contee III, chief of police of the Metropolitan Police 
Department, the primary police force in the District of 
Columbia.
    I appreciate this opportunity to brief you on the events of 
January 6, 2021, a dark day for our country. It is critically 
important that we, Members of Congress, District leaders and 
residents, and all Americans find answers to questions about 
the 6th. I'll relate to you the facts as we know them at this 
time, based on the point of view of the Metropolitan Police 
Department and the government of the District of Columbia.
    As with any event with multiple agencies, thousands of 
people, and almost as many cameras as people, there will 
inevitably be several perspectives and possibly inconsistencies 
that would need to be aligned as more information is gathered. 
I would like to begin by highlighting a few key facts to ensure 
the committee and the audience understand the very different 
roles of Mayor Muriel Bowser and the District of Columbia, 
including MPD, and those of congressional and Federal 
authorities.
    First, the MPD is prohibited from entering the Capitol or 
its grounds to patrol, make arrests, or serve warrants without 
the consent or request of the Capitol Police Board.
    Second, unlike any other jurisdiction in the country, the 
President of the United States--not the Mayor of the District 
of Columbia--controls the D.C. National Guard. Any request 
submitted by the Mayor to mobilize the D.C. National Guard must 
be approved by the President, and the scope of the request must 
be limited to supporting the District's local jurisdiction and 
authority, which excludes Federal entities and property. A 
request for the Guard's assistance at the Capitol or its 
grounds would have to be made by Capitol Police, with the 
consent of the Department of Defense.
    Third, since Mayor Bowser declared a public health 
emergency in March 2020, the District of Columbia has not 
issued permits for any large gatherings. On the morning of 
January 6, MPD was prepared to support our Federal partners 
with a First Amendment assembly that was held primarily on 
Federal land, while continuing to patrol and respond to calls 
for service throughout city neighborhoods.
    In preparation for the anticipated demonstrations and the 
possibility of violence on city streets, the department was 
fully deployed on 12-hour shifts the week of January 4, with 
days off and leave canceled. Our Federal partners each had 
their primary areas of responsibility. The Secret Service was 
focused on the security of the former President and the White 
House area. Park Police was focused on the Ellipse and the 
National Mall. And Capitol Police had responsibility for the 
Capitol, including both the building and grounds.
    At Mayor Bowser's request and in advance of the scheduled 
demonstrations, mutual aid was requested from several area 
police departments to be on standby in the District, and more 
than 300 members of the D.C. National Guard were deployed on 
District streets, providing traffic control and other services, 
to allow MPD to support the First Amendment assembly and 
continue to provide services to D.C. neighborhoods. What 
follows is a brief outline of MPD's role in these events.
    At about 12:45 p.m., the first of two pipe bombs were 
found. The first one at the Republican National Committee 
headquarters. The second was found about 30 minutes later at 
the Democratic National Committee headquarters. MPD responded 
to the scenes for the pipe bombs to assist the Capitol Police.
    At 12:58 p.m., Chief Sund asked for MPD's assistance to 
address the growing violent mob at the Capitol. Officers were 
immediately authorized to deploy to the West Front of the 
Capitol and arrived within minutes. Our members arrived at a 
chaotic scene. The violent mob quickly overran protective 
measures at the Capitol prior to the arrival of MPD officers at 
the West Front.
    MPD platoons immediately began working to achieve our 
objectives. One, stop rioters from entering the Capitol 
building and remove those that were already inside. Two, secure 
a perimeter so that the Capitol could be cleared for lawmakers. 
Three, enable Congress to resume their sessions to demonstrate 
to our country and the world that our democracy was still 
intact. And four, last, only once the third objective had been 
accomplished, begin making arrests of anyone violating the law.
    At 2:22 p.m., a call was convened with, among others, 
myself, leadership of the Capitol Police, the D.C. National 
Guard, and the Department of the Army. On this call, the 
Capitol Police chief made an urgent request for support from 
the National Guard due to the dire situation we were facing. In 
the meantime, by 2:30 p.m., the District had requested 
additional officers from as far away as New Jersey and issued 
notice of an emergency citywide curfew beginning at 6 p.m.
    The seven hours between the urgent call for help from the 
Capitol Police to MPD and the resumption of work at 8 p.m. by 
both houses of Congress will be forever etched in the memories 
of every law enforcement officer who was on the scene, and it 
is undoubtedly in the minds of the elected officials, 
congressional staff, and other Capitol employees who were 
forced to seek safety behind locked doors.
    Other harm from this traumatic day will be widely felt, but 
possibly unacknowledged. Law enforcement training neither 
anticipates nor prepares for hours of hand-to-hand combat. Even 
brief physical fights are physically and emotionally draining.
    In closing, I appreciate the opportunity to highlight the 
heroism of MPD officers and all of the law enforcement officers 
who responded to the Capitol and put their lives on the line to 
protect the Capitol, Congress, and our democracy. But to ensure 
the continued safety of the District and its residents, the 
Federal enclave, MPD officers, and others, we must be frank in 
looking at several critical issues.
    The Federal police forces in D.C. are reexamining their 
security protocols, given the risks of both foreign and 
domestic terrorism. As the chief of the District's municipal 
police force, I must think about our preparations not only for 
possible attacks, but the daily impact of the changing 
operations of our Federal partners. As they harden targets in 
the Federal enclave, other buildings in the city under MPD 
jurisdiction may become more likely targets.
    Thank you again for the opportunity to brief you today. 
I'll be happy to answer questions as we try to come to terms 
with January 6.
    Thank you.
    Chairwoman Maloney. Thank you. And I now recognize myself 
for questions.
    On January 6, Congress was fulfilling its constitutional 
duty to certify the results of the Presidential election when 
Vice President Pence, Speaker Pelosi, and other Members of 
Congress had to be quickly evacuated because a violent mob had 
breached the Capitol.
    Mr. Miller, you were the Acting Secretary of Defense on 
January 6. Did President Trump, as the commander-in-chief of 
the U.S. Armed Forces, call you during the January 6 attack to 
ensure the Capitol was being secured? Mr. Miller?
    Mr. Miller. No, I had all the authority I needed from the 
President to fulfill my constitutional duties.
    Chairwoman Maloney. Did you speak with President Trump at 
all as the attack was unfolding?
    Mr. Miller. On January 6?
    Chairwoman Maloney. Yes.
    Mr. Miller. No, I did not. I didn't need to. I had all the 
authority I needed and knew what had to--I knew what had to 
happen.
    Chairwoman Maloney. Did you speak with Vice President Pence 
during the attack, yes or no?
    Mr. Miller. Yes.
    Chairwoman Maloney. According to a Defense Department 
timeline, it was Vice President Pence, and not President Trump, 
who called during the siege to say the Capitol was not secure 
and to give you the direction to ``clear the Capitol.'' What 
specifically did Vice President Pence say to you that day?
    Mr. Miller. The Vice President is not in the chain of 
command. He did not direct me to clear the Capitol. I discussed 
very briefly with him the situation. He provided insights based 
on his presence there, and I notified him or I informed him 
that by that point, the District of Columbia National Guard was 
being fully mobilized, and it was in coordination with local 
and Federal law enforcement to assist in clearing the Capitol.
    Chairwoman Maloney. According to the DOD timeline, the Vice 
President's call to you occurred at 4:08 p.m., more than two 
hours after the Capitol had been breached. Yet according to 
this timeline, it was not until after your call with the Vice 
President at 4:32 p.m. that you authorized D.C. National Guard 
troops to deploy to the Capitol.
    Did you issue your order in response to the Vice 
President's call?
    Mr. Miller. No. I issued the order to mobilize the District 
of Columbia National Guard and provide all necessary support to 
civilian and local and Federal law enforcement at 3--I gave 
approval at 3 p.m., and the order was issued at 3:04 p.m.
    Chairwoman Maloney. Well, Mr. Miller, your order to deploy 
came only 24 minutes after the Vice President called you, and 
your testimony is that they are unrelated. Do I have that 
right?
    Mr. Miller. I'm sorry. You're going to have to say that 
again.
    Chairwoman Maloney. That is hard for me to believe, but I 
am going to move on.
    Mr. Miller. No, I--what's the question, ma'am?
    Chairwoman Maloney. Mr. Rosen, let me--excuse me. Mr. 
Rosen, let me now turn to you. You were the Acting Attorney 
General on January 6, and you reported directly to the 
President. Did you speak to President Trump at all on January 
6?
    Mr. Rosen. No, I did not. I did not require any authorities 
that the Department didn't already have.
    Chairwoman Maloney. Well, I think that the lack of direct 
communication from President Trump speaks volumes. President 
Trump swore an oath to protect the Constitution and to 
faithfully execute his duties as commander-in-chief. But when 
his supporters attacked our Nation's Capitol, the President was 
nowhere to be found, leaving it to others to scramble to 
respond.
    I would like to close with a few simple questions. Mr. 
Rosen, you were the head of the Justice Department on January 
6. Do you believe the 2020 Presidential election was stolen 
from President Trump?
    Mr. Rosen. Chairwoman Maloney, I addressed that issue in my 
written statement, and I don't really have anything beyond that 
other than to say that there was no evidence presented of 
widespread fraud of a sufficient scale to overturn the 
election.
    Chairwoman Maloney. And Mr. Miller, based on his actions 
leading up to January 6 and on the day of the attack, do you 
believe President Trump fulfilled his oath to faithfully 
execute his duties as President and to preserve, protect, and 
defend the Constitution?
    Mr. Miller. Yes.
    Chairwoman Maloney. Well, I think the evidence is clear. 
The President refused to lift a finger to send aid after he 
incited a violent rebellion against our Republic. The 
President, therefore, betrayed his oath of office and betrayed 
his constitutional duty.
    My time has expired, and I now recognize the gentleman from 
Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Madam Chairwoman.
    Outright propaganda and lies are being used to unleash the 
national security state against law-abiding U.S. citizens, 
especially Trump voters. The FBI is fishing through homes of 
veterans and citizens with no criminal records and restricting 
the liberties of individuals that have never been accused of a 
crime.
    Mr. Biden calls January 6 the worst attack since the Civil 
War. A President was impeached for his alleged role in that 
riot. It was reported early, totally unconfirmed, that an armed 
insurrection ``beat a police officer to death with a fire 
extinguisher.''
    The Government has even enlisted Americans to turn in their 
own neighbors. Federal prosecutor Michael Sherwin on CBS News' 
``60 Minutes'' continued the ``shock and awe'' strategy. Many 
of my Democrat colleagues opposed the ``shock and awe'' 
strategy in Iraq. We should similarly oppose its application 
against American citizens.
    Mr. Rosen, you claimed that the DOJ would ``spare no 
resources.'' Mr. Rosen, did the DOJ confiscate any firearms 
from suspects charged with breaching the Capitol on January 6?
    Mr. Rosen. Congressman, as I alluded to in my opening 
remarks, there are certain limitations about pending 
investigations and prosecutions----
    Mr. Gosar. I would--Mr. Rosen, I will be looking forward to 
asking that question of people that can answer it from Capitol 
Police and the FBI. But the answer is no. Zero firearms from 
suspects charged with breaching the Capitol.
    Mr. Rosen, was Officer Sicknick killed by rioters with a 
fire extinguisher?
    Mr. Rosen. Congressman, Officer Sicknick was there acting 
in the line of duty and went into harm's way, and I think, as 
others have said, he acted as one of many heroes on that day.
    Mr. Gosar. Mr. Rosen? I don't take a hero lightly. He did 
heroically, but he died of natural causes.
    Mr. Rosen, was a single individual at or outside the 
Capitol on January 6, have they been charged with the crime of 
insurrection?
    Mr. Rosen. Again, if you're asking me about charges that 
were either made, pending, or being investigated, I'm sorry. 
I'm just not in the position to address those.
    Mr. Gosar. Mr. Rosen, once again--once again, Mr. Rosen, to 
my knowledge, not a single person has been charged with a crime 
of insurrection.
    Mr. Rosen, do you recall the name of the young lady, a 
veteran wrapped in an American flag, that was killed in the 
U.S. Capitol?
    Mr. Rosen. I do. Her name was Ashli Babbitt.
    Mr. Gosar. Yes, Ashli Babbitt. Was Ashli Babbitt armed?
    Mr. Rosen. Again, Congressman, I mean to be respectful of 
your observations, but I just----
    Mr. Gosar. No, Mr. Rosen----
    Mr. Rosen [continuing]. Don't want to talk about individual 
situations or----
    Mr. Gosar. Mr. Rosen, reclaiming my time. Mr. Rosen, no, 
she wasn't. She was wrapped in a U.S. flag.
    Was the death of Ashli Babbitt a homicide?
    Mr. Rosen. Congressman, I'm not trying to be unhelpful 
here, but I just cannot comment.
    Mr. Gosar. I understand. I understand. But I mean, 
reclaiming my time, as the death certificate says, it was a 
homicide.
    Who executed Ashli Babbitt?
    Mr. Rosen. Congressman, I'm just going to have to say the 
same thing here that I don't want to get into the specific 
facts of investigations----
    Mr. Gosar. Thank you very much. Thank you very much. I 
appreciate it.
    Now, Chief Contee, what are the rules of engagement at the 
D.C. protests?
    Chief Contee. At D.C. protests, sir?
    Mr. Gosar. Yes.
    Chief Contee. The only time that we engage, we don riot 
gear, that kind of thing, is when--in situations where there is 
an actual attack that's going on, sir. I'm not sure of that 
question.
    Mr. Gosar. I appreciate you, and thank you for your 
service.
    Madam Chairwoman, my constituents demand answers, but the 
truth is being censored and covered up. As a result, the DOJ is 
harassing peaceful patriots across the country. Without 
accurate answers, conspiracies continue to form.
    Russia hoax promoter, riot enabler, and Washington State 
Representative Pramila Jayapal, who objected to the electors in 
2016 without the required support of a Senator, filed an ethics 
complaint against me for following the law under 3 U.S.C. Code 
15, the Electoral Count Act, which she, herself, failed at in 
2016.
    Thirty-three of my Democratic colleagues even wildly 
speculated that Republican Members of Congress gave 
reconnaissance tours to protesters, offering no proof 
whatsoever. I have repeatedly asked for the Capitol footage 
from before and during January 6. Such footage would provide 
answers, could contain exculpatory evidence regarding the 
outrageous accusations against Member of Congress, and most 
importantly, exonerate the many Americans who peacefully 
protested and never set foot in the Capitol.
    Mr. Rosen, wouldn't you agree that the security footage of 
a public building, of public officials, paid for by public 
taxpayers, potentially containing exculpatory evidence should 
be provided to public defenders?
    Mr. Rosen. Congressman, I'm just going to have to refer to 
my opening remarks again, that there are some limitations I 
have here today.
    Mr. Gosar. Well, I--I do, and I believe the American public 
should see that footage.
    Madam Chairwoman, I and the American people commend you for 
holding this hearing. If my Democratic colleagues really want 
the truth, they would join me in demanding the release of these 
Capitol surveillance footage on and the proceedings of January 
6.
    I yield back. Thank you.
    Chairwoman Maloney. The gentleman yields back. I now 
recognize the gentlewoman from the District of Columbia, Ms. 
Norton. You are now recognized for five minutes.
    Ms. Norton. Thank you very much, Madam Chair. I very much 
appreciate your holding this hearing so that we can bring out 
the role of the respective parties, and I appreciate, Madam 
Chair, that you praised the role of the D.C. Police Department, 
which needs to come out at this hearing.
    My questions are for Chief Contee, who illuminated that 
role in his testimony and who noted that the MPD cannot enter 
the Capitol without the permission of the Capitol Police Board, 
and yet the D.C. Police Department played a historic role in 
putting down the insurrection and saving the lives, by the way, 
of Members of Congress, of staff, of employees, and I would 
say, indeed, of democracy itself.
    It should be noted that they have been repaid by 
Republicans who voted unanimously against my D.C. Statehood 
bill, which is moving along quite well notwithstanding, and the 
District meets all the traditional elements that Congress has 
considered in admitting new states. Surely the role of the MPD 
on January 6 supports our bill for D.C. Statehood.
    Chief Contee, I would like to ask you about two bills, 
which can be implemented without statehood. My D.C. National 
Guard Act would give the D.C. Mayor control over the D.C. 
National Guard.
    Now we know that the governors of the states and even of 
the territories control their National Guards, but the 
President controls the D.C. National Guard. If the D.C. Mayor, 
Chief Contee, had control over the D.C. National Guard on 
January 6, do you believe that the D.C. National Guard would 
have been deployed to the Capitol earlier than it was on 
January 6?
    Chief Contee. Yes, I do believe that.
    Ms. Norton. I think we see that in your deployment when 
things got out of control and the Mayor was finally able to 
send you to the Capitol.
    Chief Contee, my D.C. Police Home Rule Act would repeal the 
President's authority to Federalize the D.C. Police Department. 
Now the President doesn't have the authority to Federalize any 
other state or local police department. During protests in D.C. 
after the murder of George Floyd, the Trump administration 
threatened to Federalize the D.C. Police Department.
    Chief Contee, do you think the President should have the 
authority to Federalize the D.C. Police Department?
    Chief Contee. No, I do not.
    Ms. Norton. Whose authority should--in whose hands should 
the authority over the D.C. Police Department be, even without 
statehood?
    Chief Contee. The Mayor of the District of Columbia.
    Ms. Norton. Madam Chair, it is long past time for Congress 
to give the D.C. Mayor control over the D.C. National Guard and 
to repeal the President's authority to Federalize the D.C. 
Police Department. I believe the events of January 6 spell that 
out completely, and I thank you and yield back.
    Chairwoman Maloney. The gentlelady yields back. We are now 
recognizing the gentleman from Georgia, Mr. Hice. Mr. Hice is 
recognized for five minutes.
    Mr. Hice. Thank you, Madam Chair. I would like to take time 
to comment--let me mute this. There we go.
    I would like to take some time to comment on how the media 
and many Democrats have put forth a narrative that has been 
circulating around since January 6 and has never been 
corrected. For example, the narrative that President Trump 
incited the riots on January 6, I don't even understand, Madam 
Chair, why you, yourself, don't speak the truth as to what 
President Trump actually stated.
    And what he said on the morning of January 6, he said that 
``I know that every one of you will soon be marching over to 
the Capitol building to peacefully and patriotically make your 
voices heard today.'' Madam Chair, why don't you talk about how 
the President used those words ``to peacefully and 
patriotically'' instead of cherry-picking words that you want 
to use to portray an image of something that did not happen.
    The timeline of what happened on January 6, and these are 
approximate times, but the best that we have been able to 
gather. In the ballpark of noon, President Trump began his 
speech. At about 12:45 p.m., violent protesters started 
arriving at the Capitol.
    Now let us keep in mind that the location where the 
President started his speech, where the speech took place, it 
is a 45-minute walk from that location to the Capitol. So if 
the individuals who were at the speech were involved, they 
would have had to leave before President Trump even started his 
speech. He started speaking at 12 p.m. 12:45 p.m., the violent 
protesters arrive at the Capitol.
    Around 1 p.m., the Capitol is overrun, and there are 
efforts to make a call to the National Guard. Between 1:10 p.m. 
and 1:15 p.m., President Trump ends his speech and tells 
attendees to peacefully and patriotically make their voices 
heard at the Capitol. About 1:50 p.m., the Capitol is breached.
    Now in this timeline, it would have been about 2 p.m. 
before the earliest attendees of Trump's speech could have 
arrived at the Capitol. So the Capitol is attacked at the 
right--shortly after the President begins his speech. It is 
breached before individuals could have gotten there. Where is 
the real narrative in all of that?
    Another narrative I want to bring up is that the media 
claims that the tragic death of Officer Brian Sicknick was a 
result of pro-Trump mobs bashing his skull with a fire 
extinguisher, which we all know now did not happen. Officer 
Sicknick, his autopsy revealed that he suffered no blunt 
trauma. In fact, his mother has since come out saying he died 
of a stroke. In fact, it was Trump supporters who lost their 
lives that day, not Trump supporters who were taking the lives 
of others.
    You go down the list here. Ashli Babbitt was shot and 
killed by a Capitol Police officer. Kevin Greeson suffered a 
heart attack. Rosanne Boyland reportedly was crushed by 
rioters. And Benjamin Philips died of a stroke.
    So the narrative needs to be cleared up. The truth matters.
    I would also like to discuss what we know about those who 
were present on the day of the riots that took place. I 
actually have here something that was sent to me by an 
individual who was present. He said, ``It was a beautiful day, 
peaceful, faith-filled support for free elections. When 
agitators rolled in and began to coordinate a very different 
agenda, I could see that their spirit was not the same. They 
were forceful and angry. They were physically disguised, but 
they could not disguise their spirit. They had tactical gear, 
walkie-talkies, gas masks, and a plan. I was close and got 
tear-gassed. I saw these agitators from 6 feet away. Make no 
mistake about it. I was there.''
    We have heard reports of buses of these individuals rolling 
up. Who were they? Where is the information about these 
individuals who rolled up? We saw reports of John Sullivan on 
CNN disguising himself as a reporter, which he was not. It was 
later found out that he is founder of Insurgent USA. He was 
involved in insurgent activity, inciting violence. Why is that 
type of thing not reported?
    I see my time is running out, but it is unfortunate that 
Mayor Bowser is not here today. I have a letter from her urging 
no support from the National Guard, and what little support 
they got, she wanted it for mere crowd control rather than 
stopping the incidents that were taking place. She should be 
here today testifying before us. It is extremely irresponsible, 
in my opinion, that she is not here. It is time that we get to 
the truth, that we start telling the truth, and we stop 
creating a narrative that is untrue and misleading to the 
American people. And with that, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Massachusetts, Mr. Lynch, is recognized 
for five minutes.
    Mr. Lynch. I thank the gentlelady for yielding, and I thank 
the chair for having this hearing.
    I find it hard to believe the revisionist history that is 
being offered by my colleagues on the other side. It is not a 
45-minute walk from the Ellipse to the Capitol. You would think 
that the gentleman has probably taken that walk himself several 
times. It is several blocks. And so it just collapses the 
entire scenario that he has put forward.
    But, Mr. Miller, I live near the Capitol, and on January 5 
and January 6, I had an opportunity to walk through the crowds. 
They gathered on the 5th and then grew considerably during the 
6th. And my personal observation was that the crowds on the 
5th, January 5, were relatively peaceful. I walked in and among 
them, and then again on the morning of the 6th, the business of 
Congress, we were compelled to walk back and forth through 
these crowds as they gathered around the Capitol.
    What struck me, though, was after President Trump's speech 
and how the crowd changed, the mood of the crowd changed after 
those remarks. And in addition to what he said about initially 
a peaceful protest, also in those same remarks that the 
gentleman from Georgia neglects to repeat, is he said, ``You 
better get up to the Capitol and fight like hell or you are not 
going to have a country anymore.'' And that is when the mood 
changed in that crowd.
    Mr. Miller, you had some opportunity to comment on that. 
Let me ask you, you have already done this in an interview with 
Vice, but, but for President Trump's speech, do you think 
anyone would have marched on the Capitol and tried to overrun 
the Capitol without the President's remarks? I know you have 
answered this question several times, but I would like for you 
to answer it for the committee.
    Mr. Miller. I think I'd like to modify my original 
assessment. Based----
    Mr. Lynch. Why am I not surprised about that? Go ahead.
    Mr. Miller. Based on, as Chief Contee said, we are getting 
more information by the day, by the minute, about what 
happened, and to highlight some other observations that were 
made, it's clear now that there were organized--although we're 
going to find out through the Department of Justice process and 
the legal system, it seems clear that there was some sort of 
conspiracy where there were organized assault elements that 
intended to assault the Capitol that day. So----
    Mr. Lynch. Reclaiming my time, I am just asking you the 
same question you have answered before. Did the President's 
remarks incite members to march on--people in the crowd to 
march on the Capitol or did they not?
    Mr. Miller. Well, he clearly offered that they should march 
on the Capitol, so it goes without saying that his statement 
resulted in that. The question that----
    Mr. Lynch. OK. I am reclaiming my time. Let me just share--
--
    Mr. Miller [continuing]. I was trying to answer----
    Mr. Lynch. Let me just share with the committee what you 
have said before. This is your quote. This is your quote. 
``Would anybody have marched on the Capitol and tried to 
overrun the Capitol without the President's speech?'' ``I think 
it is pretty much definitive that would not have happened.''
    Mr. Miller. I think now I would say that----
    Mr. Lynch. In your written testimony----
    Mr. Miller [continuing]. That was not the unitary factor at 
all.
    Mr. Lynch. What is that?
    Mr. Miller. I would like to offer--I have reassessed. It is 
not the unitary factor at all. It seems clear there was an 
organized conspiracy with assault elements in place----
    Mr. Lynch. In your written testimony for today----
    Mr. Miller [continuing]. Going to assault regardless of 
what the President said.
    Mr. Lynch. Reclaiming my time again, for your written 
testimony for today, for today, this morning, you stated the 
following about the President's quote: ``I personally believe 
his comments encouraged the protesters that day.'' That was 
this morning----
    Mr. Miller. That's a fair statement----
    Mr. Lynch. So this is a----
    Mr. Miller. There's a----
    Mr. Lynch [continuing]. Very recent reversal of your 
testimony.
    Mr. Miller. Absolutely not. That's ridiculous.
    Mr. Lynch. You are ridiculous.
    Mr. Miller. Thank you for your thoughts. I also want to 
highlight that the----
    Mr. Lynch. No, wait a minute. Reclaiming my time, 
reclaiming my time, you also said, and I quote, ``The question 
is did he know he was enraging the people. That is a different 
matter.'' And I understand your reluctance to try to portray 
what was in the President's mind. But in multiple occasions, 
your testimony, both written and oral, you said that--you 
said--and, again, without the President's speech, people would 
not have marched on the Capitol and tried to overrun the 
Capitol, and that you wrote this morning, ``I personally 
believe his comments encouraged the President that day.'' So 
you understand----
    Mr. Miller. There's a difference----
    Mr. Lynch [continuing]. How not believable your new 
testimony, your new version of testimony that was apparently 
created between the time you wrote your testimony this morning 
and when you came before the committee today.
    Mr. Miller. There's a difference----
    Mr. Lynch. I yield back.
    Mr. Miller [continuing]. Between marching on the Capitol 
and assaulting the Capitol.
    Chairwoman Maloney. The gentleman's time has expired. You 
may answer. What?
    Mr. Miller. There's a difference between marching on the 
Capitol and assaulting the Capitol. That's the delineation I'm 
trying to make, despite the partisan attack that I just was 
subjected to.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman yields back.
    The gentleman from Ohio, Mr. Gibbs, is recognized for five 
minutes.
    Mr. Gibbs. OK. I was not ready for that. First of all, 
thank you for holding the hearing. I want to associate some of 
my--with my colleague Mr. Hice on the timeframe. I think he 
made a lot of sense.
    I am trying to understand--well, first of all, Madam Chair, 
I think we should have had somebody from the Capitol Police 
Board maybe to testify, too. But, anyways, we have these pipe 
bombs, Chief Contee. That were placed at the RNC and DNC 
headquarters. Obviously, to me, that was a preplanned attack. 
Would you agree? And, also, when you responded to these pipe 
bombs and doing the investigation, do you know what their 
motivations were? Could you identify who the perpetrators were?
    Chief Contee. Yes, to answer your question, I do think that 
these things were preplanned. We know through investigation 
that these devices were set out there or positioned out there 
by a lone individual. In terms of just our response to that, 
you know, the Metropolitan Police Department responded along 
with other Federal assets to the threat, to mitigate the threat 
that we were facing at that time.
    Mr. Gibbs. Do you know if this individual or individuals 
had any contact or coordination with the people that entered 
the Capitol?
    Chief Contee. No, sir. At this point we do not know that. 
No one has been apprehended. That investigation continues on.
    Mr. Gibbs. The people that illegally entered the Capitol, I 
have seen some reports; it looked like a lot of them had 
military-type apparel on, gas masks, and so forth, things like 
that. Is that correct?
    Chief Contee. That is accurate, sir, yes.
    Mr. Gibbs. So you would have to, I guess, come to the 
conclusion that that was a preplanned, you know, initiative 
before January 6. Would you concur?
    Chief Contee. Yes. You know, we've seen individuals who 
wear protective gear to demonstrations when they attempt to 
negatively engage law enforcement. But in this one, with the 
tactical gear and certainly with the helmets, there were 
certainly some thoughts that things were going to be bad there.
    Mr. Gibbs. Also, an FBI report I believe--I think maybe 
three days before or the day before, about possible violence at 
the Capitol. Was your department notified? Were you aware of 
that?
    Chief Contee. No, sir, not three days before. If you're 
talking about the intelligence bulletin from Norfolk, no, sir.
    Mr. Gibbs. You had notification the day before or not?
    Chief Contee. No, sir. And I think my previous testimony at 
another hearing we kind of addressed this issue, but the 
notification was sent through--it was basically sent through an 
email. It was emailed to various agencies within the 
intelligence network, but I personally did not receive----
    Mr. Gibbs. Did the Capitol Police have notification, are 
you aware of or not?
    Chief Contee. I found out later on that Capitol Police, 
they did have some information, but this was after January 6 
occurred.
    Mr. Gibbs. OK. I guess for the other witnesses, you know, 
there was chatter--apparently there was chatter going around on 
social media that there--even days before of organization or 
coordination. Is Attorney General, Mr. Rosen, aware, was there 
any chatter that the Department of Justice was aware of 
before--days before January 6?
    Mr. Rosen. Congressman, FBI Director Wray has addressed 
this in a previous hearing and I gather will again, so let me 
address it maybe at a high level. There were very robust 
mechanisms for looking for such things, but the Bureau has to 
try to sort out what is aspirational versus what is real and 
corroborated and verified. But they had a mechanism with the 
police forces and with the other Federal partners to share 
information. My understanding is that information was shared in 
a timely way.
    Mr. Gibbs. You think Big Tech could have had a role to help 
surface that information out or not?
    Mr. Rosen. Well, I think, again, I'd probably direct you to 
the FBI for more specifics about this, but it's often the case 
that they seek assistance from private sector counterparts as 
well.
    Mr. Gibbs. OK. Thank you. And I guess I am out of time. I 
yield back.
    Chairwoman Maloney. The gentleman yields back, and the 
gentleman from Virginia, Mr. Connolly, is now recognized for 
five minutes.
    Mr. Connolly. Thank you, Madam Chairwoman.
    The January 6 insurrection was fueled by a big lie, fueled 
and peddled by the President of the United States, Donald 
Trump. Mr. Rosen, in your written testimony you say the 
Department of Justice did not act on election fraud claims 
because the Department had not seen evidence of widespread 
fraud, and that you were committed to an orderly and peaceful 
transfer of power. Is it correct that the Department also 
declined to appoint any special prosecutors, file any lawsuits, 
or make any public statements questioning the results of the 
2020 election?
    Mr. Rosen. That's correct.
    Mr. Connolly. Prior to January--and I think that is 
important for the record. These myths that are being 
perpetrated by some amongst us that there was widespread fraud 
is simply not borne out by the actions and decisions made by 
the Department of Justice in the Trump administration itself.
    Mr. Rosen, prior to January 6, were you asked or instructed 
by President Trump to take any action at the Department to 
advance election fraud claims or to seek to overturn any part 
of the 2020 election results?
    Mr. Rosen. Well, Congressman, as I just alluded to in your 
prior question, I can tell you what the actions of the 
Department were or were not----
    Mr. Connolly. No, sir. No, sir.
    Mr. Rosen [continuing]. The outcome was. I cannot tell 
you----
    Mr. Connolly. Mr. Rosen, Mr. Rosen----
    Mr. Rosen [continuing]. Consistent with my obligations 
today, about private conversations with the President one way 
or the other.
    Mr. Connolly. We had an unprecedented insurrection that led 
to seven deaths, five here and two suicides, and you are saying 
this is a privileged communication?
    Mr. Rosen. I'm saying that my responsibility is to tell you 
about the role of the Department of Justice----
    Mr. Connolly. No, sir.
    Mr. Rosen [continuing]. And the actions we took.
    Mr. Connolly. Your responsibility is to be accountable to 
the American people and this Congress. I cannot imagine a more 
critical question. Did you have conversations prior to January 
6 with the President of the United States urging you to 
question or overturn or challenge the election results of 2020? 
That is a simple question. And, by the way, no executive----
    Mr. Rosen. Well----
    Mr. Connolly. No executive privilege has been invoked prior 
to this hearing and your testimony, and you have known you were 
coming here for over a month.
    Mr. Rosen. Congressman, respectfully, I understand your 
interest in the issue, and I've tried to be as forthcoming as I 
can with regard to the facts at the Department of Justice. When 
you ask me about communications with the President, I as a 
lawyer don't get to make the decision on whether I can reveal 
private conversations. Other people make that decision. And 
I've been asked today to stick to within the ground rules that 
I have to abide by, so that is----
    Mr. Connolly. By whom?
    Mr. Rosen [continuing]. What I have to do. I'd be happy to 
check and get back to you.
    Mr. Connolly. That would be great, because I think the 
American people are entitled to an answer, Mr. Rosen. And I 
think you and I as public servants have an obligation.
    Did you meet with the President at the White House on 
January 3?
    Mr. Rosen. I did.
    Mr. Connolly. You did. But you decline to talk--you decline 
to tell us what the nature of that conversation was about. Is 
that correct?
    Mr. Rosen. I can tell you it did not relate to the planning 
and preparations for the events of January 6.
    Mr. Connolly. Can you tell us whether in any aspect it 
involved a discussion about the election itself?
    Mr. Rosen. I'm sorry, Congressman. Again, respectfully, I 
don't think it is my role here today to discuss communications 
with the President in the Oval Office or the White House 
without authorization to do that. So I've tried to be as 
forthcoming as I can be and will continue to do, but that one 
I'm not going to be able to answer your question.
    Mr. Connolly. Mr. Rosen, before January 3, that meeting you 
confirm you did have with the President, Jeffrey Clark, your 
subordinate at DOJ, reportedly told you that your days as 
Acting Attorney General were numbered and that DOJ was going to 
stop Congress from certifying the election results. Is that 
true?
    Mr. Rosen. Congressman, the items you are talking about I 
have seen media accounts of, as I am sure you have. But that 
set of--episode, if you will, is the subject of an Inspector 
General investigation, and so I'm just not going to be in a 
position to discuss that.
    Mr. Connolly. So you are not going to talk about a meeting 
you confirm you had with the President. I guess you are 
claiming executive privilege, even though you have not invoked 
executive privilege formally to the committee prior to your 
appearance. And now you are arguing that because of a pending 
IG investigation, an explosive report reportedly about a 
conversation you had with Mr. Clark informing you your days 
were limited and there was going to be an attempt to overturn 
the results of the election, you are not going to discuss 
because it is the subject of an IG report. Is that correct?
    Mr. Rosen. Congressman, both the Department of Justice and 
my own counsel had conversations with the committee about the 
ground rules for my appearing today. So I am going to conduct 
myself in accordance with the responsibilities that I have and 
the ground rules that were discussed.
    Mr. Connolly. Well, it is the privilege of any member of 
this committee to ask a question, Mr. Rosen, and it is also--
there is also a formal process for invoking executive 
privilege, which you have, in fact, not invoked.
    Let me just say, Madam Chairwoman, I disavow comments made 
previously during this hearing about the nature of the 
insurrection. Rewriting history serves no purpose other than to 
cover up the violence and the brutality that we experienced and 
that was exhibited on January 6, a shame for America, a shame 
for this Congress, and revisionist history serves no purpose 
but to cover that up and protect that brutality and that 
violence. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Ohio, Mr. Jordan, is now recognized for 
five minutes.
    Mr. Jordan. Thank you, Madam Chair.
    Mr. Rosen, four years ago, on January 6, 2017, was it 
appropriate for Democrats to object to the 2016 Presidential 
election results?
    Mr. Rosen. Congressman, I think the things that are 
appropriate or inappropriate for Congress to do are that they--
all members, of course, and all the rest of us have to adhere 
to the Constitution. And so I'm going to say that that's an 
issue for you as Members of Congress to assess.
    Mr. Jordan. Well, now, you are former Acting Attorney 
General, and we appreciate your service to the country. I am 
just asking, was it OK for them--they told us we are not 
allowed to object, we were not allowed to object on January 6, 
2021. In fact, you are not even allowed to cosponsor 
legislation that Democrats introduce if you did object to 
accepting and counting the electors on January 6, 2021. I just 
want your thoughts on was it OK for Democrats to do that on 
January 6, 2017.
    Mr. Rosen. What I would hope is people of all parties, all 
political perspectives, would respect the Constitution, our 
system of Government, and the rule of law.
    Mr. Jordan. And does the Constitution allow members to 
object to the Electoral College results on January 6 after a 
Presidential election?
    Mr. Rosen. My understanding is that it does.
    Mr. Jordan. It does, right. And Democrats did it. I mean, 
we had Jim McGovern, the Democrat chairman of the Rules 
Committee, he objected to the very first state called. He 
objected to Alabama back on January 6, 2017, a state President 
Trump won by 30 points. Mr. Raskin objected to Florida. Ms. 
Waters objected to Wyoming, maybe the only state that President 
Trump won by more than he won Alabama. She objected to Wyoming. 
And you are saying that was OK for Democrats to do. Mr. Rosen, 
that was fine?
    Mr. Rosen. Oh, I'm sorry, Congressman. I did not understand 
if you were asking me to respond to that. Again, I mean, I 
think Members of Congress should----
    Mr. Jordan. So is it OK for Jim McGovern, a Democrat Member 
of Congress, to object to Alabama on January 6, 2017? Is that 
all right? He's allowed to do that, right?
    Mr. Rosen. I think if members are adhering to their 
constitutional rights and roles and responsibilities, you know, 
that's, again, a question for all the folks in Congress to 
assess.
    Mr. Jordan. And Ms. Waters can object to Wyoming even 
though President Trump won Wyoming by like 40 points? She can 
object to that if she wants to, right?
    Mr. Rosen. Well, at least the Constitution allows Members 
of Congress to raise objections.
    Mr. Jordan. Yes. We have heard a lot of talk from the 
Democrats about revisionist history and the big lie. I just 
think it is important that--we have had members, Democrat 
Members of Congress tell us that we were not allowed to object, 
that somehow we were trying to overturn the will of the 
American people, even though we objected to states like 
Pennsylvania, for example, where they, I believe in an 
unconstitutional fashion, changed their election laws in the 
run-up to the election, but somehow they are allowed to object 
to Alabama, they are allowed to object to Wyoming, they are 
allowed to object to Florida, but we are not allowed to object. 
I fail to see the logic there.
    How about the previous gentleman from Virginia talked about 
brutality, talked about--I just want to read you a couple 
statements here--well, no, let me ask you this question first: 
Was the 2016 election stolen?
    Mr. Rosen. I do not know of evidence that would say it was. 
I think you're alluding to a troublesome thing about the 
legitimacy of our past elections, sometimes governors' races 
being called into question. And I think it's really necessary 
and important for all of us to find ways to restore our 
citizens' faith in the electoral process and in our 
representative system of Government.
    Mr. Jordan. Secretary Clinton said on May--speaking in May 
2019, ``You can run the best campaign. You can even become the 
nominee, and you can have the election stolen from you.''
    September 2019, she said on CBS' ``Sunday Morning'' that 
President Trump was an illegitimate President.
    On October 2020, just a month before our last Presidential 
election, she was referring to the 2016 Presidential election, 
and she said it was stolen from her. Is she wrong?
    Mr. Rosen. She is wrong.
    Mr. Jordan. Yes, she is wrong, because the election was 
valid in 2016. President Trump won. So when we talk about 
revisionist history that we have heard from the Democrats and 
we talk about the big lie, their nominee as recently as last 
October was saying the election in 2016 was stolen. They can 
object to Alabama, they can object to Wyoming, they can object 
to states in 2017, but we are somehow not allowed to object to 
anything, raise points about the 2020 election. I just--it is 
not about revisionist history. It is about the double standard 
that Democrats want to have. That is the part that bothers me 
the most. And, frankly, I think that is what bothers the 
American people the most.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman from Illinois, Mr. 
Krishnamoorthi, is now recognized for five minutes.
    Mr. Krishnamoorthi. Thank you, Chairwoman.
    Mr. Miller, you do not deny that at least four people died 
in connection with January 6, correct?
    Mr. Miller. I do not know how to answer that. Yes or no? It 
is not that easy. It is just not that easy to respond to that.
    Mr. Krishnamoorthi. And, sir, 140 police officers--140 
police officers were injured, right?
    Mr. Miller. I do not know.
    Mr. Krishnamoorthi. And two Capitol Police officers later 
died by suicide, correct?
    Mr. Miller. I do not know. That's what I've read in the 
paper.
    Mr. Krishnamoorthi. Hundreds of rioters breached the 
Capitol, right?
    Mr. Miller. I am sorry?
    Mr. Krishnamoorthi. Hundreds of rioters breached the 
Capitol on January 6, correct?
    Mr. Miller. Yes.
    Mr. Krishnamoorthi. Now, sir, I want to highlight a 
paragraph in a Vanity Fair article about you from January. In 
response to the critique that you were too slow responding to 
the January 6 breach, you said, ``I know for an absolute fact 
that historians are going to look and go, `Those people had 
their game together.'"
    Mr. Miller, I have a picture of January 6 and what the 
Nation saw on TV. I can assure you these pictures of mayhem and 
insurrection do not suggest anyone had their game together that 
day.
    Let me turn your attention to another topic, namely, 
Russia. You said, ``I have professional respect for how they do 
things. I kind of, you know, like professionally I'm, like, 
wow, they are doing pretty well, and they are using a lot of 
irregular warfare concepts, information, all this stuff in a 
way that, you know, like, oh, good on them.''
    Mr. Miller, according to the ODNI, on March 10, 2021, 
Russia interfered in the 2016 and 2020 elections, correct?
    Mr. Miller. I did not read that report. I will take your 
word for it.
    Mr. Krishnamoorthi. On top of that, Russia invaded Ukraine 
and annexed Crimea, right?
    Mr. Miller. I am aware of that. Yes, sir, they did.
    Mr. Krishnamoorthi. Mr. Miller, you know Vladimir Putin 
tried to kill his political opponent, Alexei Navalny, with a 
nerve agent, correct?
    Mr. Miller. I do not know what that has to do with the 
subject of this hearing.
    Mr. Krishnamoorthi. Mr. Miller, according to the 
Cybersecurity and Infrastructure Security Agency, CISA, Russia 
is responsible for SolarWinds, the largest cyber attack waged 
ever against the U.S. in our history. You are aware of that, 
right?
    Mr. Miller. I thought I was here to discuss unexplained 
delays and unanswered questions of the event of 6 January.
    Mr. Krishnamoorthi. Sir, you said, ``Good on them,'' with 
regard to Russia. Meanwhile, regarding the Department of 
Defense which you headed, you told Vanity Fair, ``This f'ing 
place is rotten.'' I think your comments, Mr. Miller, about 
Russia and the DOD are bizarre and rotten, and I think they 
illustrate unfortunately the problems of the response on 
January 6.
    Let me turn to January 6. On January 3, you informed the 
President that Mayor Bowser requested National Guard support, 
and according to page 11 of your written statement, the 
President said to give the Mayor the support she requested, 
correct?
    Mr. Miller. Yes.
    Mr. Krishnamoorthi. On January 6, according to your 
statement, you became aware sometime on or before 1:30 p.m. 
that day that the rioters breached the perimeter of the 
Capitol, right?
    Mr. Miller. Yes.
    Mr. Krishnamoorthi. According to a DOD-created timeline, at 
1:34 p.m. Mayor Bowser called Army Secretary McCarthy to 
request ``additional forces to respond to the Capitol.'' 
According to page 8 of your statement, at 3:04 p.m.--so 1-1/2 
hours later--you authorized mobilizing the D.C. National Guard 
and providing these additional forces. That constituted a gap 
of 1.5 hours. During that 1.5 hour gap, why did you and the 
Secretary disobey the President's order to give the Mayor the 
support she requested?
    Mr. Miller. She already had the support she requested. What 
is your question, sir?
    Mr. Krishnamoorthi. Sir, she requested additional support. 
Do you see this mayhem and pictures of insurrection on January 
6? She requested additional support from you, and during that 
1.5 hours either you disobeyed an order given to you by the 
President to help Mayor Bowser or the President changed his 
order and asked you to delay support or you just plain froze 
and were indecisive while people were being injured, killed, 
while hundreds of rioters breached the Capitol and a Nation was 
traumatized.
    Sir, because of your----
    Mr. Miller. There were 8,000 badged and credentialed police 
officers on duty. The United States Armed Forces----
    Mr. Krishnamoorthi. And you were not there.
    Mr. Miller [continuing]. Should only be used as a last 
resort.
    Mr. Krishnamoorthi. And you were AWOL. You were AWOL, Mr. 
Secretary. You were AWOL. Remember----
    Mr. Miller. That is completely inaccurate. That is 
completely inaccurate.
    Mr. Krishnamoorthi. As you said before, you have 
responsibility for everything. Something goes wrong, ``I own it 
completely, 110 percent.'' Sir, you partially own this mayhem, 
and that is why I am going to ask for a DOD investigation into 
your actions.
    Thank you.
    Mr. Miller. I already requested that before I left the 
Department of Defense.
    Mr. Krishnamoorthi. I look forward to the report. Thank 
you, sir.
    Chairwoman Maloney. The gentleman's time expires.
    The gentleman from Louisiana, Mr. Higgins, is now 
recognized for five minutes. Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair. Madam Chair, 
constitutionalists support peaceful assembly to redress 
grievance. We do not support violent protest. Today we are 
discussing the forced occupation and violent protest of January 
6. Unfortunately, my colleagues across the aisle who hold the 
majority choose to present this hearing today through a 100-
percent political prism.
    The Founders were concerned about this. Madison wrote in 
Federalist 10 that ``Liberty is to faction as air is to fire,'' 
that a dangerous or disturbing faction could indeed be born 
within this new republic based upon the very liberties and 
freedoms that the citizens were being provided, and yet none 
would argue that liberty should be eliminated in order to 
control a dangerous or disturbing faction. Madison and Hamilton 
agreed that the answer would be a stronger faction to be born 
within the citizenry to counter the disturbing or dangerous 
faction.
    I would argue that many Americans have come to believe that 
Congress has become a disturbing faction in America. My 
colleagues are referring to the actions of January 6, yet they 
completely ignore the language and influence that their own 
members cause across the country.
    Maxine Waters: ``Well, we have got to stay on the street. 
We have got to get more active. We have to get more 
confrontational. We have to make sure they know we mean 
business.''
    Kamala Harris: ``But they are not going to stop. They are 
not going to stop. They are not. This is a movement, I am 
telling you. They are not going to stop, and everyone beware.''
    Representative Pressley: ``There needs to be unrest in the 
streets.''
    Nancy Pelosi: ``I just do not know why there are not 
uprisings all over the country.''
    Maxine Waters: ``In a restaurant, in a department store, at 
a gasoline station, you get out there and you create a crowd 
and you push back on them, and you tell them they are not 
welcome here anymore.''
    Nineteen people died during BLM riots last year. Hundreds 
and hundreds were injured. Two thousand police officers were 
injured from BLM riots last year. And yet we are going to 
discuss today, as if none of that happened, the events of 
January 6.
    The hypocrisy of this body is indeed disturbing to the 
scores of millions of Americans that supported President Trump 
and loved this country, and they have been denied access to 
their own Capitol for over a year.
    Chief Contee, let us jump into some law enforcement here, 
shall we, sir? Be prepared for a question. Chief Contee, does 
the United States Capitol Police utilize facial recognition as 
a technology?
    Chief Contee. I do not know what the United States Capitol 
Police use, sir, in terms of----
    Mr. Higgins. I thought you might be aware of that based 
upon your background. I am sure you stay up with it.
    Chief Contee. No, sir.
    Mr. Higgins. Do you have an opinion about facial 
recognition technology?
    Chief Contee. We do not use it here in the Metropolitan 
Police Department.
    Mr. Higgins. OK. In your coordinated efforts with the 
Capitol Police, do you discuss technologies used? Obviously, 
there are many joint operations. This is not a difficult 
question. It is not a critique, good sir. I am asking your 
opinion as a law enforcement professional.
    Chief Contee. Yes, I think that when you talk about 
technology, certainly we look across the spectrum of best 
practices with all agencies, sir, not just the Capitol Police.
    Mr. Higgins. OK. Thank you. I concur. Chief, I was first 
certified as a Taser instructor in May 2007, 14 years ago. 
Taser as a technology has been around for a long time. Does 
your department use Tasers?
    Chief Contee. Yes, sir, we do.
    Mr. Higgins. They save thousands of lives across the 
country. Have you ever discussed with your chain of command 
colleagues with the Capitol Police why they do not deploy 
Tasers?
    Chief Contee. No, that is not a conversation that we have 
had, sir.
    Mr. Higgins. When you have joint operations, which would be 
normal, is it a consideration regarding crowd control?
    Chief Contee. Well, it depends. It is a less lethal option, 
and it just really kind of depends on the situation.
    Mr. Higgins. Exactly. It is a less lethal option that the 
United States Capitol Police has not deployed, despite the fact 
that they have used the most modern technologies to further 
their law enforcement mission, which I support.
    Madam Chair, my time has expired, and I yield.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Maryland, Mr. Raskin, is now recognized 
for five minutes.
    Mr. Raskin. Thank you, Madam Chair.
    Mr. Miller, Senator McConnell said that American citizens 
attacked their own Government. They used terrorism to try to 
stop a specific piece of democratic business they did not like: 
the counting of the Electoral College votes. Do you agree with 
that?
    Mr. Miller. The statement that indeed this was a terrorist 
attack?
    Mr. Raskin. That they used terrorism to stop a specific 
piece of democratic business, fellow Americans beat and 
bloodied their own police, they stormed the Senate floor, they 
tried to hunt down the Speaker of the House, they build a 
gallows and chanted about murdering the Vice President. They 
did this because they have been fed wild falsehoods by the most 
powerful man on Earth because he was angry he had lost an 
election. Do you disagree with any of that?
    Mr. Miller. I agree that it was an act of terrorism.
    Mr. Raskin. OK. Madam Chair, some of our distinguished 
colleagues, including my friend from Louisiana, have been 
invoking the 74 million who voted for Donald Trump. Here is 
what Senate Minority Leader McConnell had to say about that: 
``In recent weeks, our ex-President's associates have tried to 
use the 74 million Americans who voted to reelect him as a kind 
of human shield against criticism. Anyone who decries his awful 
behavior is accused of insulting millions of voters. That is an 
absurd deflection. Seventy-four million Americans did not 
invade the Capitol. Several hundred rioters did. And 74 million 
Americans did not engineer the campaign of disinformation and 
rage that provoked it. One person did and that was Donald 
Trump.''
    So this is an essential hearing, Madam Chair, but it will 
barely scratch the surface of the questions that need to be 
answered about the violent insurrection against Congress and 
the Constitution to overthrow the results of the 2020 
Presidential election. We need a complete bipartisan, 
multipartisan, nonpartisan, 9/11-style commission to study the 
causes and the events of January 6 and the response to it. But 
our colleagues, alas, have done everything in their power to 
block the formation of a commission, including slandering Black 
Lives Matter, a non-violent movement for justice that they 
continue to lie about with their propaganda. And today we have 
heard different numbers bandied about, 25 people who died in 
Black Lives Matter protests, 19 people who died and so on. A 
lot of the people they are talking about are people who were 
killed by right-wing counterprotesters or provocateurs.
    For example, one of the deaths that they want to blame on 
Black Lives Matter was Federal Protective Service Officer David 
Underwood in Oakland, California, and I remember very clearly 
when my colleagues came to Congress and said, ``Look what Black 
Lives Matter did,'' and they were trying to blame this on this 
movement. But, in fact, he was shot by Steven Carrillo, an Air 
Force staff sergeant who was active with the right-wing 
Boogaloo movement and is now standing trial for that murder.
    They count as part of their number the two people that were 
killed by 17-year-old vigilante gunman Kyle Rittenhouse, who 
crossed state lines to kill protesters and is now standing 
trial for first-degree murder.
    So we cannot get into all of it, but they want--they are 
saying we cannot have a commission to study what happened on 
January 6, the attack on this Congress, the attack on the 
Constitution, the attack to overthrow the Presidential election 
unless we drag in the Boogaloo Boys and everything that 
happened with these attacks on the Black Lives Matter movement. 
This is an outrageous and unnecessary and irrelevant 
distraction from this assault on America.
    Now, after having lost the Presidential election by 7 
million votes, 306 to 232, a margin that he had declared a 
landslide in 2016 when he won by the exact same margin, Trump 
tried unsuccessfully to get Republican state legislatures 
across the country to throw out the popular vote and to 
substitute teams of Trump electors. When that did not work, 
they went and they tried to intimidate and coerce state 
election officials like Brad Raffensperger in Georgia to just 
manufacture votes. Trump called him up on the phone and 
basically told him to commit election fraud, ``Just find me''--
I think it was--``11,780 votes,'' he said. And the whole world 
saw it. And when that did not work, at that point he began to 
appeal to his most right-wing supporters, the Proud Boys, who 
he told to stand back and stand by, and the Three Percenters 
and the Oath Keepers to come to Washington. Not, ``Don't go to 
Georgia,'' ``Don't go to that place,'' but ``Come to 
Washington,'' and not on any day but on the day we are counting 
the Electoral College votes, and not at any time but one hour 
before then. And then he pointed them like a loaded pistol at 
the Capitol and said, ``You have got to go and fight like hell, 
or you are not going to have a country anymore. You have got to 
show strength, or you are not going to have a country 
anymore.''
    And now we are getting this outrageous, Orwellian, 
revisionist history where Donald Trump is out there saying that 
his most loyal followers came in literally, he said, hugging 
and kissing the Capitol officers. Now, come on. This is why we 
need a real commission to study the events of that horrific day 
of an attack on America, study the causes of it and get to the 
bottom of it. But my colleagues should stop with all of the 
evasions, the diversions, and the distractions. Let us figure 
out what happened to us on that day.
    I yield back to you, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    The gentlelady from North Carolina, Dr. Foxx, is now 
recognized for five minutes.
    Ms. Foxx. Thank you, Madam Chairman, and I thank our 
witnesses for being here today.
    The American people deserve better than a purely partisan 
inquiry that is led by House Democrats. If the goal is to 
explore the circumstances surrounding January 6 and why it 
happened as it did, I would expect to see Capitol Police at 
this hearing. I would also expect to see a bipartisan panel 
with a pinpointed focus on finding solutions like our 
colleagues in the Senate have been doing for the last few 
months.
    Unfortunately, this House has turned the opportunity to 
learn from what happened and work to prevent it into just 
another round of partisan finger pointing.
    Today we are here to examine the events of January 6. As we 
all know, just steps away from here we saw violence and 
destruction. As I posted on social media that afternoon, 
``Violence like what we are witnessing in the United States 
Capitol is unacceptable. People have the right to peacefully 
protest, and there is absolutely no reason to resort to 
destruction. God bless the brave men and women in the United 
States Capitol Police for protecting us.''
    As the events of the afternoon of January 6 continued to 
unfold, I posted this: ``I am safe. Members of my staff are 
safe. The protesters within the Capitol must immediately back 
down. Senseless violence accomplishes absolutely nothing. Law 
and order must be upheld.''
    I appreciate the efforts from law enforcement and the 
Department of Justice to bring those responsible to justice. We 
must enforce the law and restore order when it is disturbed.
    I have great respect for those who protect the Capitol and 
were involved in responding to the events of January 6, and we 
owe it to them, to this institution, and all Americans to 
improve our response to events like this and get to the truth.
    My questions are for Chief of Police Robert Contee. Chief, 
do you think the events on January 6 would have escalated even 
more and been worse if it were not for the heroic law 
enforcement response?
    Chief Contee. Yes, ma'am, I do.
    Ms. Foxx. Thank you. When officers anywhere are injured or 
killed in the line of duty, I am sure you and your colleagues 
are particularly affected. How do you feel when certain Members 
of Congress say that law enforcement is ``beyond reform'' and 
that policing in America should be eliminated altogether?
    Chief Contee. I wouldn't agree with that statement.
    Ms. Foxx. Thank you. Do broad-brush statements against law 
enforcement harm your officers' morale and potentially 
encourage more violence against them?
    Chief Contee. I think when you talk about broad-brush 
statements, I don't think that that is helpful for law 
enforcement. I think you need to look at specific agencies and 
the things that are happening in those agencies and be very 
specific about that.
    Ms. Foxx. And today the comments that are being made 
unfortunately by our colleagues on the other side of the aisle 
are almost incendiary themselves.
    Could you describe in your estimate what Washington, DC, 
would be like without any law enforcement?
    Chief Contee. Well, I think law enforcement certainly has a 
role in society. It's the reason why I've been doing this for 
30 years, and it's the reason why we have law enforcement 
agencies all across the country. I think the issue is that 
we've got to make sure that we have the best law enforcement 
representatives out here doing the work in communities. That's 
important. That's very important.
    Ms. Foxx. Madam Chairman, I want to say again I think it is 
really unfortunate that we are not focusing on learning what 
happened on January 6 and why there was such a failure to 
respond properly. I myself that morning, when I came in, 
noticed that there was no beefed-up security, and I commented 
on it to some people, because under normal circumstances, when 
we are expecting people to be at the Capitol, there is beefed-
up security. And our security forces, those on the front lines, 
do a great job.
    I have been reading results of the IG's investigation and 
others, and it is clear that there was a failure of leadership 
here just as there is a failure of leadership in this House 
during this time. And that is unfortunate.
    The men and women of the Capitol Police put their lives on 
the line for us every day, and I am truly grateful to them for 
doing that. They are there in the wind, the rain, the snow, 
whatever the conditions. They deserve to have had--be better 
prepared that day and to have been given better direction as to 
how to handle the events of the day. And with that, I yield 
back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from California, Mr. Ro Khanna, is now 
recognized for five minutes.
    Mr. Khanna. Thank you, Madam Chair.
    Secretary Miller, I have never been more offended on this 
committee by a witness statement than yours. You were more 
concerned about defending your own reputation and justifying 
your own actions than the sanctity of this Capitol and the 
sanctity of our democracy. Have you no sense of accountability, 
no sense of shame? Secretary Miller, I want to ask you today: 
Will you at the very least apologize to the American public for 
what happened on your watch?
    Mr. Miller. I want to highlight the incredible job that the 
members of our armed forces and the civilians in the Department 
of Defense----
    Mr. Khanna. Secretary Miller, I agree with you about our 
armed forces.
    Mr. Miller. That is the----
    Mr. Khanna. Secretary Miller, it is my time. Your 
pugnacious style is not going to override the democratic 
process. Learn to respect it. My question is not about our 
troops, our armed forces. Everyone recognizes they are 
extraordinary. My question is about your incompetence in 
leading them. Will you apologize to the American public for 
what happened on your watch? Will you apologize to the troops 
for what happened on your watch?
    Mr. Miller. The Department of Defense and our members of 
the armed forces performed magnificently on January 6 and 
following----
    Mr. Khanna. No one is questioning what they did but 
questioning what you did. Is it your testimony that you refuse 
to apologize to the American public for what happened?
    Mr. Miller. I stand by every decision I made on January 6 
as I highlighted----
    Mr. Khanna. You think you did everything perfectly? Just 
like the President said he did everything perfectly. Is that 
your testimony, you did everything perfectly, no mistakes?
    Mr. Miller. I want to highlight again that the armed forces 
should only be used for domestic law enforcement, and all 
other----
    Mr. Khanna. Is it your testimony that you did everything 
perfectly? Is that your view?
    Mr. Miller. I am the most critical person, I am a career 
special operator----
    Mr. Khanna. Let me ask you this: On the day of January 6, 
there is reporting that you or others in your office tried to 
get to the President. That has been reported by journalists. I 
remind you you are under oath. Did you or anyone in your office 
ever try to get a hold of President Trump on January 6?
    Mr. Miller. I did not. I have no idea about others in my 
office----
    Mr. Khanna. Did anyone in your office in the Department of 
Defense try to get a hold of the President?
    Mr. Miller. Not that I am aware of.
    Mr. Khanna. You testified that things are like a video 
game--are not like a video game, and that we cannot quickly 
move troops. What explains the 36-minute delay from when you 
ordered the National Guard to that order being received? What 
explains 36 minutes?
    Mr. Miller. What 36 minutes are you referring to?
    Mr. Khanna. Before the order was understood. You ordered 
the authorization and 36 minutes later--are you not aware of 
the timeline--everyone in the country is aware that it took 36 
minutes.
    Mr. Miller. I have seen----
    Mr. Khanna. What explains the delay?
    Mr. Miller. I have seen so many timelines and inaccurate 
information----
    Mr. Khanna. You were in charge of the whole Department. 
Senator Blunt asked his question in a hearing that every 
American watched why it took 36 minutes, and you do not know 
that it took 36 minutes before you authorized something for it 
to actually be implemented?
    Mr. Miller. What 36 minutes again are you referring to? At 
3 o'clock----
    Mr. Khanna. It is unbelievable.
    Mr. Miller [continuing]. I gave the order.
    Mr. Khanna. How can you talk about this being--you doing 
everything perfect when you are not even aware of the 36 
minutes that took place before you----
    Mr. Miller. Historians and members still argue about who 
landed where and when on June 6, 1944.
    Mr. Khanna. This is not an argument of who landed when or 
where. Here is what happened. You ordered--you said, OK, the 
National Guard should go out. It took 36 minutes before that 
order was implemented. And you are saying you didn't know that 
it took 36 minutes? Senators know, Congress people know, every 
journalist knows. And you who made the order doesn't know? That 
is worse than if you knew and would explain why it didn't 
happen--and then you are here telling us that everything 
happened perfectly and you are not willing to apologize? And 
the gall to hide behind our troops who are extraordinarily 
honorable. It is you who has let them down. I cannot believe we 
have someone like you in that role--had someone like you. And 
your whole testimony is no reflection. I thought if you came 
here, if you apologized--instead, it is total self-promotion. 
All you are trying to do is cover your own reputation.
    Mr. Miller. That is the last thing it is. I want to 
highlight again the enormously successful job that the District 
of Columbia and our National Guard did that day along with the 
Army staff----
    Mr. Khanna. Sir, let me ask you one final question, 
because, you know, we are not--you should look up the 36 
minutes. But General Walker has said that there was a Quick 
Reactionary Force that he could have deployed in minutes. Did 
you ever talk to General Walker that day or ask him why it took 
36 minutes? Did you ever pick up the phone and talk to him 
about the Quick Reactionary Force?
    Mr. Miller. General Walker was the tactical ground force 
commander who had all the authority and approval he needed to 
implement and deploy----
    Mr. Khanna. It took 36 minutes. It took 36 minutes before 
he had that.
    I yield back my time.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Texas, Mr. Sessions, is recognized for 
five minutes. Mr. Sessions.
    Mr. Sessions, we cannot hear you. Mr. Sessions?
    OK. We are now going to Mr. Grothman.
    We are now going to recognize Mr. Mfume for five minutes. 
Mr. Mfume.
    Mr. Mfume. Madam Chair, thank you very much for holding 
this hearing, and thank you even more for the efforts that are 
being made to get to the truth.
    In 2002, I served on the Continuity in Government 
Commission. That commission was formed to get to the truth 
surrounding the 9/11 attack on our Nation a year prior, but the 
sole purpose was to get to the truth by using and not denying 
what the facts were. That truth has been eluding us for some 
time now because there are so many people that want to revise 
what happened on January 6. I was there in the gallery, like 
many of you, and we know what happened. It was an insurrection, 
and it was fueled by the President. But let me go and quote the 
words of another Republican President about the truth.
    In 1848, in a speech delivered in Edwardsville, Illinois, 
Abraham Lincoln addressed these words to his countrymen, and I 
quote. He said, ``When you have ignored the truth, the question 
becomes what constitutes the bulwark of our freedom and our 
independence.'' Lincoln said, ``It is not our frowning 
battlements, our bristling seacoasts, our army or our navy. For 
all those,'' he said, ``are not our reliance against tyranny. 
All those,'' he said, ``may be turned against us without having 
made us weaker for the struggle.''
    ``Instead,'' he said, ``our reliance is in the love of 
liberty which God has planted deep within us, that our reliance 
is in the spirit of freedom that prides itself as the heritage 
of all men and all women in all lands everywhere.'' He 
admonished, ``Destroy this spirit, and you would have planted 
the seeds of despotism at your own doorstep. Ignore the chains 
of bondage and the facts and the truth, and you prepare your 
own limbs to wear those bonds. Accustomed,'' he said, ``to 
trample on the rights of others, and you would have lost the 
creative genius of your own independence and as such would then 
become the fit subject of the first cunning tyrant who rises 
among you.''
    In 2016, such a cunning tyrant rose among us, and his name 
is Donald Trump. His fit subjects now have become some members 
of the new Republican Party who are still going out of their 
way unfortunately to rewrite the history of January 6. 
Lincoln's words, uttered over 173 years ago, have gone unheeded 
and have been replaced with things like, ``Oh, they were 
peaceful patriots. They were just protesting.'' And then we are 
told to salute them. And on the other hand, we are told to 
condemn anybody or anything associated with the Black Lives 
movement, the marchers of all races and all backgrounds all 
over the world who took to the streets to condemn the murder of 
George Floyd. That is an interesting juxtaposition, but it 
sounds like escapism to me.
    The truth of the matter is, truth, is that these are not 
suggestions by me or anyone on this committee. Let me quote 
Mitch McConnell. He said, ``There is no question that President 
Trump is practically and morally responsible for provoking the 
events of that day.'' So I do not care how many times we dress 
it up and roll it back out. It is still a big lie. I served 
with Ronald Reagan. I served with the first George Bush. George 
W., the second one, and I became friends, working together, 
oftentimes at odds on issues, but none of them--none of them--
have done in my opinion to the Republican Party or to the 
concept of truth the disservice that we have seen as a result 
of these events of January 6.
    So let me just use, if I have some time left, Madam Chair, 
to go back and ask a question of Mr. Rosen. Did you meet with 
the President on January 3, 2021?
    Mr. Rosen. I think I already addressed that whole thing 
with Mr. Connolly.
    Mr. Mfume. Well, yes, I know. But that is assuming that 
everybody who is listening now was listening then. Is it yes or 
no?
    Mr. Rosen. The answer was yes.
    Mr. Mfume. So you did meet with the President on January 3. 
Did you discuss with the President the actions that were about 
to unfold--the protest, I should say, on January 6?
    Mr. Rosen. As I have already indicated, the discussion 
there was not about----
    Mr. Mfume. Just let me repeat again, Mr. Rosen----
    Mr. Rosen. Congressman, it was not for the preparations 
regarding the demonstrations and activities of January 6.
    Mr. Mfume. And the events of January 6, which had not 
unfolded, never entered into that discussion? I want to remind 
you you are under oath.
    Mr. Rosen. Could you state the question? Because I think I 
have already answered it.
    Mr. Mfume. Did you discuss anything about January 6 with 
the President in your January 3 meeting with him?
    Mr. Rosen. As I said, that meeting was not about the 
preparations for January 6----
    Mr. Mfume. That is not what I asked you. You are under 
oath. Did you discuss anything about what was about to unfold 
on January 6 with the President?
    Mr. Rosen. Congressman, I think I have said what I can and 
am going to say about that. I am not going to talk about the 
substance of what the meeting was about. I have told you what I 
can say about that.
    Mr. Mfume. Well, I think you are evading a question that 
most of America wants to know. Let me take that one step 
further, though. On January 3, did you discuss anything about 
the attempts to overthrow the election? Yes or no.
    Mr. Rosen. Congressman, there were certain ground rules 
under which I agreed to appear today and what the scope of what 
I would address was. We sent 500 people up to the Capitol----
    Mr. Mfume. We----
    Mr. Rosen [continuing]. At the time of the----
    Mr. Mfume. We are----
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman's time has expired.
    Mr. Mfume. I will yield back, Madam Chair, but let the 
record reflect this is why it is so difficult to get to the 
truth, because people do not want to answer straight questions. 
I yield back.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman from Texas, Mr. Sessions, is recognized for 
five minutes.
    Mr. Sessions. Madam Chairman, thank you very much. I want 
to be sure that Chief Contee, that Attorney General Rosen, and 
Secretary of Defense Miller understand that what they are going 
through with this hearing is--would be unparalleled if 
Republicans were in the majority. We ask witnesses to come up. 
We take their testimony. We ask them questions. We do not try 
to badger them or bully them. We do not try and make assertions 
that are untruthful and then get them to go down this stream of 
unfair consciousness when they have already agreed that they 
would come and answer.
    I think all three of you have been forthright about the 
answers that you have given, but it does not fit the narrative 
that this Democratic majority would like, and so they want to 
argue with you and pin you down and then impugn you. I am 
embarrassed that they would have to try and remind you that you 
are under oath as if you would not be forthright about what you 
wanted to answer.
    Mr. Mfume. I object.
    Mr. Sessions. You can object all day, so what does that 
mean?
    Mr. Mfume. I will object all day because you are impugning 
everybody----
    Mr. Comer. Madam Chair? Madam Chair? Madam Chair, we have 
not interrupted your witness, your----
    Chairwoman Maloney. The time belongs to the gentleman from 
Texas.
    Mr. Sessions. Thank you very much, Madam Chairman.
    Mr. Rosen, Mr. Miller, and Mr. Contee, I want you to know 
that I believe that your professionalism and duty to this 
country came into play not just that day, but it continues 
today and in your service. And because it is not shaping the 
narrative that they want, they want to ask the questions to 
have you conform and then battle you over your professional 
response.
    I want to say this: Mr. Contee, it was very obvious to me 
that the systems that were in place then need to be reviewed 
again, not just about how you might be participatory as a 
request, as I understand it, that would be to the police board, 
but also, Mr. Miller, as it relates to the Guard. Do you have 
anything that you would like to provide us that might further 
provide us information about how we would streamline that, or 
do you think that that process and procedures, not whether the 
police did what they were supposed to do but the procedures 
over getting the Guard and the police department, Metropolitan 
Police Department, engaged, do you have any feedback, Mr. 
Miller, about that?
    Mr. Miller. I think this is really an important question, 
and I'm glad you asked because I thought that was the purpose 
of the hearing today, was to----
    Mr. Sessions. Me, too, sir.
    Mr. Miller [continuing]. Get lessons learned and have a 
constructive discussion. I've been involved when a National 
Security Special Event is established, as it was in advance of 
the Inauguration, and it's done in other large public 
gatherings, and that process seems to work very well for 
meshing the state, local, and Federal entities together. I 
think that's a good model and something that could probably be 
teased out and needs to be refined in regards to lessons 
learned from January 6.
    Mr. Sessions. OK. But the process as it exists, you are 
very comfortable with that, that you have noted your long-time 
service to this Nation not only in war but here in the United 
States, and you are satisfied that that process, though being 
updated and potential threats, but you are happy with that 
process?
    Mr. Miller. I'm happy with the process, and it comes down 
to the Department of Defense should only be used as a last 
resort for domestic law enforcement. And we can argue about 
whether that occurred, and it certainly did occur, obviously, 
on January 6. But then that was what I was trying to describe, 
was just the mechanics--I kind of was criticized pretty 
robustly on that--the mechanics of military operations, and not 
to be condescending or pedantic, but it takes time to make sure 
that we're taking care of our soldiers, getting them to the 
right place, coordinating with Chief Contee, coordinating with 
Capitol Hill Police and all the other entities, and that's what 
I was trying to highlight.
    Mr. Sessions. Yes, sir, and I believe that was done.
    Chief Contee, that question is: Now looking back, are there 
anything procedurally wise that you would expect this committee 
to look at that might need to be updated or changed from your 
perspective, sir?
    Chief Contee. Yes, from my perspective, I think that the 
District of Columbia should not be like--we should not be 
different from any other state. I think that the Mayor of the 
District of Columbia should have the authority to call up and 
deploy the National Guard. We would still be required to 
coordinate. We would still require all the coordination that 
has to happen to properly deploy them, make sure that they're 
on mission and where they're supposed to be, doing the things 
that need to be done. But I don't think that it requires the 
consent of the President of the United States or Secretary of 
Defense, and no disrespect to the Honorable Secretary, but I 
don't think it requires that level of approval to deploy people 
to traffic posts or crowd management type assignments when 
that's not required anywhere else in our country.
    Mr. Sessions. Yes, sir, but we were----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Sessions [continuing]. Specifically referenced to the 
Capitol.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Sessions. Thank you, Chairwoman.
    Chairwoman Maloney. Thank you.
    We had two Democratic questioners, so we are now going to 
have two Republican questioners. I now yield to the gentleman 
from Wisconsin, Mr. Grothman. You are now recognized for five 
minutes.
    Mr. Grothman. Yes, Chief Contee, there were pipe bombs 
discovered outside RNC and DNC. And you were deployed to both 
locations, correct?
    Chief Contee. That's correct, sir. We assisted the United 
States Capitol Police. That's correct.
    Mr. Grothman. OK. Has there been any progress made at all 
on who would have put these bombs there?
    Chief Contee. No arrests have been made, no suspects 
identified. Working with our partners on the Federal side, 
there have been surveillance videos that have been released 
publicly showing that individual placing the pipe bombs, but no 
arrests have been made at this point.
    Mr. Grothman. How powerful were they? What type of damage 
would have been done if they went off?
    Chief Contee. It would have been significant damage, I'm 
sure.
    Mr. Grothman. Was there any other evidence of any other 
bombs that day anywhere?
    Chief Contee. No. Just the two.
    Mr. Grothman. OK. Can anybody ask, how many people got in 
the building from the public that day, how many people total 
were in the Capitol? Do we have a number on that?
    Chief Contee. No, I don't have the exact number. I can 
comfortably say it was certainly over 1,000 people.
    Mr. Grothman. In the Capitol?
    Chief Contee. Inside of the Capitol.
    Mr. Grothman. OK. And were some of those people let in the 
Capitol?
    Chief Contee. I can't say that the individuals were 
necessarily let in. Certainly there's been surveillance video 
that shows after the Capitol was overrun, at certain point, I 
mean, it was just like a floodgate where people were just 
flooding in. I don't know that the resources were necessarily 
in place to prevent the people who were there, prevent folks 
from getting in.
    Mr. Grothman. I am not going to judge the actions of the 
police that day because, obviously, it was an unprecedented 
thing and they had to make quick decisions. I guess the 
question I have, of the 1,000 people who were let in the 
Capitol, how many, I guess I will say, broke in the Capitol and 
how many were let in the Capitol?
    Chief Contee. I would say--and that's a hard number to 
parse out, but I think we know from video where we saw 
individuals breaking windows, there was also the video that was 
released of hundreds of officers that I had in the tunnel there 
that were trying to prevent individuals from gaining access, 
again, not really a good count on that number. But I think it's 
safe to say that there were several individuals who forced 
their way and were not just let into the Capitol.
    Mr. Grothman. There is no question. That is what I wanted, 
just a general, you know, were 800 let in and 200 broke in? Was 
it, you know, 50 and 950, but we do not have any idea?
    Chief Contee. No. That's correct, sir. We do not.
    Mr. Grothman. OK. And of the people let in the Capitol, how 
many were disruptive in the Capitol? I talked to one of the 
Capitol Police. They told me a lot of people were just milling 
around. Can you tell me how many were--do you have an estimate 
how many were just milling around and how many were doing 
damage?
    Chief Contee. No, I do not have that estimate, no, sir.
    Mr. Grothman. OK. Let me go back to the pipe bombs. Did 
that cause--when you put people out there tracking down what 
happened to the bombs, did that cause you to deploy people away 
from the Capitol?
    Chief Contee. We had people deployed there first before 
they responded to the Capitol, and with respect to the previous 
question that you asked, you know, Capitol Police may be able 
to give you a better assessment based upon, you know, their 
view of the videos inside of the Capitol, how many were milling 
around and actually, you know, how many were let in.
    Mr. Grothman. OK. There were clearly people who were doing 
something coordinated to get in the Capitol. I am talking about 
the people scaling the walls, that sort of thing. Do we have 
any evidence on who those people were who were scaling the 
walls? And were they directed by a central group or person?
    Chief Contee. I think what we know for certain is that 
there were individuals who coordinated the efforts, the radio 
communication and hand signals.
    Mr. Grothman. And who were they? Were they a member of a 
group?
    Chief Contee. I think some of the reports that have come 
out, you know, they represent certain groups that have been 
mentioned on----
    Mr. Grothman. We do not know yet, though, huh? We do not 
know.
    Chief Contee. I think the U.S. Attorney's Office is 
probably better suited to answer that. Obviously, upwards of 
300 people have been arrested, and they're representative of 
various groups across the country that were involved in what we 
saw on January 6.
    Mr. Grothman. OK. Were those 300 all doing damage? Or were 
some of them, as one police officer told me, just milling 
around?
    Chief Contee. I don't have an answer for that, sir. I'm not 
certain. Clearly, there was significant damage done to the 
Capitol. I think we know that. But just those specific groups, 
I'm not certain about that.
    Mr. Grothman. Yes, OK. And just one followup. I encourage 
any listeners to research the three founders of Black Lives 
Matter, because it is something that concerns me so greatly 
that somebody who apparently were trained Marxists to have 
gained such influence in our country and people should really 
familiarize themselves with the backgrounds and what the 
founders of that organization stand for.
    Thank you.
    Chairwoman Maloney. The gentleman yields back.
    The gentlelady from Michigan, Ms. Tlaib, is now recognized 
for five minutes. Ms. Tlaib.
    Ms. Tlaib. Thank you, Chairwoman, and just for folks to 
know, you know, I work closely with the Movement for Black 
Lives, and these are folks that are really trying to push real 
efforts to try to recognize many of my black neighbors' right 
to live without feeling truly unsafe or feeling like their own 
Government is not supporting them.
    It is also really important for colleagues, as they are 
talking about these organizations, to know these are some 
organizations that are literally made up of mothers who have 
lost their children that were killed by police violence. So 
just to be very clear, this is not some movement that just came 
about. It came about because, you know, state-funded violence 
killed their children. So I appreciate Madam Chair having this 
hearing.
    Mr. Rosen, I would like to discuss something that you did 
not mention in your written testimony, the fact that in the 
days leading up to the January 6 attack, FBI agents reportedly 
visited more than a dozen extremists already under 
investigations to discourage them from traveling to D.C., the 
so-called Stop the Steal rally. According to one FBI senior 
official, this was based on ``credible and actionable 
information'' about extremists' ``desire to engage in violence 
on January 6.''
    So, Mr. Rosen, were you aware of the FBI's intervention and 
efforts leading up to January 6?
    Mr. Rosen. Well, I think you're referring to some 
information that FBI Assistant Director Sanborn talked about--
--
    Ms. Tlaib. Did you know they were interviewing people, Mr. 
Rosen?
    Mr. Rosen. The FBI periodically briefed me on intelligence 
updates. I don't want to get into specifics of the 
intelligence.
    Ms. Tlaib. Oh, no. That is fine. I am glad they let you 
know. But it seems like there was a significant step by the FBI 
to actually initiate contact with some of the extremists who 
may be under investigation or active monitoring and, you know, 
tip them off that the Government is tracking their plans. If 
the FBI was proactively engaged enough that the agency tried to 
discourage extremists from traveling to D.C. on January 6, they 
were clearly concerned about the potential for violence at the 
National Capitol.
    So let me make sure that I have this just clear, Mr. Rosen. 
The DOJ had intelligence that was credible enough to act on, 
but still decided not to issue a threat assessment. Is that 
correct?
    Mr. Rosen. I think the intelligence that we had was shared 
with the police, all the police--the Capitol Police the Metro 
Police, and the Park Police.
    Ms. Tlaib. Well, that is good to know.
    Mr. Rosen. As well as the Secret Service and others.
    Ms. Tlaib. Well, but you all did not feel any--you gave the 
information out, and there was no role for you to say that 
there should be--there is a threat? You did not recommend----
    Mr. Rosen. No, actually I think the threat of violence was 
understood by everybody. That was a concern that----
    Ms. Tlaib. Well, thank you.
    Mr. Rosen [continuing]. There could be violence at any of 
the locations where demonstrators came. It was a concern, and 
it's something the----
    Ms. Tlaib. Yes, so it was not really--it was----
    Mr. Rosen [continuing]. Police are experienced to dealing 
with.
    Ms. Tlaib. It was not like milling around, right? It was 
actual people that wanted to commit violence, right? They were 
not just like loitering or hanging out. They did not want to 
come and just hang out. They came with the initiation that they 
wanted to commit some violent acts. Is that correct?
    Mr. Rosen. Well, I don't want to discuss the individuals 
that are subjects of investigation or prosecution. I'm just 
talking about from an intelligence standpoint and general 
awareness. I think the police were, as they often are in these 
situations with large crowds coming to Washington, concerned 
about the potential for violence.
    Ms. Tlaib. Thank you. Police Chief, were you aware prior to 
January 6 that the FBI had reached out to known extremists to 
discourage them from traveling to Washington, DC.? Were you 
aware of it?
    Chief Contee. Yes.
    Ms. Tlaib. OK. What did you do in response?
    Chief Contee. We canceled days off. We deployed our entire 
department. We put our members on 12-hour shifts. We brought in 
agencies from three other departments stationed in the District 
of Columbia. We had other agencies stationed outside the 
District of Columbia in the event that they needed to respond 
into the District, in the event that things go really bad, and 
they did respond in.
    Ms. Tlaib. And did you feel that you received sufficient 
threat information about the intentions of those coming to 
commit violence in Washington, DC, on January 6 from DOJ, which 
was the lead agency in charge of intelligence gathering?
    Chief Contee. So there has been a lot of discussion around 
that, and I think before, I have publicly testified to the fact 
that I think when you have information, whether it's raw, 
unvetted data, et cetera, I think that in a situation like this 
it certainly warrants more than an email being sent out to the 
partners.
    Ms. Tlaib. Absolutely. I could not agree more.
    Chief Contee. That was the conversation that has been had, 
and I can honestly say that since then, when there is threat 
information, significant threat information, those are now 
phone calls.
    Ms. Tlaib. Well, I cannot help but think that if the FBI 
and Department of Justice used even a fraction of the resources 
that are dedicated explicitly, you know, toward what they call 
``black identity extremism,'' and the secretive Operation Iron 
Fist which the American public still know nothing about, that 
this attack on our Capitol--I wish they put that kind of 
resources and energy and focus, because it really did put the 
lives of many of us Members, Senators, and the staff at risk, 
which all could have been avoided if they, again, had the 
political will and kind of intention of, again, treating these 
folks that they have intelligence from already, that they were 
going to commit violent acts.
    Thank you so much, and I yield.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Pennsylvania, Mr. Keller, you are now 
recognized, Mr. Keller.
    Mr. Keller. Thank you, Madam Chair, and thank you to the 
Capitol Police who went above and beyond to protect our Capitol 
on January 6. We can all agree that the actions taken by the 
Capitol Police officers that day were nothing short of heroic.
    I do have a couple questions, and they are going to be 
directed at the former Acting Secretary of Defense, Mr. Miller. 
Mr. Miller, you are in charge of the National Guard that 
responded on January 6, correct?
    Mr. Miller. The District of Columbia National Guard, not 
all of the other states.
    Mr. Keller. The District of Columbia National Guard, yes.
    Mr. Miller. Yes.
    Mr. Keller. It was mentioned earlier by some of my 
colleagues that you got a request from Mayor Bowser at 1:30 
p.m. or around that time?
    Mr. Miller. I did not receive that request until 2:30, and 
I don't know the nature exactly of that request. I've heard it 
during this hearing.
    Mr. Keller. Does the Mayor of Washington, DC, have the 
authority to request for help on the U.S. Capitol Grounds?
    Mr. Miller. I just learned--I don't know. That was new 
information that I learned this morning from the Chief.
    Mr. Keller. Actually, we did some research on that, our 
committee staff did, and, actually, the request for help on the 
Capitol Grounds has to come from Capitol Police. Did you 
receive a request from Capitol Police on January 6?
    Mr. Miller. I subsequently learned that there was a call 
from the head of the Capitol Police, but the exact nature of 
his request didn't get to me until 2:30 after clearly 
Metropolitan Police and others got together to formulate their 
request.
    Mr. Keller. So once you got the request, you responded 
rather quickly?
    Mr. Miller. It was 30 minutes.
    Mr. Keller. OK. I appreciate that, Mr. Miller.
    While the subject matter of this hearing is extremely 
important, we cannot fully investigate the events of January 6 
as the Capitol Police are not present. Republicans have been 
supportive of an equally bipartisan committee to review what 
happened on January 6, but that is not what is happening now.
    As it is National Police Week, I would be remiss if I did 
not take this opportunity to thank all of America's police 
officers for doing their utmost to protect our communities and 
keep us safe. The safety of the American people everywhere 
should be the first priority, and the destruction of property, 
be it private or the United States Capitol, should be 
considered a tragedy. And to look at this tragedy that happened 
and to make sure that we have an effective response, we should 
include all the agencies, including the Capitol Police. I think 
this hearing is really premature and not thorough enough 
because, again, we do not have the Capitol Police here. For 
whatever reason, I guess they probably were not invited.
    But I want to go back to the actions of people, and I want 
to quote former President Ronald Reagan because it seems like 
my colleagues bring former Republicans up now and again. But 
this is one where President Reagan I think really hit the mark, 
and his quote is: ``We must reject the idea that every time a 
law is broken, society is guilty rather than the law breaker. 
It is time to restore the American precept that each individual 
is accountable for his actions.''
    If my colleagues across the aisle are serious about a 
holistic investigation that considers all the facts, I urge 
them to join Republicans in supporting a bipartisan commission 
to investigate the events of January 6.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from New York, Ms. Ocasio-Cortez, is now 
recognized for five minutes.
    Ms. Ocasio-Cortez. Thank you so much, Madam Chair. And 
thank you to all of our witnesses for coming here today and 
offering your expertise and testimony.
    Madam Chair, you know, I think one of the things that we 
are really just trying to do is figure out and nail down a 
basic timeline, which for whatever reason has been a little bit 
difficult to have some of our witnesses, some testimony, 
corroborate with other documents that we have received, and I 
think it is just important for us to just get the facts on the 
timing of some of these things.
    So in that respect, I would like to submit to the record 
the official Department of Defense timeline of the facts that 
they are aware of on January 6.
    Chairwoman Maloney. Without objection.
    Ms. Ocasio-Cortez. Now, according to public reporting, D.C. 
Mayor Muriel Bowser first called Army Secretary Ryan McCarthy 
to ask for help at 1:34 p.m. That was about eight minutes after 
the Capitol was evacuated.
    Now, Mr. Miller, you are the former Acting Secretary of 
Defense during the Trump administration. That is correct?
    Mr. Miller. Yes.
    Ms. Ocasio-Cortez. Now, by this point, 1:34 p.m., according 
to your written testimony, you were ``aware that demonstrators 
had breached the Capitol,'' and it seems as though at 3 p.m., 
about an hour and a half later, you determined that ``all 
available forces of the D.C. National Guard are required to 
reinforce MPD and USCP positions.''
    Now, that is not an authorization to deploy to the Capitol, 
correct?
    Mr. Miller. I gave full authorization to deploy, ma'am.
    Ms. Ocasio-Cortez. You gave full authorization to deploy at 
3 p.m.?
    Mr. Miller. That's--yes.
    Ms. Ocasio-Cortez. OK. I----
    Mr. Miller. Well, no, I'm sorry. It went out at 3:04. I did 
it at 3, yes.
    Ms. Ocasio-Cortez. OK. It seems here that this is in 
contradiction with the Department of Defense timeline. 
According to the Department of Defense timeline, you authorized 
the National Guard to help clear the Capitol at 4:32 p.m.
    Mr. Miller. That was based on I was awaiting the concept of 
operations, the plan that General Walker put together, so he 
had full authority in my mind at 3:04, and that he had to do 
his planning sequence to figure out how he wanted to accomplish 
that.
    Ms. Ocasio-Cortez. So the actual order for the Guard to 
help clear the Capitol did not, for whatever reason--you know, 
processes that you allude to--did not happen until 4:32 p.m., 
correct?
    Mr. Miller. That's when the concept of--the plan was 
formally approved.
    Ms. Ocasio-Cortez. So it was formally approved at 4:32 p.m. 
to send the National Guard to help clear the Capitol when the 
breach--but the breach happened at 1:34 p.m. At 3:19 p.m.----
    Mr. Miller. I did----
    Ms. Ocasio-Cortez. One moment. At 3:19 p.m., Army Secretary 
McCarthy spoke with Speaker Pelosi and Schumer and told them 
that you had approved the full mobilization of D.C. National 
Guard. At 4:08, Vice President Pence reportedly had a 
conversation with you to ``clear the Capitol.'' Is that 
correct? And I understand that he is not in the chain of 
command, but that is correct in the nature of the conversation, 
correct?
    Mr. Miller. I did have a conversation with him, and I told 
him that the Capitol was going to be cleared. He might have 
said something to that extent, but it was more a conversation, 
very brief.
    Ms. Ocasio-Cortez. So what we have here is that the order 
was not issued after a conversation with D.C. Mayor Bowser. The 
order to clear the Capitol was not issued after a conversation 
with Speaker Pelosi. It was not issued after a conversation 
with Leader Schumer. This conversation with Vice President 
Pence happened at 4:08, and at 4:32 was when the actual verbal 
authorization, according to the Department of Defense, 
happened. That was nearly three hours after Mayor Bowser first 
requested National Guard assistance. Why did it take 92 minutes 
after ordering the full mobilization of the D.C. National Guard 
at 3 p.m. to authorize and help clear the Capitol at 4:32?
    Mr. Miller. And, I'm sorry--and I think this is a great 
conversation, and I want to be completely helpful. So at 3 
o'clock, 3 p.m., I gave the order to mobilize the National 
Guard. Then the planning sequence went forward, so the concept 
of the operation, the plan, was approved at the time you 
designated.
    Ms. Ocasio-Cortez. And I apologize, just because I have a 
short period of time. So it took 90 minutes to plan, to send 
the National Guard to the Capitol.
    Now, Major General Walker testified that it actually was 
not until 5:08 p.m. that he finally received authorization to 
deploy his forces to the Capitol. Mr. Miller, do you have any 
reason to doubt Major General Walker's recollection of events 
that day?
    Mr. Miller. I do not have any reason to doubt. I think 
there's--I hate to bring up Clausewitz, but the fog and 
friction and there was so much going on, so I can understand 
there's inconsistency and perhaps disagreement.
    Ms. Ocasio-Cortez. Thank you very much. I yield my time.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from South Carolina, Mr. Norman, you are now 
recognized for five minutes.
    Mr. Norman. Thank you, Chairwoman Maloney.
    I would join some of my other colleagues in really saying 
that I wish this were a true hearing to find out the truth. We 
really need to have Mayor Bowser here. We need to have those in 
the chain of command who really--we could get to the bottom of 
exactly what happened. When I see this sheet on our timeline 
and on the--let's see. OK, at 2:07 a mob of Trump supporters 
breached the steps. I do not know who did a poll that it is 
Trump supporters. You had the media saying the same thing, just 
like you had the media saying Officer Sicknick was killed with 
a fire extinguisher, which he was not. But I do not know who 
did the poll to say that they were Trump supporters.
    I do know this: Those that were on the grounds that saw 
the--were actually there, midway of President Trump's speech 
you had a group that got together, had armed gear, helmets, 
flak jackets, other things. They had an intention. They had 
planned this. And so, really, we are not getting--this is just 
a--we are going through the motions to blame a President who 
has no--had no reason--he had thousands of people there. Those 
that breached the Capitol were intended to do damage.
    Now, let me ask the Chief, am I right, the groups that 
stormed the Capitol used Facebook, not just Parler, but one 
group had 8,000 Facebook followers that directed people to come 
to--had travel routes to come to D.C. Is that correct, Chief?
    Chief Contee. Sir, I'm not sure about that. There was a lot 
of information that was out there, but specifically to what 
you're speaking to, I can't answer affirmatively to that.
    Mr. Norman. So you do not know if that was--you all had no 
knowledge of anything that this was going on?
    Chief Contee. Had no knowledge of what going on exactly, 
sir? I'm sorry. I'm just trying to understand your question.
    Mr. Norman. That groups were using Facebook, that on the 
social media chatter they were talking about coming here en 
masse, certain groups. You all had no knowledge----
    Chief Contee. Oh, no, certainly we knew that there was--
there were social media postings all over the place talking 
about people coming here. It's the reason why we activated the 
entire department, you know, the whole nine yards there, so 
yes.
    Mr. Norman. Where was the breakdown, though? As others have 
mentioned, it said at 2:07 a mob of Trump supporters breached 
the steps. You know, we are talking about many of them--the 
National Guard did not get there until after the fact and after 
they had breached the Capitol. What is your opinion why--why 
was that not stopped earlier? If you had knowledge or had 
suspicions through social media or otherwise, why wouldn't the 
chain reaction be to get people there who could stop what was 
going on?
    Chief Contee. Well, I think that's a great question to ask 
the Capitol Police. Again, we responded to assist the Capitol 
Police. The individuals breached the bike fencing that the 
Capitol Police had established the perimeter. They pushed past 
the U.S. Capitol Police officers that were there as they made 
their way up the west front of the Capitol to ultimately breach 
the Capitol. Members of the Metropolitan Police Department were 
called in to assist, as we did in this situation. So I think 
that they would be better situated to really answer the 
question about why they were not able to stop the advance with 
the resources that they had deployed on that day.
    Mr. Norman. Would they not have had the same information 
that you had about the threat, be it social media, be it just 
general hearsay, that this could potentially be a problem?
    Chief Contee. I would say that they had generally the same 
information. I think we've learned since then that there was an 
intelligence bulletin that circulated within the organization 
of the U.S. Capitol Police that was not shared with the 
Metropolitan Police Department. But, generally, I think, you 
know, as the law enforcement agency here in the city, we were 
all preparing for things to happen, even violence in this 
instance.
    Mr. Norman. Yes, and the right thing--well, really the 
Capitol Hill Police need to be at this hearing today to answer 
the same question, because it is a timing. If you are looking 
at large crowds, and President Trump had large crowds, but you 
had people there that intended to do violence, tear things up. 
You agree with that, don't you?
    Chief Contee. I agree, yes, sir.
    Mr. Norman. And they did.
    Chief Contee. And they did. That's correct.
    Mr. Norman. And it was not--however many people there, 
10,000, whatever, there was a group of people in the Capitol 
that came prepared, it was not based on a talk. This was 
preplanned. And I guess my question: Why wasn't the 
coordination there to stop it? Crime is crime. I do not care 
what group they are in. When they come with the gear that they 
had, baseball bats with barbed wire, I am just wondering why 
that would be an issue to get the people there to stop it, 
because you had film that some of them would just let in, could 
just walk past an officer, which no one understands to this 
day.
    Chief Contee. Yes, I think those are great questions for 
the Capitol Police, sir, to be quite honest with you. Again, 
the Metropolitan Police Department's primary responsibility and 
role, to ensure the safety of the streets of the District of 
Columbia. I can tell you firsthand that this mob of people, the 
people that you are talking about, they marched down the panels 
of the Mall making their way to the Capitol prior to the breach 
taking place. Why Capitol Police, how many people they deployed 
or didn't deploy, it's a great question for the Capitol Police 
leadership to answer.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman's time expired.
    The gentlelady from Florida, Ms. Wasserman Schultz, is now 
recognized for five minutes.
    Ms. Wasserman Schultz. Thank you, Madam Chair. I want to 
take a moment to correct some of the dangerous rhetoric and 
falsehoods uttered by Republicans during this hearing. You 
would think that they would have learned something. After all, 
it was lies about the 2020 election that led to the January 6 
insurrection in the first place.
    My colleague from Arizona, Mr. Gosar, used his questions 
today to downplay the actions of violent insurrectionists that 
left 140 police officers injured and four people dead. Instead, 
he had the audacity to claim the Capitol Police executed a pro-
Trump rioter who was attempting to breach--who was attempting 
to breach the House chamber.
    Mr. Rosen, you are, in fact, aware that the Department of 
Justice conducted an investigation that cleared the Capitol 
Police officers of any wrongdoing in connection with the death 
of Ashli Babbitt, correct?
    Mr. Rosen. Congresswoman, I have not followed the results 
of investigations after I left on January 20, so I'm going to 
refer you to the Department of Justice for that.
    Ms. Wasserman Schultz. Well, it is a fact that the 
Department of Justice did clear the Capitol Police officers. 
That is most definitely a fact. And it's shocking how quickly 
Republicans will turn on law enforcement when it fits their 
agenda.
    I would also like to followup on questions asked of 
Secretary Miller by my colleague Mr. Lynch. Mr. Secretary, I do 
not know why you decided today to forgo the opportunity to 
demonstrate political courage, but it saddens me. You said of 
Mr. Trump's comments, ``He clearly offered that they should 
march on the Capitol, so it goes without saying that his 
statement resulted in that.'' That is a gross understatement of 
what Donald Trump urged his supporters to do on the morning of 
January 6. Trump repeatedly used violent rhetoric to encourage 
his supporters to ``fight like hell'' against this ``act of 
war.'' He circulated a message which promised that on January 
6, 2021, the ``cavalry is coming.''
    Mr. Miller, according to your written testimony, on January 
3 and 4 you convened Cabinet-level calls in preparation for 
January 6. You noted that, ``I want to be very clear. It is not 
and was not the role of the Department of Defense to convene 
these sorts of interagency and intergovernmental meetings or 
calls concerning domestic law enforcement matters.'' However, 
you argued, ``I felt it was my responsibility to initiate these 
discussions given my sense that these efforts and coordination 
were not tightly wired at that point.''
    What did you mean by ``not tightly wired''?
    Mr. Miller. I was very concerned that we were going to put 
National Guard troops into a situation where we hadn't thought 
through it well enough. I just want to highlight that was the 
purpose of the calls, and then by the end of that, I felt very 
comfortable with the plan and the execution.
    Ms. Wasserman Schultz. OK. Mr. Rosen, is it true that the 
Department of Justice, which was cited in a Washington Post 
article, that Chief of Staff Mark Meadows designated the 
Department of Justice as the ``lead Federal agency to 
coordinate security preparations leading up to January 6''? Is 
that accurate?
    Mr. Rosen. I don't think that is accurate.
    Ms. Wasserman Schultz. So DOJ was not the lead agency?
    Mr. Rosen. So the DOJ had specific responsibilities for 
coordinating intelligence and information sharing with respect 
to the Federal agencies DHS, Interior, DOD, and ourselves, and 
there had been, as I set forth in my written testimony, very 
robust information-sharing and intelligence-sharing activities 
with both the Metropolitan Police having a Joint Operations 
Command Center and the FBI having a Washington Field Office 
post where representatives of all the police organizations and 
the Federal agencies were participating, so we----
    Ms. Wasserman Schultz. Reclaiming my time--reclaiming my 
time, thank you. Nailing down who was in charge has been like 
trying to nail Jell-O to a wall, and the old adage that when 
everybody is in charge, then nobody is in charge appears to be 
what happened on January 6. It was----
    Mr. Rosen. Congresswoman, I don't think that's----
    Ms. Wasserman Schultz. I am sorry. Reclaiming my time, the 
time is mine. This appears to have been a Keystone Kops 
operation when it comes to the executive branch agencies 
pointing fingers at one another.
    I would also like to ask Mr. Miller--and I am going to give 
you another opportunity to correct the record. If it were not 
for the violent and incendiary rhetoric of Donald Trump, would 
we have had an insurrection on January 6 at the Capitol?
    Mr. Miller. I don't know.
    Ms. Wasserman Schultz. Well, you certainly seemed to think 
that his rhetoric contributed to it at the time. Do you no 
longer think any of his rhetoric contributed to the riots and 
insurrection that happened at the Capitol?
    Mr. Miller. I was highlighting the assault elements that 
went into the Capitol. Everything changes by the day. I'm still 
learning things that I didn't know----
    Ms. Wasserman Schultz. Reclaiming my time, including your 
commitment and your truthfulness, because, on the one hand, you 
said that that was what contributed to it, and then you had a 
chance to rethink it when maybe the wrath of Donald Trump came 
down upon you. That is disgusting and disloyal to the country.
    I yield back the balance of my time.
    Mr. Miller. I think that thinking people----
    Ms. Wasserman Schultz. I yield back the balance of my time.
    Mr. Miller. I think that thinking people would obviously--
--
    Ms. Wasserman Schultz. Madam Chair----
    Mr. Comer. Madam Chair, he can finish the question.
    Ms. Wasserman Schultz.--the time was mine, and I have 
yielded it back.
    Chairwoman Maloney. Time has expired. Time has expired.
    The gentleman from Arizona, Mr. Biggs, is recognized for 
five minutes.
    Mr. Biggs. Thank you, Madam Chair.
    You know, Democrats have said the events at the Capitol on 
January 6 were an assault on our democracy, and if that is 
true, if disorderly conduct in a restricted building is an 
assault on democracy, then what do we call setting fire to 
Federal court in Portland, Oregon, where people inside--what do 
we call that? For a year we watched riots in American cities, 
and House Democrats remained silent or actually supported the 
violence. The Federal courthouse in Portland was under attack 
every night, and Democrats said nothing. I would like you to 
please play Video Number 1.
    Madam Chair, I would like my time stopped while we are 
waiting for the video to be cued up and played.
    [Video shown.]
    Mr. Biggs. Madam Chair, as we are watching this rioting, 
this insurrection, this violation of the rule of law, this 
attempt to change our government system taking place in 
Portland, I wonder why Democrats have refused to hold hearings 
regarding those riots. We should all condemn every form of 
political violence, in fact all violence. As we watch this, I 
have unmistakably condemned violence in Portland, like we're 
seeing here, as well as violence at the Capitol on January 6. I 
urge my colleagues to do the same.
    You can stop the tape now. Thank you. Stop the video now. 
Thank you.
    Now, Representative Lynch implied that Representative Hice 
did not know what he was talking about when he said the 
Ellipse, walking the Ellipse to the Capitol takes about 45 
minutes. Representative Lynch suggested, oh, it is just two 
blocks, a couple of minutes. Just all you have to do, Mr. 
Lynch, take a look at your mapping app, you will see it is 45 
minutes when there is no crowd, much less when there is a huge 
crowd.
    I want to go to Mr. Miller and just clarify a few points, 
as well as Mr. Rosen, so please stand by. Mr. Miller, I believe 
you testified that you had all the authority you needed without 
talking to President Trump on January 6. Is that accurate?
    Mr. Miller. Yes.
    Mr. Biggs. And, Mr. Rosen, you also said you did not need 
to talk to President Trump on January 6 because you also had 
all the authority that you needed to act. Is that correct?
    Mr. Rosen. Yes.
    Mr. Biggs. And, Mr. Miller, you talked about an ``organized 
conspiracy''--that is the quotes I have from you earlier in 
testimony--about what took place on January 6 in some respects. 
Was it organized, the attack?
    Mr. Miller. I don't know. I think we're going to have to 
find out through forums like this and further investigation, 
but it appears that way based on the communications protocols 
and what-not.
    Mr. Biggs. OK. Thank you.
    Now, it has got to be hell to have Donald Trump living in 
your head like my colleagues across the aisle have. Everything 
they do is based on what Donald Trump said or did not say. But 
the reality is he did talk about moving peacefully and 
patriotically to the Capitol.
    One last clarification for you, Mr. Miller. The Democrats 
keep talking about breaching the Capitol in their timeline, but 
there is a big difference between breaching the outer barriers 
of the Capitol that surround the Capitol versus actually 
getting into the Capitol Building, is there not?
    Mr. Miller. That's exactly what I was trying to explain, 
yes.
    Mr. Biggs. And so some of their timeline is screwed up 
because they do not delineate and distinguish between those two 
important facts.
    Mr. Miller. I think there's a misunderstanding about when 
you talk about the security perimeter versus entering the 
Capitol.
    Mr. Biggs. Yes, you are too diplomatic. I say they screwed 
up their timeline. So in my last little bit of time, Madam 
Chair, I want to submit to the record four different pieces of 
media that have come in detailing the treatment of protester 
Christopher Worrell as well as Paul and Marilyn Hueper from 
Alaska. One is a Politico article, ``January 6 defendants win 
unlikely Dem champions as they face harsh detainment''; another 
Politico article, ``Capitol riot suspects held in D.C. are in 
`restrictive housing,' District says.'' Another one is ``FBI 
tortures Proud Boy member--kept in isolation for 23 hours a day 
while awaiting trial for bashing a window out at U.S. Capitol, 
faces 20-year prison term.'' And ``What do January 6 patriots 
and Guantanamo inmates share?'' Another periodical.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. Without objection.
    Chairwoman Maloney. The gentleman from Vermont, Mr. Welch, 
you are now recognized for five minutes.
    Mr. Welch. Thank you, Madam Chair.
    To my colleague Mr. Biggs, I condemn the violence in 
Portland. We are here today to discuss the failure of the 
authorities to protect the Capitol.
    Mr. Rosen, you testified that the Department of Justice 
normally focuses on gathering intelligence about threats of 
violence and sharing that information with police and Federal 
partner agencies. Prior to January 6, were you personally aware 
of the calls for violence that were all over social media?
    Mr. Rosen. At some level. I mean, I had been paying close 
attention to the fact that the January 6 rallies had been 
announced in the media and were coming and asking that our 
organization do everything we should be doing to prepare 
appropriately and to coordinate and to share information. So I 
wasn't the intelligence analyst, but I was certainly briefed on 
the activity.
    Mr. Welch. Well, let me followup on that. You said at some 
level. It is your job to anticipate things bad that can happen 
and be prepared, right?
    Mr. Rosen. Of course, and we were doing that.
    Mr. Welch. And President Trump had been calling for this 
rally for really since the election itself. Is that not 
correct?
    Mr. Rosen. I'm not sure if I know the answer to that. I was 
just generally aware that this rally was going to happen. There 
had been previous ones in November and December.
    Mr. Welch. Mr. Rosen, this question about what the 
President was doing, it was all in plain sight. I mean, this is 
not a big intelligence coup to read the newspaper or hear what 
the President is tweeting and saying. He wanted people to come 
to the Capitol. You are aware of that.
    Mr. Rosen. Congressman, there had been previous rallies in 
November and December, so, yes, I was aware of these rallies.
    Mr. Welch. Right, and you understood that the line of the 
rally was that the folks who were coming had real objections to 
the outcome of the election and were of the view that the 
election had been stolen, right?
    Mr. Rosen. I think in a general way I was aware that they 
were coming because they were dissatisfied with that, so----
    Mr. Welch. You know, I have got to stop you. If you are in 
intelligence, you are like skeptical; you are worried; you are 
concerned. It is your job to be concerned about what is the 
worst-case situation that can happen. Or is that not how you 
define it? Whatever is in the news is just what is in the news 
and it is just another story? I am serious. That is a serious 
question, OK?
    Mr. Rosen. So, Congressman, let me address that. I was 
concerned that the appropriate preparations were underway----
    Mr. Welch. OK. Did you direct----
    Mr. Rosen. The Capitol Police are responsible for the 
Capitol. I don't have people guarding the Capitol. But we're 
trying to make sure that people are coordinating and sharing 
information appropriately.
    Mr. Welch. Did you direct Director Wray to investigate 
further? Did you consult with Chief Contee or Chief Sund? Just 
answer those three questions: direct Wray, consult with Contee, 
consult with Sund.
    Mr. Rosen. I had conferred repeatedly, including the day 
of, but certainly in the week prior, with the FBI, including 
the leadership. With regard to others, we had, as I said in my 
written testimony, mechanisms in place for regular 
coordination, including people that were embedded together at 
the MPD, JOCC, and at the WFO, you know, the FBI field office. 
And then we eventually set up the national coordination at the 
FBI headquarters SIOP.
    Mr. Welch. Here is why it is hard to understand what you 
are talking about. You did not do anything. The day after this 
event, we put up----
    Mr. Rosen. How can you say that when we sent over 500 
agents and officers on an urgent basis on January 6 to provide 
assistance at the Capitol----
    Mr. Welch. Here is why----
    Mr. Rosen.[inaudible] Agents, these FBI agents, the U.S. 
Marshals. I think they need to be applauded, Congressman.
    Mr. Welch. Well, I certainly applaud the front-line Capitol 
Police and all the folks who came here. I definitely do that. 
We are all in agreement. But you know what? January 5 would 
have been a better day to send them.
    Mr. Rosen. The Capitol Police did not request that.
    Mr. Welch. This is an intelligence--this was not an 
intelligence failure. The news was out there. It was as plain 
as day. It was a cavalier decision that was made, in my view, 
on the basis of the fact that it just was inconceivable that a 
Trump rally could result in an attack on the Capitol, so it was 
not taken with the seriousness that would have been applied had 
it been any other instigator than President Trump.
    Thank you, and I yield back.
    Mr. Rosen. I differ with that, but I think you are 
misunderstanding who's responsible----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Fisher [continuing]. For security at the Capitol, which 
is the Capitol Police.
    Chairwoman Maloney. At the request of one of our witnesses, 
we are going to take a five-minute bathroom break. The 
Committee stands in recess for five minutes.
    [Recess.]
    Chairwoman Maloney. The committee will come to order.
    The gentleman from Georgia, Mr. Clyde, is recognized for 
five minutes. Mr. Clyde?
    Mr. Clyde. Thank you, Madam Chair.
    This hearing is called the ``Capitol Insurrection.'' Let us 
be honest with the American people. It was not an insurrection, 
and we cannot call it that and be truthful. The Cambridge 
English Dictionary defines an insurrection as, and I quote, 
``an organized attempt by a group of people to defeat their 
government and take control of their country, usually by 
violence.''
    And then from the Century Dictionary, ``The act of rising 
against civil authority or governmental restraint, specifically 
the armed resistance of a number of persons to the power of the 
state.''
    As one of the Members who stayed in the Capitol and on the 
House floor who, with other Republican colleagues, helped 
barricade the door until almost 3 p.m. that day from the mob 
who tried to enter, I can tell you the House floor was never 
breached, and it was not an insurrection.
    This is the truth. There was an undisciplined mob. There 
were some rioters and some who committed acts of vandalism. But 
let me be clear. There was no insurrection, and to call it an 
insurrection, in my opinion, is a boldfaced lie.
    Watching the TV footage of those who entered the Capitol 
and walked through Statuary Hall showed people in an orderly 
fashion staying between the stanchions and ropes taking videos 
and pictures. You know, if you didn't know the TV footage was a 
video from January 6, you would actually think it was a normal 
tourist visit.
    There were no firearms confiscated from anyone who breached 
the Capitol. Also, the only shot fired on January 6 was from a 
Capitol Police officer who killed an unarmed protester, Ashli 
Babbitt, in what will probably be--eventually be determined to 
be a needless display of lethal force. We heard earlier that 
her death certificate ruled her death to be a homicide.
    So based on the definition that I just outlined from two 
dictionaries, this question for former Acting Attorney General 
Jeff Rosen. Would you call the events of January 6 an 
insurrection or a riot with vandalism, similar to what we saw 
last summer, sir?
    Mr. Rosen. I think whatever you call them, they were a huge 
disappointment, and I think all of us wish they had not 
occurred. With regards to the specifics of some of the labels 
that we use, I need to be careful because they could have legal 
significance. And I've been asked, and I think it's my 
responsibility as well, not to do anything that might interfere 
with or in any way jeopardize the cases that are pending.
    So I want to stay away from the terminology, but I think 
the events of January 6, we all have to agree, are things that 
should never have happened.
    Mr. Clyde. Oh, absolutely. I agree with that 100 percent. 
You know, but the only insurrection that I have witnessed in my 
lifetime was the one conducted by members of the FBI with 
participants from the DOJ and other agencies under the banner 
of Russia, Russia, Russia.
    High-ranking employees from these Federal agencies and 
members of an independent counsel coordinated and fed a false 
narrative for over two years that the 2016 election was stolen 
and illegitimate. Democrats were on the news almost every night 
saying the evidence is there, and the mainstream media 
amplified the fake news. This was, indeed a very coordinated 
and well-funded effort by a determined group of people to 
overthrow our duly elected President, Donald J. Trump.
    Now I have a question for the good Chief Contee. 
Specifically, sir, can you briefly describe your rules of 
engagement for protests, and at what point are your officers 
allowed to use lethal force? And then, as a followup, does that 
change if the situation is declared to be a riot, sir?
    Chief Contee. Well, the Metropolitan Police Department, it 
would be very difficult to use lethal force in a situation 
where you have a riot or where there are multiple individuals 
involved. I mean, unless we were able to isolate a specific 
person who is committing an act that creates a life-threatening 
situation for our officer or for someone else, we would not 
ordinarily use lethal force in a situation like this.
    Mr. Clyde. OK. Does that change then if it is--well, first 
off, was the situation on January 6 declared a riot? And if it 
was, what time?
    Chief Contee. Yes, sir. It was declared a riot, and I 
believe the time was around about 1:50 p.m.--about 1:50 p.m.
    Mr. Clyde. OK. All right, 1:50 p.m. So do your rules of 
engagement change then if the situation is declared to be a 
riot? Is that different from a protest in any way?
    Chief Contee. Yes, for us, it is. In a situation where we 
declared a riot, members then are donning hard protective gear. 
Several people were dismantling the inauguration stand and 
using other things to assault many of the officers. I had 65 
officers that reported significant injuries as a result of what 
we were faced with.
    Mr. Clyde. OK. But did the rules of lethal engagement 
change?
    Chief Contee. No, the rules of lethal engagement does not 
change. In other words, we would not, you know, just randomly 
start using lethal force. But we used every less than lethal 
weapon that we had available to us, pepper spray and other 
munitions, to try to bring the situation under control.
    Mr. Clyde. Thank you very much, Chief. I appreciate your 
very informative comments.
    And with that, I see my time has expired, and I yield back.
    Chairwoman Maloney. The gentleman yields back. And the 
gentleman from Georgia, Mr. Johnson, is now recognized for five 
minutes. Mr. Johnson?
    Mr. Johnson. Thank you, Madam Chairman.
    Mr. Miller, on December 31, the Mayor
    [inaudible] January 6 because she was concerned about the 
likelihood of violence by Trump supporters. Isn't that correct?
    Mr. Miller. I'm sorry, Congressman. This is Chris Miller 
here. You came in distorted at the beginning. I didn't hear the 
question.
    Mr. Johnson. OK. Well, I just asked a question. On December 
31, that is the first request for National Guard to back up law 
enforcement in Washington, DC, because of fears of violence by 
Trump supporters on January 6. Correct?
    Mr. Miller. That was the first--that was the request, yes.
    Mr. Johnson. And that request was not approved by you until 
January 4.
    Mr. Miller. It was that----
    Mr. Johnson. Correct?
    Mr. Miller. Yes, it was that long weekend. So the----
    Mr. Johnson. And the request and the authorization that you 
gave was to activate 340 National Guard troops. Correct?
    Mr. Miller. In accordance with the Mayor's request, yes.
    Mr. Johnson. And you ordered that the Guardsmen and the 
Guardswomen not be issued riot gear. Isn't that correct?
    Mr. Miller. In accordance with the Mayor's guidance.
    Mr. Johnson. And you placed restrictions on the deployment 
of an additional 40 National Guard quick-reaction force who 
were staged nearby at Joint Base Andrews. Isn't that correct?
    Mr. Miller. I did not, no.
    Mr. Johnson. You did not place restrictions on the 
deployment of the quick reaction force?
    Mr. Miller. No. General Walker had full authority to deploy 
the quick-reaction force, so he----
    Mr. Johnson. So you issued--so you issued no order 
restricting the deployment of those 40 quick-reaction forces?
    Mr. Miller. I gave guidance that I wanted to be involved, 
but if he felt he needed to deploy the quick-reaction force on 
his own, he could do that on his own without my approval.
    Mr. Johnson. OK. Well, you were aware also on January 4 
that Capitol Hill Police Chief Sund also inquired about 
deployment of National Guard troops to the Capitol on January 
6. Correct?
    Mr. Miller. On January 4, I was not aware that he asked, 
and he did not put in a request for National Guard support.
    Mr. Johnson. OK, fair enough. Did you attend the Trump 
rally on January 6?
    Mr. Miller. No, I was at the Pentagon. There was quite a 
lot going on in the world that day.
    Mr. Johnson. And so you were observing the events at the 
rally from the Pentagon. Is that correct?
    Mr. Miller. No, I was--the television was on, but I was 
involved in other matters.
    Mr. Johnson. Did you--when did you first become aware that 
marchers were on their way from the rally to the Capitol?
    Mr. Miller. Congressman, I've listed it here. I want to say 
it was 1 p.m., right about then. Someone came in, and they told 
me.
    Mr. Johnson. And you began to monitor the situation closely 
at that point. Correct?
    Mr. Miller. Yes. And there were 8,000 badged and 
credentialed law enforcement officers on duty.
    Mr. Johnson. But you were aware that the Capitol barricades 
had been breached. In real time, you were watching that. 
Correct?
    Mr. Miller. I can't recall if I saw it in real time or 
whether it was a replay.
    Mr. Johnson. Well, you were aware that at 1:26 p.m. on 
January 6, the U.S. Capitol Police had ordered the evacuation 
of the Capitol. Correct?
    Mr. Miller. I don't know if I knew it right at that moment, 
but I was aware right within this timeframe.
    Mr. Johnson. And you were aware eight minutes later at 1:34 
p.m. that Mayor Bowser was again requesting National Guard 
troops be sent to the Capitol. Correct?
    Mr. Miller. I was not aware of that.
    Mr. Johnson. You were not aware that at 1:49 p.m. Chief 
Sund was frantically asking for deployment of National Guard 
troops to the Capitol?
    Mr. Miller. No, I was not aware of that.
    Mr. Johnson. At 2:28 p.m., were you aware that Chief Sund 
was also making another urgent request for National Guard 
support?
    Mr. Miller. I was not aware of that specific request at, as 
you said, 2:28 p.m.
    Mr. Johnson. But you said it was at 3:04 p.m. when you 
ordered that all available forces of the National Guard would 
be required to reinforce law enforcement at the Capitol. 
Correct?
    Mr. Miller. That was based on a meeting I had with the Army 
Secretary and the Chief of Staff at a little after 2:30 p.m.
    Mr. Johnson. But you never gave him verbal authority to 
conduct operations at the Capitol until 4:32 p.m. Correct?
    Mr. Miller. I was not in the position to give him verbal 
authority. That was Secretary McCarthy. He was the operational 
commander that was involved with that.
    Mr. Johnson. So, in short, it was almost--it was three 
hours after the first request for National Guard assistance at 
the Capitol before permission was granted by you. Isn't that 
correct?
    Mr. Miller. No, I don't think that's the case. A request--a 
911 call does not equate to a formal request. I had an 
obligation----
    Mr. Johnson. Well, let me ask you this. Did you--how did it 
come to pass that you slow-rolled the deployment of National 
Guard troops to put down a violent insurrection that you were 
observing taking place at the Capitol? How could it be--how 
could it be that three hours would pass before you authorized 
National Guard troops to reinforce the Capitol Hill Police and 
the D.C. Police?
    Mr. Miller. That's completely inaccurate and is not what 
happened.
    Mr. Johnson. Well, you didn't issue an order for 3--until 4 
p.m., 4:30 p.m.
    Mr. Miller. No, at 3 p.m., I ordered the full mobilization 
of the District of Columbia National Guard.
    Mr. Johnson. Well, then why is it that at 5--in Senate 
testimony, Major General Walker testified under oath that it 
was at 5:08 p.m. that he received your approval to deploy 
National Guard troops to the Capitol? 5:08 p.m.
    Mr. Miller. I don't know. He had all the approval and 
authorities he needed at 3:04 p.m. when the order went out.
    Mr. Johnson. Did you ever plan with anyone inside or 
outside of the Trump administration or with President Trump 
himself to delay deployment of National Guard troops to the 
Capitol on January 6?
    Mr. Miller. No. And I most emphatically say no and 
absolutely not.
    Mr. Johnson. Were you ordered to delay deployment of the 
troops?
    Mr. Miller. One hundred 10 percent absolutely not. No, that 
is not the case.
    Mr. Johnson. With that, I yield back, Madam Chair, and I 
thank you.
    Chairwoman Maloney. The gentleman yields back, and the 
gentleman from Texas, Mr. Cloud, is now recognized for five 
minutes. Mr. Cloud?
    Mr. Cloud. Thank you, Madam Chair.
    And thank you to the witnesses that are here today, 
specifically Christopher Miller and Contee, I want to 
appreciate the uniforms that you represent and the frontline 
men and women who wear them. Thank you for being here today.
    I wanted to spend some time filling in maybe some of the 
gaps. It is my understanding that as of April 12, 372 people 
have been charged in relation to the events on January 6. Mr. 
Rosen, how many of them were Members of Congress?
    Mr. Rosen. I don't know the answer to that question.
    Mr. Cloud. You don't know if a Member of Congress has been 
charged or not?
    Mr. Rosen. Well, let me put it differently. I'm not aware 
that any have.
    Mr. Cloud. OK. Now our Speaker has said, assuredly has 
informed the American people, that the enemy is within the 
House of Representatives. She went on to say that she hoped the 
Republican Members that were involved would be charged and has 
continued to state this false accusation.
    Meanwhile, the Capitol Police and Sergeant of Arms, we met 
with them. I met with them personally and asked them very 
specifically, has there ever been any intelligence to relate, 
to lead to the idea that Members of Congress were involved in 
the events or, as was alleged, giving surveillance tours? And 
they said that there was never any intelligence to lead to 
that.
    Would you, any of you differ with that statement, or would 
you agree with it?
    [Pause.]
    Mr. Cloud. Any of the witnesses? Hello? Can you agree, 
disagree? Are we disconnected?
    Chief Contee. Yes, for the Metropolitan Police Department, 
we have no information about that.
    Mr. Cloud. OK, thank you.
    The Speaker also promulgated the false information that an 
officer was killed by a fire extinguisher. This information was 
also used in an impeachment hearing as evidence for 
impeachment. It is beyond me why the Speaker would feel the 
need to lie about either Members of Congress or about the 
officers who serve in our halls. It is tragic for someone 
serving in that capacity.
    It is notable that actions regarding January 6 and the 
incursion at the Capitol have uniformly been condemned by 
Republicans, that we have called for anyone who broke the law 
to be prosecuted. Are you aware of any House Member or House 
Republican Member or Senate Member posting bail, raising money 
for the defense of anyone charged?
    Chief Contee. Is that directed to one of us, sir, or----
    Mr. Cloud. Yes, to any of you.
    Chief Contee. I'm not aware from the Metropolitan Police 
Department.
    Mr. Cloud. OK. I appreciate that. I am not aware of any 
either. We know that that has been done on the Democratic side, 
including--including the Vice President.
    Mr. Miller, it seems that no one wants to let you talk 
today. You mentioned that the--your initial estimate has been 
revised as intelligence has played out and been gathered since 
the events. I was on a plane with a number of people on January 
6 and still have the luxury of being incognito sometimes, and 
so I just asked them, as a citizen, just, hey, you were at the 
event, what happened? And a number of them said what Capitol 
Police had confirmed in discussions, that there was a 
distinction definitely between people who came to attend the 
rally and the spirit and enthusiasm they came with versus 
people who came with--to quote a Capitol officer--evil intent 
in their eyes and intent to do harm.
    You have mentioned that there were agitators who came 
prepared. There has been some discussion about whether it takes 
45 minutes or not to walk from the Mall to the Capitol. I 
certainly think, if there were people who came in battle gear, 
so to speak, and gas masks and that they were motivated by 
anything that President Trump said, that they didn't have time 
to go back to their house, put on their gear, within the time 
to make it to the Capitol.
    Could you speak to that and some of the lessons learned in 
the new information that has come to light?
    Mr. Miller. I just felt as I saw some of the video, the 
particular video is where a column is going up the stairs, and 
they are holding onto each other, and they are kitted up in a 
way that was pretty dramatic and I'd seen before. That struck 
me as an example of this was--they were organized and had 
thought through this.
    Mr. Cloud. So they showed up on the Mall prepared?
    Mr. Miller. That's my assessment, but that's not--I'll 
leave it for you all to determine definitively, as well as law 
enforcement.
    Mr. Cloud. Well, the people I spoke to on the ground who 
had attended the rally, that is what they said as well. That 
they had seen people pull up even in vans and had a completely 
different spirit about them.
    Thank you for your testimony today.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman from Maryland, Mr. Sarbanes, is now recognized for 
five minutes. Mr. Sarbanes?
    Mr. Sarbanes. Yes, thank you very much, Madam Chair.
    I want to talk about where we go from here. One hundred 
twenty-six days ago, the Capitol was overrun by 
insurrectionists. So it has been more than four months, and 
even today, we have heard some new testimony. We have learned 
some new facts, and we are still learning more about what 
happened on January 6. And there are a lot of unanswered 
questions that remain.
    In February, as we know, Speaker Pelosi proposed an 
independent commission, which was modeled after the 9/11 
Commission to study the January attack and the factors that led 
to it. Unfortunately, with a few exceptions, Republicans have 
opposed this commission, even as the Speaker has indicated her 
openness to compromise by proposing that the commission, for 
example, have an equal number of Republicans and Democrats and 
that the chair and the ranking member share subpoena authority. 
So she has made a good-faith effort to try to construct this in 
a way that is nonpartisan.
    One criticism that we have heard from Republicans is that 
the scope of the commission should include protests against 
police brutality that took place in the summer of 2020. We got 
a little bit of a taste of that perspective today. But that is 
an entirely different subject. It does not relate to the 
January 6 attack. It would dilute the important focus that we 
need to place on the events of that day. We need to get solid, 
cogent answers to questions about what happened at the Capitol 
and how it happened.
    In April, a coalition of 140 national security leaders who 
served under Democratic and Republican administrations sent a 
letter to Congress urging us to create a 9/11-style commission 
to provide a ``full picture of events and an analysis of their 
causes.'' They wrote further, ``Given the gravity of January 6 
as a national security matter, the violent disruption to the 
transition of power, and the continuing threat of future 
attacks, a national commission examining the lead-up to the 
January 6 assault and the attendant security lapses is not only 
appropriate, but a critical component of the national 
response.''
    And Madam Chair, I ask for unanimous consent for this to be 
entered into the record.
    Chairwoman Maloney. Without objection.
    Mr. Sarbanes. Mr. Miller, do you agree with these national 
security professionals' assessment that the January 6 attack 
was a grave matter of national security?
    Mr. Miller. Yes.
    Mr. Sarbanes. Do you think something like the January 6 
attack could happen again?
    Mr. Miller. Yes.
    Mr. Sarbanes. Would an independent review of the events of 
January 6 help prevent a reoccurrence and/or make us better 
prepared in the future?
    Mr. Miller. Yes.
    Mr. Sarbanes. Mr. Rosen, can you give me your perspective 
on the value of a 9/11-style commission?
    Mr. Rosen. Congressman, I think we start with the premise 
that the events at the Capitol, the attack on the Capitol, were 
unconscionable, outrage. I think I said in my opening statement 
a national travesty. So knowing that, it is important to get 
the facts established, understood, and have an opportunity to 
try to ensure that something like that never happens again.
    Whether to do that by a commission or some other means, I 
think that's really a question for the Congress, and I leave it 
to you and your colleagues to determine that.
    Mr. Sarbanes. Well, I appreciate that. I mean, if you look 
back at the 9/11 Commission, not only did it produce in a 
bipartisan fashion an analysis of what occurred then, it became 
kind of the gold standard for how we respond to traumatic 
events. And so it is the natural place to go to construct 
something of that kind in response to what happened on January 
6, and I think that is why there is such a strong case to be 
made there.
    And it helped, I think it helped the country and the 
American people and lawmakers, all who were affected by it, to 
come to terms with what happened on that day, on 9/11, in a 
significant and, in a sense, healing fashion. I think that is 
the promise of a commission in this instance. It produced a 
unanimous report, the 9/11 Commission did. Nearly all of its 
recommendations were adopted.
    So we must examine the January 6 insurrection, I believe, 
with the same level of scrutiny. I think the future of our 
democracy is very much dependent on taking that step. I urge 
all my colleagues to support the commission.
    I yield back the balance of my time to you, Madam Chair.
    Chairwoman Maloney. I thank the gentleman for his 
statement. I couldn't agree more that 9/11 gave us a diagram of 
going forward to make this country safer. It was truly a 
determined bipartisan effort that moved this country forward. I 
hope we can do the same with a commission looking at what 
happened at our Capitol on January 6.
    With that, I would like to recognize the gentleman from 
Florida, Mr. Franklin. You are now recognized for five minutes.
    Mr. Franklin. Thank you, Madam Chairman.
    And thank you to our witnesses. You have endured a lot over 
these last several hours, and I appreciate your time today.
    I had held great hopes that we would get to the bottom of 
some of the events that happened on January 6. It was no doubt 
a dark day in our country's history. Unfortunately, this 
hearing has not been anything like I would have anticipated. 
This is not an effort to get to the truth. It is not to find 
out what really happened. It is nothing but a political show, 
and let me dive into that a little bit.
    But first, I do have a question for our three witnesses. 
And first, Chief Contee, which law enforcement agency would you 
say has the primary responsibility for protecting the Capitol?
    Chief Contee. The United States Capitol Police.
    Mr. Franklin. Thank you, sir. Mr. Rosen, would you agree 
with that assessment?
    Mr. Rosen. I do agree with that. The Capitol Police are 
part of the legislative branch and are responsible for security 
at the Capitol.
    Mr. Franklin. OK, thank you. And Mr. Miller, would you 
agree as well?
    Mr. Miller. Yes, I agree.
    Mr. Franklin. OK. Thank you all. It is interesting that we 
have no one here from Capitol Police today.
    Chief Contee, this will be a question coming to you. But on 
January 3, the Capitol Police issued an internal report called 
``A Special Event Assessment,'' stating that the Intelligence 
and Interagency Coordination Division was tracking several 
protests that were to take place on January 5 and 6, and that 
there were indications that the protesters could be armed. It 
doesn't appear that that internal report was shared with other 
law enforcement agencies or the FBI. Was your agency made aware 
of that report?
    Chief Contee. No, not prior to January 6. That's correct.
    Mr. Franklin. Would it have been helpful information to you 
to know that there was another corroborating source that there 
might be armed folks come--taking place in those events on the 
6th?
    Chief Contee. I believe it would have been helpful. But the 
Metropolitan Police Department, just in terms of our 
deployment, we had signs posted on the National Mall regarding 
individuals who could be armed, that kind of thing. But it 
certainly would have been helpful.
    Mr. Franklin. Great. Thank you.
    A similar report was issued by the FBI's field office in 
Norfolk. We have heard about that. It was in the press. Warning 
that extremists were sharing online plans to travel to D.C., 
encouraging each other to be violent and ``ready for war.'' The 
FBI claims that information was shared with the field office in 
Washington and then, subsequently, the Joint Terrorism Task 
Force, which includes Capitol Police, the Park Police, D.C. 
Metro Police, among others.
    Chief, were you aware of that report from the Norfolk FBI 
office?
    Chief Contee. No. It was emailed to our agency.
    Mr. Franklin. OK. So that it was emailed to the agency, but 
not--didn't make it to your attention. OK? That is correct?
    Chief Contee. That is correct. Yes, sir.
    Mr. Franklin. OK. Our understanding as well, Chief Sund of 
the U.S. Capitol Police claims that he didn't receive that 
report either. Seems to me like that would be some pretty 
critical information to know.
    But everyone seems in agreement that the Capitol Police 
would be the agency most responsible for protecting the 
Capitol, and yet they are not here today. I can't, for the life 
of me, fathom why if we are going to call a panel of witnesses 
that the agency primarily responsible for safeguarding this 
institution wasn't invited to participate. That is another 
question for another day.
    So beyond that, another topic that came up here. It was 
brought to my attention, Mr. Rosen and Mr. Miller, the two of 
you, along with Secretary McCarthy, received a letter from 
Mayor Bowser on January 5. Are you familiar with the letter I 
am talking about, or should I refresh you guys on it?
    Mr. Rosen. I'm familiar. It's attached to my written 
testimony.
    Mr. Franklin. OK. And could you elaborate for all of us 
here a little of what the Mayor was stating in her letter to 
you?
    Mr. Rosen. Yes. She wrote to the Army Secretary and to the 
Acting Secretary of Defense and me and just indicated that she 
wanted us aware that--I'll just read the beginning. ``As the 
law enforcement agency charged with protecting residents and 
visitors throughout the District of Columbia, the Metropolitan 
Police Department is prepared for this week's First Amendment 
activities. MPD has coordinated with its Federal partners, 
namely the Park Police and U.S. Capitol Police and U.S. Secret 
Service, all of whom regularly have uniformed personnel 
protecting Federal assets in the District of Columbia.''
    And she goes on and clarifies or expresses that, ``The 
District of Columbia government has not requested personnel 
from any other Federal law enforcement agencies, and to be 
clear, the District of Columbia is not requesting other Federal 
law enforcement personnel and discourages any additional 
deployment without any notification to and consultation with 
MPD if such plans are underway.''
    Mr. Franklin. Well, thank you. And it seems to me that that 
is important information, and you know, again, I would love to 
have the Mayor here so we could ask her directly about some of 
this. But for whatever reason, my colleagues across the aisle 
have not deemed those witnesses to be important enough to bring 
before us today.
    I look forward to getting to the bottom of this when we are 
ready to have a serious hearing, and apparently, that is not 
the case today.
    But thank you, Madam Chair. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from California, Ms. Speier, is recognized for five 
minutes. Ms. Speier?
    Ms. Speier. Thank you, Madam Chair. And thank you both for 
your participation today.
    Let me just start with you, Mr. Rosen. Earlier in your 
comments today, you said that there was no widespread evidence 
of fraud that the Department uncovered. Can you give us 
specific evidence of fraud that you uncovered in the election?
    Mr. Rosen. Well, Congresswoman, I know you're alluding to 
page 2 of my written testimony, and pretty much what I have to 
say, I've said there. I am not at liberty to get into the 
details of specific investigations in particular locales, but I 
have shared the results of that.
    Ms. Speier. But there was nothing that would constitute 
widespread. They were isolated incidents around the country, 
any different than they are at any other election?
    Mr. Rosen. As I said, nothing widespread or on a sufficient 
scale to overturn the election.
    Ms. Speier. All right. I think everyone agrees that there 
was an abysmal failure of intelligence. There was so much on 
social media that was ignored, and in my work on the 
Intelligence Committee, I think there is a bias against using 
open source information. But in this case, clearly, the open 
source information was raising red flags all over the place.
    On social media and rightwing forums, such as 
TheDonald.win, supporters of President Trump telegraphed out in 
the open their intent and aspirations to attack the Capitol. 
One user posted, ``If we occupy the Capitol building, there 
will be no vote.''
    The top response read, ``Got to overwhelm the barricades 
and cops.'' Another individual posted, ``January 6 is the 
chance to restore this country. Barging into the Capitol 
through multiple entryways is the surest way to have our bases 
covered and apprehend these traitors.''
    Some users shared maps of the Capitol building. These 
conversations weren't happening hidden away in encrypted chat 
rooms or on the dark web. They were out in the open for 
everyone to see.
    Mr. Rosen, prior to January 6, were you aware that 
supporters of Donald Trump had made these specific public 
threats against the U.S. Capitol and Members of Congress?
    Mr. Rosen. Congresswoman, as I've alluded to in my written 
testimony, there was a very robust effort at the FBI to track 
appropriate and available information and to share it with the 
police departments, and that was done, and with the Federal 
agencies, the DHS and the Secret Service, for example. I was 
aware that there was the potential for violence, as was 
everybody, I think. And I think I share your unhappiness with 
those kind of comments. I think they're bad things.
    I'd refer you to Director Wray's testimony before a Senate 
committee a couple of months ago where he addresses how the 
Bureau has to deal with things that are aspirational versus 
real intent and corroborated. And that's a challenge for the 
intelligence community.
    I would disagree with you that there's an intelligence 
failure. I think the information that was available was a 
robust effort and was shared.
    Ms. Speier. All right. Let me--let me go on.
    The FBI easily issued warnings in advance of the peaceful 
racial justice protests. They quickly deployed additional law 
enforcement personnel in the summer of 2020. What does the 
Department of Justice and FBI need to change to ensure that 
obvious warning signs are taken seriously?
    Mr. Rosen. I'm not sure if I'm following your question. 
Because on January 6, we had pre-positioned and alerted our 
tactical assets at the FBI and the ATF, the U.S. Marshals. And 
on January 6, with great urgency, we deployed over 500 men and 
women from the Justice Department to provide assistance at the 
Capitol----
    Ms. Speier. But that was after the breach, was it not?
    Mr. Rosen. It was after the breach, but we had pre-
positioned some of them to be available.
    Ms. Speier. Reclaiming my time. We are talking about before 
the breach. Before the breach is when intelligence becomes so 
important, when you could prepare.
    Mr. Rosen. Oh. Oh, I'm sorry. I misunderstood your 
question. I think the reason I misunderstood your question, 
Congresswoman, is the Capitol Police are responsible for 
security of the Capitol, and they're part of the legislative 
branch. They don't report to me, and I don't have any authority 
over them.
    Ms. Speier. No, I understand----
    Mr. Rosen. But we did try to get them the information we 
had.
    Ms. Speier. Well, Mr. Rosen, the information--there was red 
alarm information that was being promoted online that should 
have raised all kinds of red flags. And yet there was some 
obscure memo that came from some division that never had any 
kind of heightened awareness. It reminds me a lot of 9/11, 
where it never percolates to the top.
    So I continue to be concerned that there was plenty of open 
source information that this riot, this insurrection was going 
to take place, and it was not properly communicated. And to 
point fingers saying we have no jurisdiction over the Capitol, 
my God, this is where the seat of government is. How can you 
not recognize your responsibility?
    With that, I yield back.
    Mr. Rosen. Madam Chair, might I briefly respond?
    Chairwoman Maloney. Yes, sir. Go ahead.
    Mr. Rosen. Thank you. I think there's a misunderstanding 
here. The point I'm making is the people with the 
responsibility for securing the Capitol are the Capitol Police, 
but the FBI and the Justice Department are, in fact, collecting 
information and sharing it with the Capitol Police, as well as 
others, and that did occur.
    So if there's a question directed specifically at the 
Capitol Police's awareness of the potential for violence, I 
mean, I think they were aware of the potential for violence. 
But I'm just not the one you should ask that question to. I 
think if you want to get an understanding, there are other 
participants you'll want to talk to.
    Chairwoman Maloney. OK. The gentleman's time has expired. 
The gentleman from Kansas, Mr. LaTurner, is recognized for five 
minutes. Mr. LaTurner?
    Mr. LaTurner. Madam Chairwoman, respectfully, the way this 
hearing is being conducted today is disappointing, to say the 
least. As evidenced by the witness list and some of the 
shameful statements and questions being asked by the majority 
party, this hearing is a continuation of the Speaker's partisan 
approach to obtaining the facts and putting steps in place to 
ensure that this never happens again. That should be what we 
are doing here today.
    Here is the truth. Many in the Democratic Party are 
politicizing this issue and making gross attempts to link the 
concerns of tens of millions of Americans about the last 
election and the peaceful actions of their elected 
representatives to the violent acts of January 6. Those tens of 
millions of Americans that I mention and all of their elected 
representatives on both sides of the aisle are disgusted by the 
violence on January 6 and believe that should never happen in 
the United States of America.
    I want to remind the majority members of this committee 
that Democrats have contested the Presidential election results 
of every single Republican victory for the last 20 years. In 
fact, Speaker Pelosi said in 2004 about the Democrats objecting 
to the Electoral College, ``Today, we are witnessing democracy 
at work. This isn't as some of our Republican colleagues have 
referred to sadly as frivolous. This debate is fundamental to 
our democracy.''
    I urge my colleagues on this committee to stop the 
hypocrisy and stop politicizing this tragedy. This country and 
this Congress are divided enough already. It is time for the 
metal detectors on the House floor and the ridiculous fences to 
come down and for us to roll up our sleeves and get to work on 
behalf of the American people.
    Part of that work is getting to the bottom of what happened 
on January 6, and we know exactly how to do that as a Congress 
and as a Nation. I urge my colleagues to all support H.R. 275, 
legislation I have cosponsored, which is modeled after the 
bipartisan 9/11 Commission, which we know is the gold standard 
for commissions enacted after events similar to January 6.
    We can do this, and we can do it in a bipartisan manner, 
guaranteeing full accountability for the people that committed 
these crimes and full accountability for those leaders that 
failed to secure the Capitol. We were able to do the exact same 
thing after the harrowing events of September 11, 2001, and we 
must do it again.
    This hearing today and the continued partisan efforts of 
the Speaker will not make our Capitol any safer, our Nation any 
more united, and it will certainly not help to prevent another 
similar tragedy down the road. It is my greatest hope that we 
can stop the political games and come together on this 
important matter so our very divided nation can begin to heal.
    I would like to ask any of the conferees here today--Mr. 
Rosen, Mr. Miller, you both have endured a lot of incoming. I 
would like to give you a little time. Is there anything that 
you would like to correct for the record or anything that you 
would like to add that you haven't had an opportunity to?
    Mr. Rosen. I guess, just to followup on my previous line of 
questioning, I'd just like to clarify, because it occurred to 
me that sometimes I may know what the role and responsibilities 
of different entities are and not all the Members of Congress 
will. So let me just try to clarify one thing.
    Everybody is trying to work together and coordinate, and 
nobody is trying to say we don't want to be helpful and we 
don't have responsibility. But it's a little bit like, you 
know, Bill Belichick says about football players. Everyone has 
to do their own job, as well as be supportive of the folks 
doing the other jobs.
    So with regard to the Capitol Police, who provide the 
security at the Capitol, when I'm making the point that they do 
not report to the Justice Department, they're not even part of 
the executive branch, right? I'm not saying we don't try to 
assist and collaborate and coordinate because we do. And we 
shared information.
    The point I'm making is, ultimately, the decision what to 
do with the information falls on--in that instance, because it 
depends which police force it is--but in that instance, on the 
Capitol Police to decide what to do, and if they feel like they 
need additional assistance or additional resources, they have 
the ability to reach out to lots of different folks, to the 
other police forces or the Justice Department if they need 
resources, or in some instances if they need--particularly if 
they need large numbers of bodies--to the National Guard.
    And so there's mechanisms for people to coordinate, but 
everyone has got to do their own job, and then everyone is 
trying to help each other with their jobs. And that's why I 
make the point, we had pre-positioned some resources. We hoped 
that they weren't needed.
    Nobody had asked the Justice Department for them. But 
thankfully, they were available so that when the terrible 
events of January 6 occurred, we were in a position to send 
over 500 DOJ personnel to the Capitol in short order. And that 
involves some that were nearby and some that were helicoptered 
from Quantico, Virginia.
    So I just want to be--clarify that because I think some of 
these people don't understand the relevant roles and 
responsibilities while people are working very hard to assist 
one another.
    Mr. LaTurner. Mr. Rosen, I think they understand more than 
you think. It just doesn't fit in neatly with the partisan 
narrative that is being pushed.
    Madam Chairman, I yield back the balance of my time.
    Chairwoman Maloney. The gentleman yields back, and the 
gentlelady from Illinois, Ms. Kelly, is recognized for five 
minutes. Ms. Kelly?
    Ms. Kelly. Thank you, Madam Chair.
    On January 6, as we have been talking about, the world 
watched as the Capitol building became a danger zone filled 
with chaos. Members and staff shocked and in fear as the United 
States Capitol Police, the D.C. Metro Police Department worked 
to ensure the safety of everyone.
    I was one of those people stuck in the gallery with 20, 25 
of my other colleagues, wondering if we would get out safe and 
sound and wondering why I was even in this position. And some 
of my colleagues are still suffering from that day.
    Mr. Miller, in your written testimony, you stated that for 
the Department of Defense to ``properly provide military 
support to law enforcement agencies within D.C.,'' it is 
``necessary to confer, coordinate, synchronize with at least 10 
different entities.'' That includes Metro Police Department, 
the Metro Transit Police, the Capitol Police, the U.S. 
Department of Homeland Security, U.S. Department of Justice, 
including the FBI, U.S. Department of the Interior, U.S. 
Marshals, Federal Protective Service, the U.S. Secret Service, 
and the U.S. Park Police.
    In your written testimony, you stated that in the days 
prior to January 6, the Department of Defense became concerned 
with ``the apparent lack of coordination, synchronization, and 
information exchange with and between the numerous domestic law 
enforcement organizations charged with protecting D.C. and the 
Capitol.''
    Mr. Miller, who is at fault for the lack of coordination 
and communication in the days leading up to the insurrection?
    Mr. Miller. Thank you for the question, and thank you for 
highlighting--highlighting the human cost. And huge empathy, 
and I know the fear and the terror that goes on when you're 
being attacked, and I don't want to--I just wanted to highlight 
that, ma'am, for all of you because this partisan rancor, you 
guys were there. So God bless you.
    I don't know. I don't know. I'm going to answer your 
question succinctly. I just don't know, but it's got to be 
somebody, and it has to be determined and----
    Ms. Kelly. Well, which Federal agency or department needed 
to do more coordination and synchronization? Who should have 
been the lead for the Federal Government?
    Mr. Miller. I felt that we were very good getting the 
Federal Government piece together, and we also had good 
coordination with many of the local law enforcement. But there 
was not one person or one entity in charge, writ large.
    Department of Justice, to be clear, was the lead agency and 
did a fine job. So I want to be clear about that. But in terms 
of writ large, it's the thing that needs to be decided, yes, 
ma'am.
    Ms. Kelly. That is what we need to do much better going 
forward?
    Mr. Miller. I believe so, yes.
    Ms. Kelly. You also testified that you felt it was your 
responsibility to initiate discussions to coordinate Federal 
planning efforts prior to January 5. Why do you feel it was 
your personal responsibility, and who specifically did you feel 
was not taking this responsibility or that should have?
    Mr. Miller. I don't think it was anyone's--it wasn't 
malicious or anything. And thank you for the question, and 
thank you for allowing me to answer with a little more 
thoughtfulness.
    I had an obligation to the mothers, fathers, spouses of the 
people that are going out there. So I took that extremely 
seriously, and that's why I felt it was incumbent upon me to 
make sure that I was the convening authority, at least 
initially, to bring everyone together and get the system going, 
which occurred.
    Ms. Kelly. Thank you. Since you took on convening these 
meetings prior to January 6, do you take personal 
responsibility for any gaps in communication or intelligence 
sharing that occurred prior to or on January 6?
    Mr. Miller. I wish things would have gone a lot better, 
obviously, because of the storming of the Capitol. I just 
wanted to reiterate and highlight, and this is not some trying 
to cover my you know what. The Department of Defense, it's not 
good for the Republic, it's not good for our American citizens 
to have the Department of Defense be involved in civilian law 
enforcement matters except as the last resort and when all 
civilian law enforcement has been expended.
    So I know that sounds mundane, but it's really, really 
important for our people and for this body to understand my 
thought processes that day.
    Ms. Kelly. Thank you. Chief Contee, I am grateful to the 
members of the U.S. Capitol Police, Metro Police, D.C. National 
Guard, and Federal law enforcement who responded to the day's 
attack. It is clear that the communication and coordination 
between these departments was lacking and potentially delayed 
the ability to stop the insurrection.
    Chief Contee, during the January 6 attack, how would you 
describe the communication between MPD and the U.S. Capitol 
Police?
    Chief Contee. We had good communication on that day. They 
were present here. They had a representative here. We had 
representatives there. So----
    Ms. Kelly. How about your communication between your 
department and the Department of Defense and the D.C. National 
Guard?
    Chief Contee. I had conversations with Secretary McCarthy 
leading up to January 6, and there were several coordination 
calls that the Department of Defense was not necessarily part 
of, but between local law enforcement and members of the 
Federal law enforcement entities--Capitol Police, Secret 
Service, Park Police, FBI, United States attorney's office. 
There were several calls, coordination calls that led to the 
date of January 6.
    Ms. Kelly. And I am going to go forward because other 
people did. Since that time, what has been done to improve 
communication and coordination, if anything has been done? And 
then I will yield back.
    Chief Contee. Yes, ma'am. The thing that's different now 
is, I mean, obviously, if there's an urgent matter or something 
that needs to be talked about amongst the principals, those are 
phone calls that take place. Those are conversations that take 
place.
    I think one of the things that was highlighted during this 
was that there were these intelligence things that were 
circulating, and some things were emailed to different 
agencies, and I don't think you can necessarily qualify that or 
check the box as a notification. If it's a matter of 
importance, then those are things the principals should be 
talking directly about. So certainly there has been more of 
that since January 6.
    Ms. Kelly. Thank you. I yield back.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman from Texas, Mr. Fallon, is now recognized. Mr. 
Fallon?
    Mr. Fallon. Madam Chair, thank you.
    ``Violence as a way of achieving racial justice is both 
impractical and immoral. It is impractical because it is a 
descending spiral ending in destruction for all. It is immoral 
because it seeks to humiliate the opponent rather than win his 
understanding and seeks to annihilate rather than to convert. 
Violence is immoral because it thrives on hatred rather than 
love.''
    One of the greatest Americans to ever live uttered those 
words over a half century ago, Reverend Martin Luther King. 
What happened on January 6 I think every member of this 
committee in our chamber would agree was horrific, criminal, 
and completely inconsistent with the values of a vibrant and 
healthy republic and should receive just condemnation from all 
quarters.
    What we should be doing today and, for that matter, what 
leadership of this chamber should have been doing for the past 
four months is trying to find out what happened on January 6 
and why. What accounted for the massive security failure, and 
who was truly at fault for that failure? How can an unorganized 
mob of strangers, most unarmed completely, while others with 
flag poles and pepper spray, have breached the United States 
Capitol?
    The best and most effective way to answer these questions 
is to take the obvious political theater out of the equation 
altogether. If the events of January 6 received bipartisan 
condemnation, which they did, then the best way to discover the 
causes for the riot, the riot itself and for the security 
failures that allowed the breach, should be through a 
bipartisan commission.
    And for the record, just such a proposal was presented by 
Republicans on January 12, and Speaker Pelosi has since dragged 
her feet, which begs the question, ``Why?'' This delay and lack 
of leadership is inexcusable.
    I was one of the last to leave the chamber on that fateful 
day, and I will tell you straight up with full candor, I didn't 
know what was on the other side of that door. I heard Capitol 
Police shout, ``Shots fired. Shots fired.'' It was harrowing. 
And hell yes, I was scared.
    I will also be forever proud of those brave Members in the 
chamber who stood their ground to the right and left of me with 
the Capitol Police. Congressman Markwayne Mullin, Troy Nehls, 
Ronny Jackson, Tony Gonzalez--they augmented Capitol Police, 
and through their actions, we will also be able to forever tell 
the world that the House chamber, unlike the Senate, was never 
breached.
    Our Democratic colleagues and their friends in the 
mainstream media are quite fond of labeling January 6 as an 
insurrection or even a rebellion, but are those descriptions 
accurate, or are they hyperbolic? To be sure, January 6, an 
unruly and dangerous mob of about 400 broke the law, criminally 
trespassed, committed various other crimes, and endangered the 
health, safety, well-being, and lives of many innocent people. 
As mobs so often do, they resorted to the lowest common 
denominator and devolved from peaceful protesting to violent 
actions.
    Mobs are not only unruly, they are stupid as well. They are 
mindless, and they are irrational. That is precisely why they 
are so dangerous.
    So was it a rebellion? Was it sedition? Was the mob intent 
on killing and overthrowing the Government? Let us not allow 
speculation and conjecture and partisan opinion to rule the 
day. Let us look at what the individuals in the mob that 
breached the Capitol were actually charged with. Were there any 
charges filed for murder, attempted murder, treason, 
insurrection? Well, not that we could find.
    So was January 6 an insurrection, or could it be more 
accurately described as a mob of misfits committing disorderly 
conduct, violent entry, civil disorder, vandalism, unlawful 
entry, et cetera? You know, the crimes that these people were 
actually charged with.
    At the end of the day, Republicans have proven themselves 
the only ones who have been--maintained consistency. We have 
condemned violence, rioting, and mayhem at every turn. We did 
so in the summer of 2020 during the BLM and Antifa violent 
riots that swept the country in 140 cities, cost $2 billion in 
damages, and killed two dozen Americans. And we remembered the 
revered remarks of Dr. Martin Luther King and condemned that 
violence.
    No committee hearings to my knowledge have been held to 
examine the root causes of all that destruction and loss of 
life. Republicans have condemned that violence and mayhem on 
January 6 as well, and it was abhorrent, disgusting, beneath 
the dignity of respectful citizens. The best way to ensure the 
Capitol is never again breached is to appoint a bipartisan 
commission forthwith to examine the events of January 6 and to 
do so without the looming and tempting fog of political gain 
hovering over the process.
    Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back, and I now 
recognize the gentlelady from Missouri. Ms. Bush is now 
recognized for five minutes.
    Ms. Bush. St. Louis, and I thank you, Madam Chair, for 
convening this necessary hearing.
    At Trump's January 6 rally, he told the crowd, ``If you 
don't fight like hell, you are not going to have a country 
anymore.'' And so that is what they did. On January 6, a 
violent mob of insurrectionists--let us call them who they 
are--attacked the Capitol in an attempt to overturn the U.S. 
Presidential election.
    I want to raise a pressing question today. Would this 
attack have happened, would it have been allowed to happen if 
those who stormed the Capitol were there to stand up, stand up 
for black lives rather than fight for white supremacy? Mr. 
Rosen, what would the DOJ's response have been that day if the 
majority of the people who participated in the attack looked 
like me?
    Mr. Rosen. Congresswoman, I appreciate that question. The 
first thing I want to say is I deplore hatred, bigotry, 
discrimination of any kind. And when I was at the Department of 
Justice, we prosecuted a number of significant hate crime cases 
and some cases involving racially and ethnically motivated 
violence. So from my vantage point, there is no tolerance for 
that at all.
    To answer your question, I believe that the responses the 
Department of Justice took when I was there were the 
appropriate ones and that the relief that we provided of over 
500 people urgently going to the Capitol that occurred. I think 
our responses--our preparation and our responses would have 
been the same.
    Ms. Bush. OK, thank you. I am going to have to disagree 
with you. I appreciate the first part of your comment, but I am 
going to have to disagree.
    I don't have to guess--we witnessed the differences in 
response with the January 6 attack and the protests affirming 
the value of black lives last summer. The treatment of 
protesters defending black lives last summer by law 
enforcement--the DOJ, the National Guard, and others--was 
incomparably--it was egregious. We were teargassed, and I can 
say ``we'' because I am not talking about what I think. I am 
talking about what I know because I was there.
    We were teargassed marching for justice in our own 
communities. The white supremacist mob, the white supremacist 
mob was able to break in with weapons and with zip ties and put 
their feet up on the desk in the Speaker's office after 
violently storming the Capitol grounds. The contrast is stark.
    As my colleagues have rightly pointed out, Donald Trump was 
impeached for inciting the January 6 attack. But make no 
mistake, he is not the only one responsible. Some of my 
colleagues continue to question the results of the last 
election, even when it means questioning the legitimacy of 
American voters. This contradicts the facts which have stood up 
through audits, stood up through court cases.
    President Joe Biden was duly elected in a free and fair 
election, defeating Donald Trump. But baseless conspiracy 
theories and those who encourage them are harmful, in and of 
themselves. But the disinformation surrounding them incited the 
insurrection and continues to harm our democracy. Public 
officials and other leaders have encouraged insurrectionists 
and with raised fists implored conspiracy theorists to hold the 
line or supported them in other ways by implying that Donald 
Trump is really the President.
    Mr. Rosen, you led the agency coordinating Federal security 
preparations for January 6. Were you aware that public 
officials were inciting and supporting the insurrection? Mr. 
Rosen?
    Mr. Rosen. Congresswoman, I think the best thing I can do 
on this is refer you to the public statements that I made at 
the time, both on January 6, on January 7, and the days that 
followed. And I don't think I could have been any more vocal in 
expressing my disapproval, how we watched in disbelief as a mob 
breached the Capitol building and required help to restore 
order.
    Ms. Bush. Specifically the public officials, specifically 
the public officials?
    Mr. Rosen. I'm sorry. I apologize, but I'm not sure that I 
followed the question.
    Ms. Bush. This is about public officials and--OK. This is 
about public officials. Were you aware that they were inciting 
or supporting the insurrection?
    Mr. Rosen. I'm not sure. I'd have to think, but I don't 
know that I understand the question. I mean, the----
    Ms. Bush. OK.
    Mr. Rosen [continuing]. There was awareness of the 
newspapers----
    Ms. Bush. OK, reclaiming my time. Reclaiming my time.
    Mr. Rosen. OK.
    Ms. Bush. Yes. So the truth is clear. The violence that day 
was built on a theory of lies and on months of disgraceful 
attempts to further suppress the votes, suppress the votes of 
black and brown communities, undermine our election and 
overturn the results. When asked if Trump should concede once 
electors vote on December 14, one senior member of this 
committee said, ``No. No way. No way. No way.''
    We should still try to figure out exactly what took place 
here. Mr. Miller, yes or no, would you agree that the 
unconstitutional attempts to overturn the election and 
dangerous rhetoric that I just cited played a role in inciting 
violence on January 6? Yes or no?
    Mr. Miller. I just think that the Department of Defense, we 
just did our job, taking into consideration all the factors and 
the political factors that you brought up.
    Ms. Bush. So yes or no?
    Mr. Miller. The question is kind of--I hate to be--seem 
deceptive, but the question is one more time?
    Ms. Bush. The question is, would you agree that the 
unconstitutional attempts to overturn the election and that 
dangerous rhetoric played a role in inciting the violence on 
January 6?
    Mr. Miller. I think the entire entertainment, media, 
political complex is culpable in creating this environment that 
is just intolerable and needs to change.
    Ms. Bush. OK, thank you. I believe we should investigate 
all who had a role----
    Mr. Comer. Madam Chair, she is long over time.
    Chairwoman Maloney. The gentlelady from New Mexico, Ms. 
Herrell, is recognized for five minutes.
    Ms. Herrell. Thank you, Madam Chair. And thank you, 
witnesses, for being here today.
    And this is a great segue into the questions that I have. 
Because of all of the media, the social media posts--Twitter, 
Facebook, et cetera--Mr. Rosen, do you think that the social 
media, all the posts, social media, everybody was watching to 
see what was happening. Do you think these impacted the ability 
to do a fair investigation after the riot on January 6?
    Mr. Rosen. I think that the investigators primarily at the 
FBI are extremely professional and know how to do that properly 
and correctly, and I look to them to do their jobs, and I'm 
confident that they try to do them extremely well.
    Ms. Herrell. OK. Mr. Miller, I would ask you the same 
question. How much--do you feel like the well has been poisoned 
here? I mean, we have had so much fake news, cynical 
politicians, disinformation, far, far from the truth. I mean, 
we heard that Officer Sicknick was killed by a fire 
extinguisher in the riot, but indeed, he died by natural 
causes, a stroke. In fact, that was put out by the D.C. medical 
examiner.
    How much of an impact do you think social media and other 
outlets had on an investigation?
    Mr. Miller. Congresswoman, I have no idea, but I think you 
highlight a very, very important fact. And that's what I was 
trying to highlight that the gentleman from California tagged 
before. Some people are doing it against us very effectively, 
and we need to figure out how to manage this and how to bring 
about some needed changes.
    Ms. Herrell. Yes, I think they call that fake news.
    Mr. Contee, just a question. Capitol Police, are they in 
charge solely of securing the Capitol and protecting it?
    Chief Contee. Yes, they are.
    Ms. Herrell. Thank you. Mr. Miller, then who has authority 
to authorize deployment of National Guard troops to the 
Capitol?
    Mr. Miller. Based on a request from a lawfully sanctioned 
entity, ultimately I had responsibility and the authority to do 
that.
    Ms. Herrell. OK. And just really quick because I know we 
are short on time, Mr. Rosen, do you classify the events of 
January 6 as a riot or an insurrection, one or the other?
    Mr. Rosen. I say whatever you call it, it was an outrage. 
It was unconscionable. It was intolerable. I've heard it called 
both of those things. I just think we all have to agree that 
this is something we can never allow to happen again.
    All of those phrases are fine, but what really counts is 
the conduct is something we cannot tolerate to ever occur 
again. And I just hope that one of the things that people take 
away----
    Ms. Herrell. Thank you.
    Mr. Rosen [continuing]. Is greater respect for the 
Constitution and the rule of law.
    Ms. Herrell. Thank you. Mr. Miller, the events of January 
6, do you classify them as a riot or an insurrection?
    Mr. Miller. I'm not a lawyer. It was bad, regardless. I saw 
it as an assault on the Capitol, an assault on our 
Constitution.
    Ms. Herrell. All right. Mr. Contee, I will ask you the same 
thing, a riot or an insurrection?
    Chief Contee. I think that there was--there was a riot, but 
there was also an insurrection that took place, in my view.
    Ms. Herrell. I understand. And then just this was touched 
on just a little bit earlier. But after the incident, did the 
teams, you or your team engage with any other--any other 
agencies? Was there interagency engagement after? And I think 
you all touched on this just a little bit.
    Mr. Rosen, and you may or may not have been there after the 
20th, but to your knowledge, did your team or your Department 
engage after the riot with other agencies?
    Mr. Rosen. I'm confident the answer to that is yes. I'd 
refer you to the Department of Justice and the FBI for 
specifics.
    Ms. Herrell. Right. Mr. Miller, same question. Because I 
think what we want to ensure is that this is a fair and 
balanced investigation and that there aren't silos of 
individual information being withheld from other agencies. I 
think the public, Congress, others are due truth in this, and I 
think having these conversations and sharing that information 
is just paramount. So I am asking you the same question. Were 
you or your Department heads or your Department engaged with 
interagency engagement after the riot?
    Mr. Miller. We were before and even more aggressively 
after. For the final 14 days, as you can assume, rightfully so, 
the focus of the Department at that point was to provide 
necessary security for the inauguration.
    Ms. Herrell. And Mr. Contee, same question to you.
    Chief Contee. Could you repeat the question, ma'am, please?
    Ms. Herrell. Yes, sir, very quickly. Did you or your 
department have interagency engagement after the riots on the 
6th to share information and----
    Chief Contee. Yes. Yes. I just wanted to make sure I 
understood the question. Yes, we did.
    Ms. Herrell. Ms. Chair, I am out of time, and I yield back.
    Chairwoman Maloney. Thank you. The gentlelady yields back, 
and the gentlelady from Michigan, Mrs. Lawrence, is now 
recognized for five minutes.
    Mrs. Lawrence. Thank you, Madam Chair.
    One thing I do want to say is that I, too, was one of the 
Members who were on the floor when the mob was banging on the 
door. And we keep talking about being partisan today. I will 
tell you, it was bipartisan. Every Member on that floor was 
running for their life. Every Member on that floor, whether you 
were a Democrat or Republican, pro Trump or not, you were 
running for your life. It was absolutely unacceptable.
    And trying to rationalize it today does not give me any 
sense of comfort that we are doing our jobs as Members of 
Congress. So you can call it a riot or insurrection, this man 
died while he was in the middle of this attack on our Capitol, 
a police officer died, and many more were injured. I am pro 
police, but I am pro the professional respect of the shield to 
serve and protect and not to attack and kill.
    But I have a question for you, Mr. Rosen. In your written 
statement, you stated that you observed on TV the mob from the 
pro Trump rally was moving to the Capitol. Can you tell me what 
time that was that you observed on TV that this was happening?
    Mr. Rosen. Unfortunately, not with specificity. You know, 
as I said, some of these things blur together. So I remember 
people coming into my office. I remember the television was 
on----
    Mrs. Lawrence. I am going to ask you the next question. I 
am going to ask you--at that point, when you observed on TV, 
were there any DOJ law enforcement personnel already at the 
Capitol?
    Mr. Rosen. I think there were some ATF agents nearby 
because of the explosive devices, the bomb threats near the----
    Mrs. Lawrence. Did you----
    Mr. Rosen [continuing]. Republican and Democrat 
headquarters, and that was part of why we could get some people 
to the Capitol so quickly.
    Mrs. Lawrence. Did you order any----
    Mr. Rosen. But we got a lot more after that, you know, with 
great urgency. I think--I mean, I think I said in the written 
statement, it was around 2 p.m. that I saw the things on TV, 
but I can't pinpoint the time.
    Mrs. Lawrence. You said later. You said later, and I quote, 
``I am horrified and dismayed,'' as you watched on television 
as the rioters breached the Capitol, and that was around 2 p.m. 
And you stated you soon learned that ATF and FBI, among others, 
had received requests from the Capitol Police and were 
beginning to respond.
    How many ATF and FBI officers were deployed to the Capitol, 
and what time--so you didn't call for them. You learned by 
watching on--you later learned that they were deployed. You did 
not call for them?
    Mr. Rosen. So, Congresswoman, the way this works is the 
Capitol Police establish what they need in advance, and then if 
they need additional help, they coordinate it ahead of time 
with the MPD, the Park Police, the Justice Department, DHS, 
National Guard. And when the violence occurred, they requested 
help from ATF and FBI, and we responded with great urgency. As 
I said, we had pre-positioned some resources. I had hoped that 
was cautionary, but we also called them in as quick as 
possible.
    Mrs. Lawrence. So you said in your statement----
    Mr. Rosen. So we sent over 500 Federal agents from the 
Justice Department.
    Mrs. Lawrence. Exactly. So the 500 agents have been 
deployed to the Capitol more than four months after the January 
6. This is new evidence----
    Mr. Rosen. No, no, no. The same day, January 6.
    Mrs. Lawrence. Right. But this was new information to us. 
As you know, the committee, along with six others, sent a 
request for documents and information onto the DOJ on March 25 
concerning the events of January 6. We need the Department to 
provide us with the information and documents that we asked for 
so Congress can get to the bottom of this.
    The DOJ needs to start producing information, and we also 
need an independent--I agree with my Republican colleague who 
said we need an independent commission to study, to understand 
what went wrong. Because I will tell you, as we sit here 
today--and some of you have responded in a way that seems 
almost dismissive and arrogant--sitting on that floor and being 
in almost a combat zone, fearing for your life, not knowing 
what is going to happen, hearing shots fired, hearing banging 
on the door, this is not something that should be repeated.
    And I want to say to every one of my colleagues on the 
other side of the aisle, I don't give a darn who the President 
was. This can never happen again, and I will commit myself to 
ensuring that this ``I don't remember'' and ``That is a 
partisan answer'' and ``You are ridiculous'' crap stops so we 
can get to the bottom of this.
    I yield back. I thank you.
    Chairwoman Maloney. The gentlelady yields back. Thank you 
for your strong statement.
    The gentleman from Florida, Mr. Donalds, is recognized for 
five minutes, and I thank him for his attendance here today and 
thoughtful participation. Thank you.
    Mr. Donalds. Thank you, Madam Chair.
    This is--I wanted to be here for a while and actually 
listen to the testimony in this hearing because it is actually 
quite abhorrent. I actually agree with part of the testimony 
from our previous colleague because I was on the floor, too. I 
was on the floor for actually quite some time. So I remember 
the banging at the door. I remember being evacuated with other 
Members of Congress, and at that point, we stopped being 
Republicans and Democrats. We were just Members trying to make 
sure that each other were getting to safety.
    So I remember it very clearly. I will never forget it a day 
of my life. I remember not just myself, but many colleagues on 
the Republican side of the aisle condemning the attack on the 
Capitol, flat out condemning it as being unacceptable. And it 
is not acceptable.
    I am glad that this hearing is happening because what we 
have to be able to get to is the actual facts, the actual 
responses, what actually occurred, and not politics, not 
supposition, not innuendo, not tweets, not cute hashtags on 
social media. We ought to get to the actual facts.
    I would say that one of the agencies or, frankly, the 
agency, it has been said multiple times in this hearing, 
responsible for the security of this very facility is not here. 
And so I do want to ask our witnesses, Mr. Rosen, have you been 
in contact--when you were Acting Attorney General, were you in 
contact with Capitol Police before, during, and after the 
events on January 6?
    Mr. Rosen. The Department of Justice, the FBI, and the U.S. 
attorney were, yes.
    Mr. Donalds. Mr. Miller, in your capacity as Acting 
Secretary of State, were you in touch with Capitol Police 
before, during, and after the events on January 6?
    Mr. Miller. I was not personally, but the Department of 
Defense was in close contact.
    Mr. Donalds. OK. Chief Contee, the same question to you. 
Were you in touch with Capitol Police before, during, and after 
the events on January 6?
    Chief Contee. Yes.
    Mr. Donalds. Well, I mean, I find it pretty interesting 
that the three witnesses here today have all been in touch with 
Capitol Police before, during, and after. Yet Capitol Police is 
not here to talk about what they were doing on January 6.
    This is not meant to demean Capitol Police. They were 
standing there, frankly, in front of Members of Congress, 
getting us out of harm's way. But it is important if we are 
going to have a hearing that unveils all of the issues that 
occurred and the ways that this could never happen again, they 
need to come before this committee as well.
    A couple of questions. Mr. Miller, I know that you said 
earlier that you were in contact with--or you received a 
request from Mayor Bowser with respect to National Guard 
troops. When did you receive that request from Mayor Bowser?
    Mr. Miller. December 31, 2020. I spent the weekend going 
over it to finalize the plan with the D.C. National Guard and 
the Department of the Army and Army staff.
    Mr. Donalds. At what point did you and President Trump 
actually have a discussion on this request from Mayor Bowser?
    Mr. Miller. I had a meeting with President Trump on the 3d 
of January concerning some international threats, and at the 
very end, he asked if there were any requests for National 
Guard support, and I informed him of Mayor Bowser's request.
    Mr. Donalds. Mr. Miller, to clarify that point, did you 
tell the President about the Mayor's request, or did President 
Trump ask if there were requests?
    Mr. Miller. He asked if there were requests.
    Mr. Donalds. What was the President's response to you with 
regard to the request made by Mayor Bowser?
    Mr. Miller. Fill it and do whatever was necessary to 
protect the demonstrators and that were executing their 
constitutionally protected rights.
    Mr. Donalds. OK. And what happened in response to--with 
Mayor Bowser. What happened when you notified her that her 
request had been fulfilled? What did she do with that 
information?
    Mr. Miller. I don't know.
    Mr. Donalds. Did Mayor Bowser ever followup after the 
agreement from the President to provide support, actually 
asking for that support to be deployed?
    Mr. Miller. I know there was that January 5th letter that 
was referred to earlier that Acting AG Rosen referred to.
    Mr. Donalds. Oh, this is the letter--Acting AG Rosen, this 
is the letter in which Mayor Bowser basically declined support. 
Is that correct?
    Mr. Rosen. Well, it indicated that she thought that the 
police had things in hand and did not need additional support 
at that time.
    Mr. Donalds. My last question is this. Mr. Miller, in your 
estimation, how long does it actually take, logistically 
speaking, how long in terms of minutes, hours, does it take to 
deploy National Guard anywhere, for that matter?
    Mr. Miller. It was--I think it will go down in history as 
one of the most expedient deployments in National Guard 
history. I would just like to highlight that our premier active 
duty force that's on strip alert has a three-hour window to 
deploy, and they deployed, based on my calculations, much 
quicker. The National Guard deployed much quicker than our 
active duty forces are expected to.
    Mr. Donalds. Madam Chair, I know I am over my time, but may 
I ask one brief question?
    Chairwoman Maloney. So granted.
    Mr. Donalds. Thank you, Madam Chair.
    Mr. Miller, in your estimation, on average, how long does 
it take to deploy the National Guard when requested? On 
average.
    Mr. Miller. I'm not being deceitful. It's just it 
absolutely depends what the mission is, where they're trying to 
go to, and all of these other factors.
    Mr. Donalds. But this was the most expedient?
    Mr. Miller. I think if we looked at it definitively, if we 
had historians or analysts look at it, I think you will find 
and it will be clarified as one of the most expedient 
deployments in National Guard modern history.
    Mr. Donalds. All right. Thank you so much.
    I yield back. Thank you, Madam Chair, for the ability.
    Chairwoman Maloney. Thank you. Thank you. The gentleman 
from California, Mr. DeSaulnier, is recognized for five 
minutes. The gentleman from California?
    Mr. DeSaulnier. Thank you, Madam Chair. Thank you for this 
hearing. I think all of us will agree that it is painful 
revisiting this, but it is important.
    I had a perspective on January 6. I got to the Capitol 
early because I think we all would agree we knew that there was 
a potential for trouble. And I was told to get there early 
because I had to be removed. I wasn't on the floor because of 
health conditions. I was across the hall in an office that 
afforded me a view of the Mall and also allowed me to watch 
television, both we were monitoring the floor, but I was able 
to listen to news reports about what was happening on the 
Ellipse.
    So, and then later, I was able to quite visually see the 
attack on the Western front where it is still disturbing to me, 
watching what happened at that doorway and watching Capitol 
Police officers try to defend on the other side of where the 
temporary bleachers had already been put up for the 
inauguration.
    So, Mr. Rosen, one of the times that I look back and I 
started to accelerate my concern, and this is my perspective 
listening to the then-President. I always thought, well, it is 
that person, and he has a different way of communicating. But 
we now know that the people who broke the law and entered the 
Capitol thought that he was telling them to do what they did, 
and that will come forward more and more as these cases 
proceed.
    So, for you, my moment of heightened concern was when I 
became aware, as I saw them coming up the Mall--I couldn't see 
Pennsylvania Avenue from where I was--was when I found out what 
was going on at the Ellipse and the content of what the 
President was telling them.
    So when did you become aware of that, and how did you 
respond? And particularly the spirit and specifically saying 
``you have got to go up there and fight like hell'' and that 
``I will be with you.'' Do you remember when you became aware 
of that? Mr. Rosen?
    Mr. Rosen. Not of that phrase or that language. I remember 
that I was at my office and I was interested in how large was 
the crowd at the Ellipse. And I contacted the U.S. attorney who 
had provided some reconnaissance on that. I recount some of 
this in the written testimony, so I'll give you the short 
version because I know time is limited.
    But I was told that the crowd was actually at the low end 
of the estimates that we had all received, might even be below 
it, and that at that point they were not unruly or violent. And 
I asked for continued updates, which I continued to receive. 
Obviously, when I was receiving them, as I have alluded to 
earlier, sometime around 2 p.m., give or take--I don't remember 
the exact time----
    Mr. DeSaulnier. Appreciate that.
    Mr. Rosen. I learned that----
    Mr. DeSaulnier. I'm sorry.
    Mr. Rosen [continuing]. That the perimeter was breached.
    Mr. DeSaulnier. Mr. Rosen, just did you--well, let's go to 
Mr. Miller. When did you find out about what happened at the 
Ellipse and what the President had instructed the mob to do?
    Mr. Miller. I don't recall when I was told. I just--when 
the movement started to the Capitol, whatever time that was--
and I still can't--we still can't figure that out. It was 
somewhere I call based on my notes between 1 p.m. and 1:30 p.m.
    Mr. DeSaulnier. Chief Contee, when did you become aware of 
what the President was instructing the mob to do?
    Chief Contee. Probably days later. I was in the midst of 
all the stuff that was going on. I was at the West Front of the 
Capitol at one point. So unable to watch television and to hear 
what he was saying, but more importantly, just there as the 
situation unfolded.
    Mr. DeSaulnier. Well, in hindsight--I know hindsight is 20/
20. But it certainly seems that it was clear that he was 
communicating accurately to that group of people. Because they 
have said that they were following out instructions by the 
President of the United States. Do you have the same 
perception?
    Chief Contee. This group of 300 or so that was--that kind 
of led the charge, if you will, I know that they were on the 
move toward the Capitol prior to the President making his 
remarks. It would be unfair for me to say that they were 
listening to him.
    I just don't know. I think some of that is coming out as 
the FBI makes its cases, that individuals are saying that they 
were following those. But I don't know that personally, sir.
    Mr. DeSaulnier. Thank you, Chief.
    Mr. Miller, you said that you feel strongly--is what I 
took--strongly about an independent bipartisan commission. Is 
there anything specifically that you would hope to tell them 
that we should do to avoid this from happening again?
    Mr. Miller. Thanks for the question, sir.
    I think everybody has pretty much hit that is just let's 
get some lessons learned, and let's not let this happen again. 
And let's figure out how to rebuild our bonds of connection and 
affinity for each other.
    Mr. DeSaulnier. Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Kentucky, Mr. Comer, is now recognized for five 
minutes.
    Mr. Comer. Thank you, Madam Chair.
    Mr. Rosen, you were the Acting Attorney General during the 
events of January 6 through January 20. Correct?
    Mr. Rosen. Yes, sir.
    Mr. Comer. And in that capacity, did you oversee the 
efforts to investigate, arrest, and prosecute those 
responsible?
    Mr. Rosen. During that time, yes.
    Mr. Comer. Were those investigations a priority for the 
Department of Justice under your leadership?
    Mr. Rosen. Yes. It would be hard to have had a higher one. 
I think I pointed out in some of my public remarks at the time 
that that evening of January 6, we had prosecutors and 
investigators working through the night. I think we brought the 
first charges on the 7th and continued to work at breakneck 
speed, particularly the U.S. attorney's office and the FBI, 
because it was of such a priority.
    Mr. Comer. And your Department was also involved with 
quelling the unrest at the Capitol on January 6. Can you tell 
us how many Federal law enforcement officers within the 
Department of Justice responded on that day?
    Mr. Rosen. It was in excess of 500 agents and officers from 
the FBI, the ATF, U.S. Marshals Service. I don't have the exact 
count, but it's north of 500.
    Mr. Comer. Right. Mr. Miller, you were Acting Secretary of 
Defense during the events on January 6. Correct?
    Mr. Miller. Yes, sir.
    Mr. Comer. And in that capacity, you authorized a National 
Guard deployment as requested by the Mayor of D.C. prior to 
those events. Correct?
    Mr. Miller. Yes.
    Mr. Comer. Your testimony states that you discussed this 
with the President for less than a minute on January 3 and that 
the President said to give the Mayor the support she requested. 
Is that correct?
    Mr. Miller. Yes.
    Mr. Comer. And your testimony also states that President 
Trump had no role with respect to the Department of Defense's 
efforts on January 6 to respond to the Capitol. Is that 
correct?
    Mr. Miller. Yes, that's what I got paid to handle.
    Mr. Comer. Can you confirm that on January 6 the White 
House did not at any time order the National Guard to stand 
down or impede the deployment of the National Guard to the 
Capitol?
    Mr. Miller. Without equivocation or hesitation, that is 
correct. That did not happen.
    Mr. Comer. Well, that is the headline of this hearing, much 
to the disappointment of my colleagues on the left. You have 
confirmed that there was no White House interference, despite 
many of the stories in the media counter to what you have just 
testified. The Capitol Police Board specifically denied a 
request from then-Chief Sund on January 4 to declare an 
emergency and authorize the National Guard. Do you have any 
insight into why the Capitol Police Board denied this request?
    Mr. Miller. I do not.
    Mr. Comer. Could you please explain why the military should 
ordinarily be hesitant to get itself involved in domestic law 
enforcement matters?
    Mr. Miller. When we've done it in the past, it's been a 
complete nightmare for the United States and for our Armed 
Forces, and it's not something we should do lightly and without 
great forethought.
    Mr. Comer. That is right. A lot of Democrats on this 
committee have criticized you all in the Government for doing 
that in the past in some of the cities, if I remember 
correctly.
    Your testimony responds to criticism about the Department 
of Defense's response to the January 6 events at the Capitol. 
And you have stated that a deployment like this isn't like a 
video game where you can move forces within an urban 
environment with the flick of a thumb. Can you explain why you 
believe the criticism as to the timing of your response is 
unfounded?
    Mr. Miller. I believe it's a lack of familiarity with the 
nature of military operations or, as I said in my statement, a 
politicization of this issue. Probably a little bit of both, 
but I don't know exactly why there is such confusion.
    Mr. Comer. Do you--my last question, sir. Do you continue 
to stand by the command decisions you made on January 6, given 
the information you had at the time?
    Mr. Miller. Yes.
    Mr. Comer. Madam Chair, thank you, and I yield back.
    Chairwoman Maloney. Thank you. The gentleman's time has 
expired, and the gentleman from California, Vice Chair Gomez, 
is recognized for five minutes.
    Mr. Gomez. Thank you, Chairwoman Maloney.
    January 6 was a day that a lot of us are going to remember 
from--forever. I was in the gallery. I was one of about a dozen 
members who got trapped in the gallery trying to escape. As the 
door shut on us, we were all fearful of our lives. We had to 
duck and cover behind whatever we could find, flimsy chairs, a 
little wall, whatever we could find. And some Members couldn't 
hide at all.
    And I was sitting there, and I texted my wife that I was 
with--I was trying to get out, and I was with Capitol Police. 
But I didn't want to tell her, ``Oh, I love you.'' I didn't 
want to say any of those words because then it might create a 
lot of fear in her.
    But I knew that we were in a bad situation, and I knew that 
if the mob got in that bad things could happen. So I had my--I 
took off my jacket earlier, my lapel pin, my tie, because I 
didn't want to look like a Member of Congress.
    And it wasn't--I believe it wasn't enough to impeach 
President Trump for high crimes and misdemeanors by inciting 
violence against the U.S. Government because he wasn't alone. 
Some Members of this body have insisted and continue to insist 
that President Joe Biden was not duly elected.
    Audit after audit and court case after court case has 
affirmed the fact that Donald Trump was defeated fairly by 
President Joe Biden. And yet these conspiracy theories 
continue, and they proliferate online, are given oxygen within 
the Republican Party. Many of them have failed to condemn and 
today have expelled one of their own from their ``big tent of 
leadership'' for not subscribing to this lie.
    In the name of this debunked conspiracy theory, violence 
was committed here, and further violence has been promoted 
against other elected officials, including our colleagues.
    My colleague Marjorie Taylor Greene has gone on record 
saying, ``Speaker Pelosi is a traitor to our country and guilty 
of treason, and a crime punishable by death is what treason 
is.'' This, of course, is a baseless claim.
    This rhetoric remains a threat to our democracy and to all 
public servants charged with keeping our democracy running. As 
we investigate the failure of the Federal Government to respond 
to white supremacists, we have also an obligation to create an 
independent commission to support ongoing congressional 
oversight and examine root causes of this insurrection. This 
includes the investigation of any of its own members that might 
have instigated or incited the storming of the U.S. Capitol for 
their own political gain.
    Mr. Miller, in your testimony, you have stated an 
obligation to prevent a constitutional crisis. What concerns 
did you have regarding the possibility of a coup and whether 
the Armed Forces would be co-opted in an effort to overturn the 
results of the election?
    Mr. Miller. I had absolutely no concerns that the Armed 
Forces of the United States were going to violate their sacred 
oath to the Constitution. I was extremely concerned by the 
imprecise and inflammatory rhetoric that was out there that 
somehow the Armed Forces were at risk of that, and No. 2, if I 
would have put U.S. military forces on Capitol Hill before the 
events of January 6, I feel very confident that that would have 
created--reinforced the narrative by many that the Armed Forces 
were going to try to weigh in and overturn the election, and I 
wasn't going to have that happen.
    Mr. Gomez. Mr. Miller, so I didn't have any belief that 
they would turn either. I know a lot of my constituents did, 
but I didn't think that would happen, just because of the 
professionality of the women in uniform.
    Earlier, you walked back on Trump's responsibility in the 
January 6 insurrection by saying there was a difference between 
the march and the assault. Do you believe that Trump had no 
role in the assault?
    Mr. Miller. I have absolutely no idea. I can't imagine he 
did. But thank you for highlighting that. And again, the--your 
explanation of the fear that goes on with this, that the same 
sort of thing is happening to our soldiers as we're getting 
them ready to go. So that's another important factor that goes 
into how long it takes to plan and make sure that they're ready 
to go.
    So thank you for bringing that up and highlighting that 
again.
    Mr. Gomez. And, but do you also view, when somebody repeats 
that the only way that they can get their country back, that it 
was stolen from them, that those words coming from the 
commander-in-chief of the United States of America and of the 
Armed Forces could be enough to incite the incidents on January 
6?
    Mr. Miller. It absolutely could. It could be. I just--I 
note the clock just hit. You know, I have a family. I'm no 
longer under protection, and no matter what I say in this 
matter, half of the population--and there are some wingnuts on 
both sides that are going to now send me crazy letters and 
threaten my family. And that's why I'm being very delicate of 
how I respond to this.
    It's not because I don't have a view. It's because I'm out 
there alone and unafraid. I want to be clear with that. I can 
take care of myself. So I appreciate your consideration of 
those matters for those of us that are out of Government now.
    Mr. Gomez. And Mr. Miller, just that fear exists across the 
board on both sides that if--and I think that is what is 
causing some of the behavior is that a real fear that elected 
officials, their families would be targeted, and that is one of 
the things that we both agree on both sides of the aisle that 
we have to condemn that.
    With that, I yield back.
    Chairwoman Maloney. The gentleman yields back, and the 
gentlewoman from Massachusetts, Ms. Pressley, is recognized for 
five minutes. Ms. Pressley?
    Ms. Pressley. Thank you, Madam Chair.
    On December 19, 2020, Donald Trump tweeted, ``Big protest 
in D.C. on January 6. Be there. Will be wild.'' This was five 
days after the Electoral College certification, and indeed, it 
was very wild.
    There were people brandishing Trump flags, Confederate 
flags, wearing T-shirts that said ``Camp Auschwitz,'' referring 
to United States Capitol Police officers who are black 
Americans, hurling racial epithets at them, using the N-word, 
and a noose was erected on the West Lawn of the Capitol. This 
was a violent white supremacist mob who assaulted the Nation's 
Capitol. It was a deadly and dangerous insurrection that was 
incited by Donald Trump.
    And I want to just hold space for the congressional staff, 
the custodial workers, the food service workers, the Members 
and all who experienced trauma, those who endured injury, and 
hold space for those who lost their lives. And for those 
custodians, who demonstrated true patriotism, cleaning up a 
ransacked space after a violent white supremacist mob so that 
we could continue to honor our constitutional duties. And our 
clerks, who worked through the night as well.
    These events have taken undoubtedly a mental and physical 
toll, and we have to provide the Capitol Police and everyone 
who labors in Congress with the comprehensive mental health 
supports and resources that they deserve and desperately 
require. Furthermore, as Members of Congress, it is our duty to 
investigate and to rectify the circumstances that failed them 
in the first place.
    The response by the DOJ and the DOD on January 6 was 
delayed. It was disorganized. And compared to previous months, 
it was deficient. When community organizers and people of all 
ages took to the streets chanting ``black lives matter'' 
following the murder of George Floyd last May, the Trump 
administration used every tool at its disposal to try and stop 
them, including rubber bullets and chemical warfare.
    Former Secretary of Defense Mark Esper said, ``I think the 
sooner that you mass and dominate the battle space, the quicker 
this dissipates.''
    Here in D.C., to intimidate peaceful protesters calling for 
racial equity, the Department of Justice activated a plethora 
of Federal law enforcement agencies, including the U.S. Park 
Police, FBI, Bureau of Prisons, U.S. Marshals Service, ATF, 
CBP, and even the TSA. Armed Federal officials were wearing 
unmarked gear, and they dominated the streets.
    Mr. Rosen, you were Deputy Attorney General when the racial 
justice protests took place during the summer of 2020. Mr. 
Rosen, were you aware of DOJ's efforts to mobilize a Federal 
security response during the summer of 2020 in the streets of 
Washington, DC, yes or no?
    Mr. Rosen. Congresswoman, I'm going to say what I said 
before because I think it's important to start with the fact 
that the entire time I was at the Department of Justice, I 
deplored and had no patience for any forms of hatred, bigotry, 
discrimination, and that was never something we would tolerate. 
We prosecuted many instances of hate crimes and the racially 
and ethnically motivated violence.
    Ms. Pressley. Reclaiming my time. Reclaiming my time. Mr. 
Rosen, you were the head of the--you were the head of the lead 
Federal agency responsible for coordinating the preparations 
for January 6. For the record, how many personnel did you 
coordinate from the TSA for January 6?
    Mr. Rosen. I think you're under a mistaken impression. I 
didn't have any authority over personnel from TSA or other 
agencies.
    Ms. Pressley. OK, OK. Are you----
    Mr. Rosen. We engaged in information sharing.
    Ms. Pressley. Reclaiming my time. Can you for the record 
share with us what personnel from CBP, ICE, and TSA were 
engaged for the events of January 6? Can you provide that?
    Mr. Rosen. A little bit. I think you would need to talk to 
the Department of Homeland Security. But it was my 
understanding that there were Federal agents from DHS who went 
to the Capitol to assist with the restoration of order, along 
with the others from DOJ and the MPD and other police forces.
    Ms. Pressley. We will followup, but reclaiming my time for 
now. Mr. Rosen, do you agree, based on your observation and 
your expertise, that the DOJ acted differently in preparation 
for the January 6 attack than it did during the summer or 2020? 
Just a yes or no.
    Mr. Rosen. I think we're dealing with two very different 
situations, and in both, the responses were tailored to the 
situation at the time. I would say that on January 6 in 
particular, because that's what I'm here for today, I feel that 
while it was a horrendous day, and I appreciate the justified 
anger that you and others have expressed because I don't think 
anyone in Congress should ever have to deal with that again and 
shouldn't have had to that day----
    Ms. Pressley. Mr. Rosen, yes or no, was the preparation----
    Mr. Rosen [continuing]. But I do think that DOJ responded 
appropriately.
    Ms. Pressley [continuing]. Different, yes or no? Was it 
different for Black Lives Matter than it was on January 6?
    Mr. Rosen. I think we're talking about very different 
situations, and I can't----
    Ms. Pressley. OK, reclaiming my time. Reclaiming my time. 
Reclaiming my time.
    Mr. Comer. Madam Chair, her time has expired.
    Chairwoman Maloney. You may answer. OK, the last speaker we 
have now and the last questioner is the gentleman from 
Illinois, Mr. Quigley. You are now recognized for five minutes, 
Mr. Quigley.
    Mr. Quigley. Thank you, Madam Chairwoman.
    Mr. Miller, you had told the chairwoman earlier today that 
you didn't speak with former President Trump on January 6. 
However, a reporter quoted another senior Defense official who 
said they couldn't get through. They tried to call him.
    To your knowledge, did you or anybody you know try--in the 
office try to contact President Trump on January 6?
    Mr. Miller. I did not. And to the best of my knowledge, I'm 
not aware of anyone else that did from my office either.
    Mr. Quigley. Was there a discussion about whether or not 
the President should be reached about this?
    Mr. Miller. No, we were able----
    Mr. Quigley [continuing]. During all this discussion that 
were taking place, the decisions that had to be made?
    Mr. Miller. No, I had all the authority I needed to make 
the decisions.
    Mr. Quigley. Also, in the aftermath of January 6, to your 
knowledge did anyone at the White House or DOD attempt to limit 
the scope, the degree of which DOD or DOD personnel cooperated 
with any investigation, including congressional investigations 
into the January 6 attacks?
    Mr. Miller. No. There has been--there has been nothing like 
that that I'm aware of.
    Mr. Quigley. You know, I am the last questioner. I just am 
struck with what you said twice now. That you wouldn't change 
anything about the DOD's response on January 6, that you had no 
regrets. I mean, it is coming from the military. We lost that 
battle, right?
    I, too, was in the room where it happened, and it is almost 
like someone in the military saying, sure, we lost the battle, 
but we carried out our plan perfectly. I can't imagine you 
would look back at that and see the results of what took place 
and say somehow that that is a victory or that you succeeded 
somehow.
    Mr. Miller. There were 8,000 badged and credentialed police 
officers on duty that day. I don't know how many from the 
Capitol. I want to highlight Chief Contee, who did all hands on 
deck, which was very laudable and his force----
    Mr. Quigley. I am just talking about DOD. And again, how 
would you answer this? If this is a victory, if this is 
success, what do you--how would you have classified a failure?
    Mr. Miller. I want to highlight it's not the correct role 
for the Department of Defense and our Armed Forces to be 
involved in civilian law enforcement matters except as the 
absolutely last resort and when all civilian law enforcement 
has been expended. That did not occur until about 2:30 p.m., in 
my estimation.
    Mr. Quigley. The last resort, you came in after the fact--
--
    Mr. Miller [continuing]. Fail. I hear your----
    Mr. Quigley. I was in the room. I remember hearing 
colleagues saying when does the effing cavalry get here. If you 
are the effing cavalry, you never showed up. You never got 
there on time, and we were exposed because of this.
    Mr. Miller. And if you would----
    Mr. Quigley. Anyway, I just would respect you a lot more if 
you said, ``We could have done this and this better.'' And with 
that, OK, you are at least trying. OK? You don't win every 
battle. But to lose a battle and to say it was everybody else's 
fault.
    Mr. Miller. That's not what I said. That's not what I said.
    Mr. Quigley. It just does a disservice to the Department of 
Defense.
    Mr. Miller. That's not what I have said. If we had a valid 
request and a necessary request from your body, I guarantee you 
that the Department of Defense would have been there in 
strength as required.
    Mr. Quigley. All right. So you would acknowledge we lost 
the battle. We lost the----
    Mr. Miller. Oh, yes.
    Mr. Quigley [continuing]. Building for the first time since 
1814.
    Mr. Miller. Horrifying.
    Mr. Quigley. And it was everybody else's fault but DOD?
    Mr. Miller. I absolutely disagree with the statement that 
it was everybody else's fault----
    Mr. Quigley. I am paraphrasing you, the only way that it 
makes sense when you say you wouldn't do anything different. 
You wouldn't do anything differently. OK, that implies what I 
am saying that it was everybody else's fault in your mind. 
Because it was a catastrophic failure.
    Mr. Miller. And I just had an obligation to protect and 
defend the Constitution and guarantee that the Armed Forces 
were used appropriately and not in a manner that would be seen 
as extraconstitutional.
    Mr. Quigley. Look, the Constitution is not a treaty of 
surrender. It affords you the opportunity to do what is 
necessary to defend the people and the democracy of the United 
States. I mean, if looked upon, the destruction afterwards, 
looking back, you say, ``Well, at least I defended the 
Constitution'' is another perverse way of looking at this.
    And nothing was DOD's fault, and at least you did, in your 
own mind, defend what you thought was right for the 
Constitution. Never mind how many people got hurt and how much 
damage was done to our Government in the meantime.
    Mr. Miller. I will absolutely take that on and take that as 
a compliment because the Armed Forces of the United States was 
completely prepared and ready to respond to any valid request 
from any department or agency or local or Federal law 
enforcement office.
    Mr. Quigley. You lost, and you don't have the integrity 
and----
    Mr. Miller. No.
    Mr. Quigley [continuing]. Fortitude to own up to your part 
of the responsibility. And I get it. A lot of people screwed 
up. You're one of them.
    Mr. Miller. I respectfully disagree. We'll respectfully 
disagree. We'll respectfully disagree on that, and I thank you 
for your point.
    Mr. Quigley. I yield back, Madam Chairwoman. Yes, but I was 
in the room. You weren't.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman's time has expired. The gentleman yields back.
    Before we close, I want to offer the ranking member an 
opportunity to offer any closing remarks he may have. Ranking 
Member Comer, you are now recognized.
    Mr. Comer. Well, thank you, Madam Chair. And I have been 
sitting here, thinking throughout the five-hour hearing how I 
would close, and I think that CNN summed up the hearing pretty 
well. And I don't say that very often about CNN.
    But they said the hearing was unproductive, and I hope that 
people in America watched this hearing because you saw a sharp 
contrast between the behavior of the Republicans on the 
committee versus the Democrats on the committee. The 
Republicans on the committee, we asked questions to the 
witnesses, pertinent questions, and we allowed the witnesses to 
answer those questions.
    On the other hand, the Democrats yelled at the witnesses, 
most of them did, and cut them off and wouldn't allow them to 
answer the questions. Ironically, this is a Democrat-called 
hearing with the Democrat hand-chosen witnesses.
    So I feel like we have a lot of problems in America, and 
there is no shortage of issues that this great committee can 
investigate. Just as we sit here now, Israel is being attacked 
by Hamas. We have a crisis at the Southern border. The Biden-
Pelosi energy policy has kicked in, and we are facing gas 
shortages.
    The Biden-Pelosi enhanced welfare programs are working as 
we predicted, so well so that there are at least 7.5 million 
jobs available right now that employers are begging to try and 
pleading with Congress to do something to help them find 
workers. The Biden-Pelosi stimulus bill printed so much money 
here recently that is just now circulating through the economy 
that the consumers of America are faced with inflation for the 
first time since the Jimmy Carter years.
    And yes, we have witnessed an unacceptable uptick in mob 
violence. Not only on January 6, but also all across America 
last summer in the big cities. Yet here we are today focused 
solely on January 6.
    As I said in my opening statement, I called, along with 
Rodney Davis and John Katko, for a bipartisan commission 
immediately after January 6. But the truth of the matter is, 
despite some of the Democrats in the hearing saying they 
supported that, that Speaker Pelosi has drug her feet for over 
three months to try to politicize January 6 in every way, 
shape, or form possible to benefit her conference instead of 
trying to seek a bipartisan solution like the 9/11 Commission 
to figure out exactly what happened and find solutions to 
prevent the problem from happening in the future.
    But this hearing did confirm two things, two big things 
that I feel like are worth repeating. First of all, President 
Trump had no role with respect to Department of Defense efforts 
on January 6. And second, the White House did not order the 
National Guard to stand down.
    Now I mention those two things because that is contrary to 
what a lot of the liberal media has reported throughout this 
process. So from that angle, I am glad that we had the hearing. 
I am glad that that was proven today with the witnesses that 
the majority party chose to have here today, the witnesses who 
were the appropriate witnesses to have with respect to that 
particular subject.
    I wish the Capitol Police had been here because the Capitol 
Police, their main role is to protect the Capitol. And 
obviously, they had a role in this, and if we are sincere about 
trying to solve the problem and prevent this from happening in 
the future, we should have heard from the Capitol Police.
    But saying that, I conclude by again, Madam Chair, thank 
you for having the hearing. I hope that we can have hearings on 
other issues of the utmost importance to the American people, 
and I hope that we can do it in a manner that allows the 
witnesses to actually answer credible questions from members on 
both sides of the aisle.
    With that, I yield back.
    Chairwoman Maloney. I thank the gentleman for yielding 
back, and I now recognize myself.
    In response to the Capitol Police, there have been several 
hearings in this Congress with the Capitol Police under the 
House Administration Committee that has jurisdiction. We are 
bringing in new people. The people who testified today had not 
testified before.
    And I appreciate the testimony of all of our witnesses 
today, especially Chief Contee, whose officers displayed so 
much heroic action during the attack on our Capitol. But I was 
surprised and disappointed by the testimony of Mr. Rosen and 
Mr. Miller. They would have us believe that DOJ and DOD did 
everything right on January 6, that there was no room for 
improvement, and that the horror that every American saw on 
television was not their problem.
    I strongly disagree. January 6 was a historic failure. The 
Capitol was overrun. Several Americans died, and our Nation's 
peaceful transfer of power was delayed and nearly derailed.
    If the Attorney General had done his job, then our law 
enforcement agencies would have been better prepared for the 
threat of violence by President Trump's supporters. If the 
Defense Secretary had done his job, the mob attack would have 
been repelled hours earlier.
    Mr. Miller learned rioters had breached the Capitol 
perimeter by 1:30 p.m. He ``activated'' the D.C. National Guard 
at 3 p.m., but the Guard did not deploy until Mr. Miller 
approved an operational plan. And he admitted today that he did 
not approve that plan until 90 minutes later at 4:32 p.m.
    All of us watching at the Capitol or on television saw the 
horror in our Capitol and the threat to lives. And the delays 
did not end then. The National Guard did not actually begin 
operations at the Capitol until 5 p.m., many hours after House 
and Senate leadership, the Mayor, and the Capitol Police had 
all urgently, urgently called for help.
    Mr. Miller claimed this response was ``rapid,'' but the 
facts show it was disastrously slow. Of course, the person most 
responsible for this national travesty is former President 
Trump himself. He set the date. He fed the big lie to his 
supporters. He told them to go to the Capitol and ``fight like 
hell.''
    And when they attacked, when they put lives at risk, when 
they entered our Capitol, he just sat back and did nothing, did 
nothing to protect the Capitol and the people. The Trump 
administration must be held accountable for the January 6 
attack. They cannot pass the buck.
    This committee will continue to seek the truth. To do that, 
we need the documents, the documents we requested from DOJ and 
FBI and other agencies well over four months ago. We also need 
witnesses to provide complete testimony without hiding behind 
phony claims of confidentiality. We need documents in order to 
conduct a proper investigation, and they have yet to come.
    I am also hopeful that we will soon have a bipartisan 
commission to examine the root causes of this insurrection and 
help prevent similar attacks in the future. The 9/11 Commission 
was government at its best. This Congress came together, 
Republicans and Democrats, and we were united and determined.
    We created a commission, passed it, funded it, gave it 
subpoena power, and appointed two outstanding public servants 
to head it. Former Governor of New Jersey Tom Kean, former 
Member of Congress, Chairman Hamilton. They worked together 
hand-in-hand. They wrote the report together.
    When it came out, it sold more copies than Harry Potter. I 
really actually nominated them for a National Book Award, but 
they didn't win the award, but they really won the battle with 
what they came out with--51 strong recommendations of how to 
make this country safer and stronger. This Congress continued 
to work together, and we enacted every single one, at least 49 
out of the entire recommendations, and it has made this country 
stronger and better.
    We need the same united determination. No one is better or 
stronger than this country when we pull together and work 
together. We need a commission that is funded with appropriate 
subpoena powers, all the time they need to do a thorough 
investigation and report on how to respond to this in a 
substantive way so that it never happens again.
    I yield back.
    And I also would like to add in closing that I thank our 
panelists for their remarks, and I want to commend my 
colleagues for participating in this important conversation.
    With that and without objection, all members will have five 
legislative days within which to submit extraneous materials 
and to submit additional written questions for the witnesses to 
the chair, which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond as promptly as 
you are able.
    This hearing is adjourned.
    [Whereupon, at 3:08 p.m., the committee was adjourned.]

                         [all]
</pre></body></html>
